NO. _______
____________
IN THE

Supreme Court of the United States
ZF AUTOMOTIVE US, INC., GERALD DEKKER, AND CHRISTOPHE MARNAT,
Applicants,
V.

LUXSHARE, LTD.,
Respondent.

APPLICATION DIRECTED TO THE HONORABLE BRETT M. KAVANAUGH
FOR STAY AND REQUEST FOR IMMEDIATE ADMINISTRATIVE STAY
__________
Sean M. Berkowitz
Latham & Watkins LLP
330 N. Wabash
Suite 2800
Chicago, IL 60611
Zachary L. Rowen
Justin S. Kirschner
Latham & Watkins LLP
1271 Avenue of the Americas
New York, NY 10020
October 15, 2021

Roman Martinez
Counsel of Record
Tyce R. Walters
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com
Counsel for Applicants

RULE 29.6 STATEMENT
Pursuant to Rule 29.6 of the Rules of this Court, petitioner ZF Automotive US
Inc. hereby states that it is not a publicly traded company, it is owned by a parent
company ZF Friedrichshafen AG, and no publicly held corporation owns 10% or more
of its stock, nor does any publicly held corporation own 10% or more of the stock of
ZF Friedrichshafen AG.

i

TABLE OF CONTENTS
Page
RULE 29.6 STATEMENT .............................................................................................. i
TABLE OF AUTHORITIES ......................................................................................... iii
JURISDICTION............................................................................................................. 5
FACTUAL BACKGROUND AND PROCEEDINGS BELOW ..................................... 6
A.

The Parties And The Underlying Transaction ........................................ 6

B.

Luxshare Commences The Section 1782 Action Years After The
Transaction Closed ................................................................................... 7

REASONS FOR GRANTING THE APPLICATION .................................................. 13
I.

II.

A Stay Is Necessary To Ensure This Court Can Resolve The Section 1782
Issue And To Protect Applicants’ Appellate Rights ......................................... 13
A.

A Reasonable Probability Exists That This Court Will Grant
Certiorari And Reverse .......................................................................... 14

B.

Without A Stay, Applicants Will Suffer Irreparable Harm .................. 25

C.

The Balance Of Equities Favors A Stay ................................................ 30

The Court Should Issue An Administrative Stay To Allow It To Fully
Consider The Application ................................................................................. 32

CONCLUSION............................................................................................................. 33

ii

TABLE OF AUTHORITIES
Page(s)
CASES
In re Application of Furstenberg Finance SAS (Furstenberg Finance SAS v.
Litai Assets LLC),
877 F.3d 1031 (11th Cir. 2017) .............................................................................. 12
In re Application to Obtain Discovery for Use in Foreign Proceedings
(Abdul Latif Jameel Transp. Co. v. FedEx Corp.),
939 F.3d 710 (6th Cir. 2019) .......................................................................... 5, 8, 17
Barclaysamerican Corp. v. Kane,
746 F.2d 653 (10th Cir. 1984) ................................................................................ 29
Bayer AG v. Betachem, Inc.,
173 F.3d 188 (3d Cir. 1999) .................................................................................... 12
Bouvier v. Adelson (In re Accent Delight International Ltd.),
869 F.3d 121 (2d Cir. 2017) .................................................................................... 27
Chafin v. Chafin,
568 U.S. 165 (2013) ................................................................................................ 26
Fund for Protection of Investor Rights in Foreign States v. AlixPartners,
LLP,
5 F.4th 216 (2d Cir. 2021) ...................................................................................... 21
Garrison v. Hudson,
468 U.S. 1301 (1984) ........................................................................................ 20, 26
In re Gorsoan Ltd.,
No. 18-MC-431, 2020 WL 4194822 (S.D.N.Y. July 21, 2020) ............................... 27
Gulf Oil Corp. v. Gilbert,
330 U.S. 501 (1947) ................................................................................................ 22
Hollingsworth v. Perry,
558 U.S. 183 (2010) .......................................................................................... 13, 14
IntelCorp. v. Advanced Micro Devices, Inc.,
542 U.S. 241 (2004) .................................................................................................. 8
John Doe Agency v. John Doe Corp.,
488 U.S. 1306 (1989) ........................................................................................ 26, 32

iii

Page(s)
Lancaster Factoring Co. v. Mangone (In re Lancaster Factoring Co.),
90 F.3d 38 (2d Cir. 1996) ........................................................................................ 27
In re Letters Rogatory Issued by the Director of Inspection of the
Government of India,
385 F.2d 1017 (2d Cir. 1967) .................................................................................. 12
National Broadcasting Co. v. Bear Stearns & Co.,
165 F.3d 184 (2d Cir. 1999) .................................................................................... 15
New York v. Kleppe,
429 U.S. 1307 (1976) ........................................................................................ 20, 26
Pallares v. Kohn (In re Chevron Corp.),
650 F.3d 276 (3d Cir. 2011) .................................................................................... 27
Philip Morris USA Inc. v. Scott,
561 U.S. 1301 (2010) ........................................................................................ 27, 30
Porter v. Dicken,
328 U.S. 252 (1946) ................................................................................................ 19
Porter v. Lee,
328 U.S. 246 (1946) ................................................................................................ 19
In re Professionals Direct Insurance Co.,
578 F.3d 432 (6th Cir. 2009) .................................................................................. 28
Republic of Kazakhstan v. Biedermann International,
168 F.3d 880 (5th Cir. 1999) .................................................................................. 15
Servotronics, Inc. v. Rolls-Royce PLC,
975 F.3d 689 (7th Cir. 2020), cert. granted, 141 S. Ct. 1684 (2021) ......... 15, 24, 25
Servotronics, Inc. v. Rolls-Royce PLC,
141 S. Ct. 1684 (2021) .............................................................................................. 8
United States v. Amlani,
169 F.3d 1189 (9th Cir. 1999) ................................................................................ 29
United States v. Global Fishing, Inc. (In re Premises Located at 840 140th
Ave. NE, Bellevue, Washington),
634 F.3d 557 (9th Cir. 2011) .................................................................................. 12

iv

Page(s)
von Bulow ex rel. Auersperg v. von Bulow (In re von Bulow),
828 F.2d 94 (2d Cir. 1987) ...................................................................................... 28
STATUTES
28 U.S.C. § 1254(1) ........................................................................................................ 5
28 U.S.C. § 1291 ........................................................................................................... 12
28 U.S.C. § 1651 ......................................................................................................... 1, 5
28 U.S.C. § 1782 (1958) ............................................................................................... 23
28 U.S.C. § 1782(a) .................................................................................................. 1, 24
28 U.S.C. § 2101(e)......................................................................................................... 5
Act of Mar. 3, 1863, ch. 95, 12 Stat. 769 ..................................................................... 23
Act of Sept. 2, 1958, Pub. L. No. 85-906, 72 Stat. 1743 .............................................. 23
OTHER AUTHORITIES
Black’s Law Dictionary (4th ed. 1951) ........................................................................ 22
Bundesgerichtshof [BGH] [Federal Court of Justice], 16 March 2009, II ZR
32/08, marginal number 22; 17 Dec. 2015, IX ZR 61/14, marginal
number 42-43; 10 Nov. 2020, VI ZR 285/19, marginal number 15
(collectively available at
https://www.bundesgerichtshof.de/DE/Entscheidungen/entscheidungen_
node.html) ............................................................................................................... 31
Draft Convention on Judicial Assistance (the Harvard Draft Convention),
33 Am. J. Int’l L. Sup. 11 (1939) ............................................................................ 22
Fourth Annual Report of the Commission on International Rules of
Judicial Procedure, H.R. Doc. No. 88, 88th Cong., 1st Sess. (1963) ..................... 23
Oxford English Dictionary (1933, reprinted 1961) ..................................................... 22
Stephen M. Shapiro et al., Supreme Court Practice (11th ed. 2019, online) ............ 19
Hans Smit, Assistance Rendered by the United States in Proceedings Before
International Tribunals, 62 Colum. L. Rev. 1264 (1962) ...................................... 22
Sup. Ct. R. 11 ............................................................................................................... 18
v

Page(s)
Sup. Ct. R. 23 ................................................................................................................. 1
Webster’s Seventh New Collegiate Dictionary (1963).................................................. 22

vi

To the Honorable Brett M. Kavanaugh, Justice of the Supreme Court of the
United States and Circuit Justice for the United States Court of Appeals for the Sixth
Circuit:
Pursuant to 28 U.S.C. § 1651 and Supreme Court Rule 23, Applicants ZF
Automotive US, Inc., Gerald Dekker, and Christophe Marnat respectfully request
that your Honor stay the order of the United States District Court for the Eastern
District of Michigan requiring Applicants to produce discovery under 28 U.S.C.
§ 1782(a) (Section 1782). Order re Mot. to Quash (Dkt. No. 29) (Exhibit C).1 On
September 10, 2021, Applicants filed a petition for certiorari with this Court seeking
review of that order (No. 21-401). Two days ago, the Sixth Circuit denied Applicants’
request for a stay of the order. Order Denying Stay (CA6 ECF No. 31-2) (Exhibit E);
Order re Mot. to Compel (Dkt. No. 38) (Exhibit D). Absent a stay, Applicants must
now produce the requested discovery by October 27, 2021.
A stay is necessary to protect this Court’s ability to grant certiorari and resolve
the identical question on which the Court granted certiorari last spring in
Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794. Servotronics was dismissed by joint
stipulation on September 29, 2021, as the parties there appear to have concluded that
the case was moot. But the question presented in that case—resolving the scope of
28 U.S.C. § 1782(a), which authorizes district courts to compel discovery for use in

Citations to “Dkt. No. [#]” refer to documents filed below in In re Application
for an Order Pursuant to 28 U.S.C. § 1782 to Conduct Discovery for Use in Foreign
Proceedings, No. 2:20-mc-51245 (E.D. Mich.). Citations to “CA6 ECF No. [#]” refer to
documents filed in Luxshare, Ltd. v. ZF Automotive US, Inc., No. 21-2736 (Sixth Cir.).
Citations to “Exhibit [X]” refer to the exhibits attached hereto.
1

1

“foreign or international tribunals”—remains pressing, important, and subject to an
entrenched circuit conflict. Although Applicants filed their petition for certiorari
before the Sixth Circuit issued judgment (because binding circuit precedent forecloses
their ability to prevail on the question presented), they have since filed a motion for
summary affirmance in that court, which likely will soon enter a final judgment
resolving the appeal. This case is an ideal candidate to replace Servotronics and
resolve the circuit split over the meaning of Section 1782(a).
A stay is necessary to ensure that this case, like Servotronics, does not become
moot before this Court is able to render a decision. Here, the district court relied on
Section 1782 to order Applicants to produce discovery to Luxshare for use in a foreign
arbitration.

And because the Sixth Circuit denied Applicants’ stay request,

Applicants are now required to turn over that discovery by October 27. Without a
stay from this Court, Applicants will risk losing the ability to vindicate their rights
on appeal to this Court. Luxshare has made clear that as soon as the discovery at
issue is turned over, it will immediately make use of the materials against Applicants
in the forthcoming arbitration (which Luxshare plans to file by the end of 2021).
Luxshare will use those materials in its initial pleadings to the arbitrators, as well
as in questioning witnesses before and during the hearing. Worse, the expedited
arbitration may well wrap up before this Court has an opportunity to render a
decision.

And even if the Court agrees with Applicants that discovery is not

authorized before the arbitration hearing begins, most of the damage will have
already been done. In either of those events, a victory on the merits in this Court

2

would do Applicants little good. This Court’s denial of a stay will therefore give
Luxshare the benefit of discovery to which it is not entitled under Section 1782. It
could also eliminate the best vehicle this Court has for expeditiously resolving the
important Section 1782 question that it agreed to review in Servotronics.
In these unusual circumstances, Applicants filed a petition for certiorari before
judgment on September 10, 2021. Luxshare filed its opposition to that petition
yesterday, October 14, and the case will likely be scheduled for the conference to be
held on November 19, 2021. Applicants appreciate the atypical nature of the request
for certiorari before judgment, but believe there is good cause to seek the Court’s
intervention at this time. In any event, Applicants fully expect the Sixth Circuit to
grant their motion for summary affirmance—which concedes the appeal based on
binding Sixth Circuit precedent—soon. At that point, Luxshare’s central arguments
against certiorari—all of which turn on the absence of a Sixth Circuit judgment—will
dissipate.
This Court should grant the stay to protect its own ability to definitively
resolve the important question on which it granted certiorari in Servotronics:
Whether a private commercial arbitral panel qualifies as a “foreign or international
tribunal” under Section 1782.

The proper interpretation of Section 1782 has

intractably divided the federal courts of appeal, and only a decision by this Court can
ensure uniform application of this important federal law. And a circuit split is
particularly pernicious in this context: As amici in Servotronics have explained,
“divergent approaches [between the circuits] may disincentivize parties from entering

3

into contractual agreements to privately arbitrate disputes” in the first place. See
Servotronics Atlanta Int’l Arbitration Soc’y Amicus Br. in Supp. of Cert. 9 (Jan. 11,
2021). In light of the Servotronics dismissal, this case presents an ideal vehicle by
which the Court could determine—once and for all—what Section 1782 means.
A stay is also warranted to protect Applicants’ rights under Section 1782.
Properly interpreted, that provision does not authorize discovery for use in private
arbitration proceedings abroad. That is the position adopted by the Second, Fifth,
and Seventh Circuits—and embraced by a host of amici, including the United States
and U.S. Chamber of Commerce.

Without a stay, Applicants risk losing the

opportunity to take advantage of a favorable decision by this Court, because they will
have been forced to turn over the requested discovery long before any ruling. In these
circumstances, denying a stay will effectively deny Applicants their basic right of
appellate review. Granting a stay, meanwhile, freezes the status quo while this Court
considers whether to grant review on the merits.
Finally, Applicants respectfully request an immediate administrative stay of
the district court’s order pending consideration of this application. As noted, the
district court’s order requires Applicants to produce discovery to Luxshare by October
27, 2021 (14 days after the Sixth Circuit’s denial of Applicants’ stay motion on October
13). An administrative stay is thus warranted to preserve the status quo pending a
ruling on the stay application.

4

JURISDICTION
The order of the district court was entered on July 1, 2021. Order re Mot. to
Quash (Exhibit C). On July 16, 2021, Applicants moved the district court for a stay
pending appeal (Dkt. No. 30), and on July 20, 2021, Applicants filed their notice of
appeal to the Sixth Circuit (Dkt. No. 32). The district court denied the motion for a
stay pending appeal on August 17, 2021, and simultaneously granted Luxshare’s
motion to compel production of discovery within 14 days of the Sixth Circuit’s ruling.
Order re Mot. to Compel 13-14 (Exhibit D).
On July 27, 2021, the Sixth Circuit requested briefing on whether it had
appellate jurisdiction over Applicants’ appeal. See Order to Show Case (ECF No. 9).
Applicants responded to that request (ECF No. 12), and Luxshare chose not to file a
brief opposing jurisdiction. On October 13, 2021, the Sixth Circuit held that it had
jurisdiction over Applicants’ appeal, and it denied Applicants’ motion for a stay
pending appeal. See Order Denying Stay (Exhibit E); infra at 12 n.2.
On October 14, Applicants filed a motion asking the Sixth Circuit to summarily
affirm the district court’s order—based on that court’s binding precedent in In re
Application to Obtain Discovery for Use in Foreign Proceedings (Abdul Latif Jameel
Transp. Co. v. FedEx Corp.) (“Abdul Latif”), 939 F.3d 710, 730 (6th Cir. 2019)—in
order to help facilitate this Court’s review. That motion remains pending. This Court
has jurisdiction under 28 U.S.C. §§ 1254(1), 1651 and 2101(e).

5

FACTUAL BACKGROUND AND PROCEEDINGS BELOW
A.

The Parties And The Underlying Transaction

Applicant ZF US is a Michigan-based automotive parts manufacturer and an
indirect subsidiary of ZF Friedrichshafen AG (“ZF AG”), a German corporation
headquartered in Germany. Mot. to Quash Exh. 3 at 1-2 (¶¶ 2-5) (Dkt. No. 6-4).
Applicant Gerald Dekker was formerly a Vice President at ZF US.

Applicant

Christophe Marnat is Chief Operations Officer and formerly Executive Vice President
of ZF US. Id. at 2 (¶ 6).
In August 2017, after several months of negotiations and due diligence, ZF US
sold its Global Body Control Systems business unit to Respondent Luxshare, a Hong
Kong limited liability company. See id. at 2-3 (¶¶ 8, 11). The terms of the sale are
contained in a Master Purchase Agreement (“MPA”). See Mot. to Quash Exh. 1 at
Exh. A (Dkt. No. 6-2). The MPA provides that it is to be governed by German law, id.
§ 20.10.1, and requires that all disputes:
shall be exclusively and finally settled by three (3) arbitrators in
accordance with the Arbitration Rules of the German Institution of
Arbitration e.V. (DIS), including the Supplementary Rules for Expedited
Proceedings, . . . without recourse to the ordinary courts of law.
Id. § 20.10.2.
As relevant here, the DIS Rules chosen by the parties place the DIS arbitral
panel in charge of taking evidence in its own proceedings, empowering the panel to
“on its own initiative, appoint experts, . . . and order any party to produce or make
available any documents or electronically stored data.” See Mot. to Quash Exh. 1 at
Exh. B (Dkt. No. 6-2) (2018 DIS Arbitration Rules, art. 28.2).

6

The parties are

generally restricted to one written submission and one oral hearing after opening
pleadings, and the arbitral panel shall make a final award within six months from
its formation, if possible. See id. (Annex 4).
Luxshare alleges that “[a]fter the [April 2018] [c]losing” of its deal, it learned
that ZF US fraudulently concealed information during the negotiation and diligence
process. See Application Mem. 9-10 (Dkt. No. 1). Luxshare, however, did not raise
any of these fraud allegations in its many discussions with individuals from ZF in the
two-and-a-half years that followed. See Mot. to Quash Exh. 3 at 3-4 (¶ 12) (Dkt. No.
6-4).
B.

Luxshare Commences The Section 1782 Action Years After The
Transaction Closed

1. On October 16, 2020, two and a half years after the transaction’s closing,
Luxshare filed an ex parte application under Section 1782. See Application (Dkt.
No. 1). Four days later, on October 22, 2020—and without awaiting a response by
Applicants—the district court granted Luxshare’s ex parte application in a one-page
order, with no analysis of the applicable law. See Order Granting Application (Dkt.
No. 3) (Exhibit A). The following day, Luxshare served Applicants with subpoenas.
Br. on Mot. to Quash 7 (Dkt. No. 6)
On December 4, 2020, Applicants timely moved to quash the subpoenas on
various grounds, including that the application should have been denied in its
entirety.

See Mot. to Quash (Dkt. No. 6).

Applicants argued that Luxshare’s

application did not satisfy two of Section 1782’s statutory prerequisites—namely, the
DIS arbitration was not “within reasonable contemplation,” and the arbitral panel

7

was not a “tribunal” within the meaning of Section 1782. See Br. on Mot. to Quash
9-11 & n.4 (Dkt. No. 6). Although Applicants recognized that the Sixth Circuit has
held that a private arbitral body qualifies as a Section 1782 tribunal, see Abdul Latif,
939 F.3d at 721, Applicants also noted there was a circuit split on this issue.
Applicants thus preserved their argument that the prospective DIS panel was not a
“tribunal,” consistent with the law in the Second, Fifth, and Seventh Circuits, as well
as various district courts. See Br. on Mot. to Quash 11-12 n.4 (Dkt. No. 6). Three
days later, the petition for a writ of certiorari was filed with this Court in
Servotronics, presenting the question whether a foreign private arbitral panel is a
Section 1782 “tribunal.” Servotronics Pet., No. 20-794 (filed Dec. 7, 2020).
Applicants further argued that even if Luxshare had met Section 1782’s
statutory prerequisites, the subpoenas should still be quashed because the four
applicable discretionary factors weighed against permitting such discovery. See Br.
on Mot. to Quash 12-25 (Dkt. No. 6); Reply Br. on Mot. to Quash 2-5 (Dkt. No. 14);
IntelCorp. v. Advanced Micro Devices, Inc., 542 U.S. 241, 246-47 (2004) (establishing
factors).

On February 24, 2021, the magistrate judge held oral argument on

Applicants’ motion to quash. There, Applicants again preserved the argument that
foreign private arbitrations are not Section 1782 “tribunals,” in the event this Court
granted review in Servotronics. See 2/24/2021 Hrg. Tr. 6:20-8:5 (Dkt. No. 25).
2. On March 22, 2021, this Court granted certiorari in Servotronics, Inc. v.
Rolls-Royce PLC, 141 S. Ct. 1684 (2021), as to the question: “Whether the discretion
granted to district courts in 28 U.S.C. § 1782(a) to render assistance in gathering

8

evidence for use in ‘a foreign or international tribunal’ encompasses private
commercial arbitral tribunals, as the Fourth and Sixth Circuits have held, or excludes
such tribunals without expressing an exclusionary intent, as the Second, Fifth, and,
in the case [at issue], the Seventh Circuit have held.” Servotronics Pet. i.
In that case, the petitioner Servotronics sought Section 1782 discovery from
respondents Boeing and Rolls-Royce for use in a private arbitration in London.
Servotronics Pet. 2-6. The Seventh Circuit held that Section 1782 was not available
to obtain discovery for use in such private arbitral proceedings, and denied
Servotronics’ application. Id. at 5; Servotronics Pet. App. 1a-16a.
In the two months following this Court’s grant of review in Servotronics, the
London arbitration proceedings for which Servotronics sought its discovery continued
to move forward, culminating in a hearing that lasted from May 10 to May 21, 2021.
See Servotronics Rolls-Royce Br. 8. In their merits briefs, both Boeing and RollsRoyce asserted as their primary argument that the arbitral hearing’s conclusion
rendered the Section 1782 case before this Court moot, and that in any event the case
would undoubtedly be moot once the arbitrators announce their final decision. Id. at
12-14; Servotronics Boeing Br. 12-14. Presumably for these reasons, on September
24 the Servotronics parties jointly moved this Court to dismiss the case.

See

Servotronics Joint Stipulation to Dismiss pursuant to Rule 46.1 (filed Sept. 24, 2021).
On September 29, this Court granted that motion.
Dismissal (Sept. 29, 2021).

9

See Servotronics Order of

3. Meanwhile, in the proceedings below, Applicants here notified the district
court of the grant of certiorari in Servotronics. Notice (Dkt. No. 22). On May 27,
2021, the magistrate judge partially granted and partially denied Applicants’ motion
to quash.

See Magistrate Order re Mot. to Quash (Dkt. No. 26) (Exhibit B).

Specifically, it ordered ZF US and Mr. Marnat to respond to their respective
document subpoenas, subject to certain limitations, and ordered either Mr. Marnat
or Mr. Dekker to sit for a deposition. Id. at 28-35. Further, though neither party had
briefed the issue, the magistrate judge expressly declined to stay discovery pending
Servotronics. Id. at 25-27.
Applicants timely objected to the magistrate judge’s order. Objections to Order
(Dkt. No. 27). The district court overruled Applicants’ objections. Reviewing the
magistrate judge’s order under the deferential “clearly erroneous or contrary to law”
standard, the district court deferred to the magistrate judge’s assessment of the Intel
factors. See Order 4-17 (Dkt. No. 29) (Exhibit C) (citation omitted). The court also
approved the magistrate judge’s decision not to stay discovery pending Servotronics.
See id. at 17-19.
On July 12, 2021, Applicants’ counsel informed Luxshare of their intent to
appeal. See Mot. to Compel Exh. 2 at 5 (Dkt. No. 31-3). Recognizing Luxshare’s
approaching deadline for filing any arbitration, Applicants offered to agree—if a stay
pending appeal were granted—not to invoke the statute of limitations on Luxshare’s
putative claims before the DIS during the pendency of Applicants’ appeal.
Luxshare rejected that proposal. Id. at 2.

10

Id.

On July 16, 2021, Applicants moved in the district court under Federal Rule of
Appellate Procedure 8 to stay proceedings pending resolution of their appeal. See
Stay Mot. (Dkt. No. 30). In that motion, Applicants reiterated their commitment not
to invoke the statute of limitations on Luxshare’s deadline to file its arbitration if a
stay were granted. See id. at 17. In response, Luxshare filed a motion to compel the
production of certain documents. See Mot. to Compel (Dkt. No. 31). Applicants thus
moved as well for a stay pending appeal in the Sixth Circuit, to forestall a
circumstance in which the district court might grant the motion to compel before
Applicants had an opportunity to seek a stay from the court of appeals.
On August 17, the district court denied Applicants’ motion for a stay pending
appeal, and simultaneously granted Luxshare’s motion to compel. See Order re Mot.
to Compel (Exhibit D). The district court recognized, however, that Applicants had
also sought a stay from the Sixth Circuit, that there was “some legal basis for ZF US
to appeal and seek a stay given the state of the law in the Sixth Circuit and the fact
that the issue is pending before the Supreme Court,” and that ZF US had “engaged
in good-faith efforts to collect responsive documents to be prepared to expeditiously
produce these documents.” Id. at 13 (citation omitted). Accordingly, the district court
specified that Applicants would have 14 days after any denial by the Sixth Circuit of
the motion to stay to produce the requested discovery. Id. at 13-14.

11

On October 13, the Sixth Circuit denied the motion to stay pending before that
court. Exhibit E. Under the terms of the district court’s order, Applicants must thus
produce discovery by October 27.2
4. On October 14, 2021, Applicants moved in the Sixth Circuit for summary
affirmance of the district court’s order. See CA6 ECF No. 32. That motion recognized
that binding Sixth Circuit precedent in Abdul Latif foreclosed Applicants’ arguments
on the key legal issue in this case, that continuing to litigate the Sixth Circuit appeal
would waste judicial and party resources, and that obtaining a final judgment from
the Sixth Circuit might facilitate this Court’s review of the key Servotronics question.
Before the motion was filed, counsel for Luxshare informed counsel for
Applicants that it would not take a position on the motion until the motion was filed

Shortly after the filing of the notice of appeal, the Sixth Circuit issued an order
for the parties to address the question of jurisdiction, noting that discovery orders are
ordinarily not appealable absent the threat of contempt. Applicants filed a brief
explaining that the federal courts of appeals agree that in the unique context of
Section 1782, an order requiring the production of discovery is “final” for purposes of
28 U.S.C. § 1291, because “[o]nce the district court has ruled on the parties’ motions
concerning the evidentiary requests, there is no further case or controversy before the
district court.” In re Application of Furstenberg Fin. SAS (Furstenberg Fin. SAS v.
Litai Assets LLC), 877 F.3d 1031, 1034 (11th Cir. 2017) (alteration in original)
(quoting United States v. Global Fishing, Inc. (In re Premises Located at 840 140th
Ave. NE, Bellevue, Wash.), 634 F.3d 557, 566 (9th Cir. 2011); see ZF Automotive Resp.
to Show Cause Order at 8-13 (ECF No. 12); see also In re Premises, 634 F.3d at 566
(noting that for decades, courts of appeals “have permitted appeals from a district
court’s orders under [Section] 1782, even if the complaining party has not subjected
himself or herself to contempt sanctions”); Bayer AG v. Betachem, Inc., 173 F.3d 188,
189 (3d Cir. 1999); In re Letters Rogatory Issued by the Dir. of Inspection of the Gov’t
of India, 385 F.2d 1017, 1018 (2d Cir. 1967). The Sixth Circuit ultimately concluded,
in line with the reasoning of its sister circuits, that the district court’s denial of the
motion to quash was a final, appealable order. See Order Denying Stay 2-3 (Exhibit
E).
2

12

and Luxshare had the opportunity for review. Applicants expect that Luxshare will
ultimately consent to the motion for summary affirmance. After all, that motion is
based on the argument that Luxshare repeatedly made to the Sixth Circuit—that the
district court’s order granting discovery was correct and should be affirmed under the
Sixth Circuit’s binding decision in Abdul Latif. See, e.g., Opposition of Luxshare To
Stay Pending Appeal at 1-2, 14-15, CA6 ECF No. 13; Luxshare’s Emergency Motion
For Expedited Consideration at 4, CA6 ECF No. 30-1.
Because the parties agree that Applicants cannot prevail under binding Sixth
Circuit precedent—and because the Sixth Circuit has already indicated that it
believes Applicants’ appeal lacks merit, see Order Denying Stay 3 (Exhibit E)—
Applicants anticipate that the Sixth Circuit will soon issue an order affirming the
district court’s decision.
REASONS FOR GRANTING THE APPLICATION
I.

A STAY IS NECESSARY TO ENSURE THIS COURT CAN RESOLVE
THE SECTION 1782 ISSUE AND TO PROTECT APPLICANTS’
APPELLATE RIGHTS
This Court should stay the district court’s order requiring Applicants to

produce discovery under Section 1782 for use in foreign arbitral proceedings pending
disposition of Applicants’ petition for a writ of certiorari. Such a stay is warranted if
there is “(1) a reasonable probability that four Justices will consider the issue
sufficiently meritorious to grant certiorari; (2) a fair prospect that a majority of the
Court will vote to reverse the judgment below; and (3) a likelihood that irreparable
harm will result from the denial of a stay.” Hollingsworth v. Perry, 558 U.S. 183, 190
(2010).

Those requirements are readily met here.
13

Because this Court, in

Servotronics, already granted certiorari on the precise question presented here, there
is a strong basis to believe that the Court will similarly grant Applicants’ petition
offering the Court an ideal vehicle to resolve the ongoing confusion over the scope of
Section 1782. Moreover, Applicants’ position on the merits is most consistent with
the statute’s text, structure, and history—and has been embraced by three circuit
courts and the United States. Staying the district court’s order will ensure that this
Court has an opportunity to resolve the Section 1782 issue, after being prevented
from doing so in Servotronics.
On top of that, the “balance of equities” weighs strongly in Applicants’ favor.
Id. at 196. Irreparable harm to Applicants will undoubtedly result if the district
court’s order is not stayed, as Luxshare will immediately use any discovery obtained
in this case in its request for arbitration—potentially leaving Applicants with no
remedy even if they are ultimately vindicated on the threshold legal question in this
case. Denial of a stay will, relatedly, risk mooting this case before the Court has had
an opportunity to consider whether review is appropriate. On the other side of the
ledger, Luxshare will suffer no harm from a stay, as it has not yet filed its request for
arbitration and Applicants have irrevocably committed to tolling the statute of
limitations to initiate arbitration if a stay is granted. See, e.g., Decl. of Michael J.
Way (Exhibit F). A stay is clearly warranted.
A.

A Reasonable Probability Exists That This Court Will Grant
Certiorari And Reverse

1. The question presented in Applicants’ petition for certiorari is the exact
same question on which this Court already granted review in Servotronics: Whether

14

“the discretion granted to district courts in 28 U.S.C. §1782(a) to render assistance in
gathering evidence for use in ‘a foreign or international tribunal’ encompasses private
commercial arbitral tribunals, as the Fourth and Sixth Circuits have held, or excludes
such tribunals . . . as the Second, Fifth, and . . . the Seventh Circuit[] have held.”
Servotronics Pet. i; see ZF Automotive Pet. i (No. 21-401). This Court was unable to
resolve this crucial issue in Servotronics, because of the petitioner’s voluntary
dismissal—presumably based on a recognition that the case was moot. As Applicants
have explained in their petition, the Court should grant certiorari here in order to
resolve the Section 1782 issue. See ZF Automotive Pet. 13-19. And it should grant a
stay to preserve its ability to do so.
In Servotronics, the Court planned to address the fundamental question
whether Section 1782 can be used to obtain discovery in connection with foreign
private arbitrations. Though the Sixth Circuit and Fourth Circuit have previously
answered that question in the affirmative, the Second, Fifth, and Seventh Circuits—
and district courts in many jurisdictions—have held the opposite because foreign
private arbitrations are not Section 1782 “tribunal[s].”

See, e.g., Republic of

Kazakhstan v. Biedermann Int’l, 168 F.3d 880, 881 (5th Cir. 1999); National Broad.
Co. v. Bear Stearns & Co., 165 F.3d 184, 185-86 (2d Cir. 1999); Servotronics, Inc. v.
Rolls-Royce PLC, 975 F.3d 689, 696 (7th Cir. 2020), cert. granted, 141 S. Ct. 1684
(2021). This question is every bit as vital today—and the split between the circuits
every bit as deep—as it was when this Court granted review in Servotronics.

15

The problem is that the Court was unable to resolve that split in Servotronics.
In the lower courts, the petitioner in Servotronics sought discovery for use in private
arbitration proceedings in London, conducted pursuant to the rules of the Chartered
Institute of Arbitrators. See Servotronics Rolls-Royce Br. 4-5. But the hearing in that
London arbitration finished on May 21, 2020. Id. at 13. Although no final decision
had been issued, the record in that hearing appeared to be closed. According to the
Servotronics respondents, no effective relief was thus possible, because any discovery
ordered by this Court would come too late to be introduced into evidence or otherwise
affect the London proceedings. Id. at 12-14. As a result, the respondents argued, the
case was “almost certainly moot,” Servotronics Boeing Br. 12-13; see also Servotronics
Rolls-Royce Br. 12. Faced with this argument, Servotronics appears to have conceded
the issue by stipulating to dismissal.
2. Following the Servotronics dismissal, this Court presumably still wishes to
resolve the Section 1782 issue on which it granted certiorari. This case offers the best
opportunity for doing so.
This case cleanly presents the pure legal question at issue in Servotronics.
There is no doubt that the DIS panel for which Luxshare seeks discovery is a foreign
private arbitral panel, and it is undisputed that if Section 1782 does not extend to
arbitrations conducted by such panels, Luxshare’s request must be denied. Moreover,
if this Court grants this stay, there is no risk this case will become moot. Because
Luxshare has not yet even commenced arbitration proceedings, the discovery dispute
will remain live pending a ruling from this Court.

16

To be sure, the Sixth Circuit has technically not yet ruled on Applicants’
appeal, and ordinarily this Court would wait to see what the appellate court does
before granting review itself in the first instance. Here, however, it is clear that the
Sixth Circuit will reject Applicants’ threshold argument that Section 1782 does not
authorize discovery.

As Luxshare and the district court have both (correctly)

emphasized below, the Sixth Circuit’s binding decision in Abdul Latif, 939 F.3d at
717-31, unequivocally holds that district courts are authorized to grant discovery for
use in foreign arbitration proceedings, on the theory that foreign arbitral panels do
count as “proceeding[s] in a foreign or international tribunal” under Section 1782.
See, e.g., Opp’n to Stay Mot. Pending Appeal 14 (ECF No. 13); Order re Mot. to Compel
4 (Exhibit D). Indeed, Applicants recently moved for summary affirmance of the
district court’s order in light of Abdul Latif. See supra at 12-13. Luxshare is highly
unlikely to oppose that motion, and Applicants expect the Sixth Circuit to issue a
final decision in Luxshare’s favor shortly.
A stay is necessary to keep this case fully alive and protect this Court’s ability
to resolve the Section 1782 issue. Without a stay, Applicants will be forced to turn
over the discovery at issue within 12 days.

Once they do so, Luxshare will

immediately use it in the forthcoming foreign arbitration. Luxshare could use that
discovery not only at the eventual arbitral hearing, but also immediately in its
opening pleadings, as well as to examine witnesses. Additionally, no United States
court—including this Court—would have the power to block Luxshare from using any
discovery obtained in the foreign arbitration. Even if this Court ultimately held that

17

the discovery were wrongfully obtained, exclusion of that evidence would ultimately
be at the discretion of the arbitral panel. And in any event, because the arbitration
will be governed by the DIS Rules for Expedited Proceedings, it is entirely possible
that arbitration proceedings could have concluded and a final ruling been issued
before either this Court or the Sixth Circuit renders a decision—leaving this case
undoubtedly moot. Indeed, Luxshare’s brief opposing certiorari emphasizes that it
wants the discovery at issue here so that it can file the German arbitration proceeding
and obtain a decision as soon as possible. ZF Automotive Br. in Opp. to Cert. 5-6, 1718 (No. 21-401).
The best vehicle in which to review the Section 1782 issue is a case like this
one—in which the courts below have granted discovery, but where the Court can issue
a stay and conduct its merits review before both (1) the discovery is produced, and (2)
the foreign arbitration proceeding has begun. If the Court waits for another case in
which the court of appeals denies discovery, it could face the same mootness problem
it confronted in Servotronics, in which the foreign arbitration proceedings move
forward to a conclusion without the discovery.
2. In these circumstances, the certiorari-before-judgment mechanism offers a
helpful procedural safety valve to ensure that important questions regarding
discovery do not evade this Court’s review. That mechanism is reserved for cases “of
such imperative public importance as to justify deviation from normal appellate
practice and to require immediate determination in this Court.” Sup. Ct. R. 11. Here,
this Court already determined (in Servotronics) that the Section 1782 question is

18

sufficiently important to require this Court’s attention this Term.

And, for the

reasons explained above, the Court may not have a similar opportunity to address
the issue again in a subsequent case absent a stay.
Notably, the Court has granted certiorari before judgment in analogous
circumstances, “when a similar or identical question of constitutional or other
importance was before the Court in another case,” and when granting review in the
second case would facilitate review of the question presented. Stephen M. Shapiro et
al., Supreme Court Practice § 4.20 (11th ed. 2019, online) (citing eleven examples).
Indeed, in at least one case, the Court appears to have granted certiorari before
judgment to protect against the possibility that an earlier-granted case presenting
the same issue could be moot.

See Porter v. Dicken, 328 U.S. 252, 254 (1946)

(addressing whether district courts could consider actions by federal Price
Administrator seeking to enjoin state court eviction proceedings, alongside Porter v.
Lee, 328 U.S. 246 (1946), where court of appeals had dismissed Lee, 328 U.S. at 252,
as moot because eviction had already occurred, unlike in Dicken where the eviction
was enjoined).
In any event, this case is unlikely to remain in its current certiorari-beforejudgment posture for long.

After the Sixth Circuit’s stay denial holding that

Applicants are unlikely to succeed on the merits, Applicants filed their motion for
summary affirmance based on the Sixth Circuit’s binding circuit precedent in Abdul
Latif. There is every reason to believe that Luxshare will accede to that motion—
which gives them a complete victory in that court—and that the Sixth Circuit will

19

soon issue a final judgment conclusively resolving the appeal. Once that happens,
the main arguments Luxshare has raised in its opposition to certiorari—each of
which turns on the absence of a Sixth Circuit judgment—will fall away. See ZF
Automotive Br. in Opp. to Cert. 9-17.
This case accordingly presents a strong vehicle for reviewing the Section 1782
issue. This Court should grant a stay to prevent the district court’s discovery order
from going into effect. It should then consider Applicants’ petition for certiorari in
the ordinary course, at its November 19 conference.
For all these reasons, there is certainly a “reasonable probability” that this
Court will grant certiorari. Indeed, Justices of this Court have often recognized that
similar considerations—including the need to protect the Court’s ability to grant
certiorari—weigh strongly in favor of granting a stay. See, e.g., New York v. Kleppe,
429 U.S. 1307, 1310, (1976) (Marshall, J., in chambers) (“Perhaps the most compelling
justification for a Circuit Justice to [stay a lower court decision is] to protect this
Court’s power to entertain a petition for certiorari before or after the final judgment
of the Court of Appeals.”); see also Garrison v. Hudson, 468 U.S. 1301, 1302 (1984)
(Burger, C.J., in chambers) (noting that “[when] the normal course of appellate review
might otherwise cause the case to become moot, issuance of a stay is warranted”
(citation omitted)).3

A petition for certiorari involving Section 1782 was recently filed in
AlixPartners, LLP v. Fund for Protection of Investor Rights in Foreign States, No. 21518 (docketed Oct. 5, 2021). But that case does not squarely present the Servotronics
issue and will not necessarily resolve the existing circuit split regarding the status of
private arbitration. Whereas Applicants’ case (like Servotronics) involves foreign
3

20

3. Finally, there is certainly a “fair prospect” that this Court will reverse the
district court’s order if certiorari is granted. That is because an interpretation of
Section 1782 that sweeps in private arbitral panels flies in the face of statutory text,
contemporaneous dictionary definitions, this Court’s precedent, legal scholarship,
and compelling policy concerns. See, e.g., ZF Automotive Pet. 19-24; Servotronics
Rolls-Royce Br. 14-50. A host of amici agree, including the United States and the
U.S. Chamber of Commerce. See Servotronics United States Amicus Br. (June 28,
2021); Servotronics Chamber of Commerce of U.S, et al. Amici Br. (June 28, 2021).
And so do the Second, Fifth, and Seventh Circuits, in thorough and well-reasoned
opinion. See supra at 15.
As those sources have explained, at the time Section 1782 was enacted in 1964,
dictionaries consistently defined a “tribunal” as a court or other governmental

private arbitrations, AlixPartners concerns whether Section 1782 applies to an
investor-state arbitration “that take[] place before an arbitral panel established by a
bilateral investment treaty to which that foreign State is a party.” Fund for Prot. of
Investor Rights in Foreign States v. AlixPartners, LLP, 5 F.4th 216, 220 (2d Cir. 2021).
The circuit split at issue in Servotronics involved private arbitrations, not
arbitrations involving a foreign state or conducted under a treaty, and at least one
court of appeals that has held that purely private arbitral panels (like the one at issue
here) are not Section 1782 “tribunals” nonetheless held that an investor-state
arbitration (like the one in AlixPartners) was a Section 1782 tribunal. Id. at 224-29.
If this Court agrees with the Second Circuit’s approach, the question presented by
Servotronics and this case will remain unresolved. Notably, Luxshare’s brief
opposing certiorari here points to AlixPartners as a better vehicle for resolving the
Section 1782 issue. ZF Automotive Br. in Opp. to Cert. 19-20. Luxshare is wrong
about that—but even if it were right, it would weigh strongly in favor of granting
Applicants’ stay motion and holding their petition for certiorari pending resolution of
AlixPartners. Even under that scenario, there is a “reasonable probability” that the
Court would eventually grant certiorari, either for plenary review or for vacatur in
light of a decision in AlixPartners.
21

adjudicator—a definition that plainly excludes private arbitrators, who exercise no
sovereign authority. See, e.g., Oxford English Dictionary (1933, reprinted 1961);
Webster’s Seventh New Collegiate Dictionary (1963); Black’s Law Dictionary (4th ed.
1951). This understanding is confirmed by statutory usage. See, e.g., Servotronics
Rolls-Royce Br. 21-23 & n.1 (collecting federal statutes using the term “tribunal”). It
is similarly confirmed by this Court’s own contemporary precedent, which uniformly
used the phrase “foreign tribunals” as a synonym for courts or their equivalents
around the time Section 1782 became law. See, e.g., id. at 25-27; Gulf Oil Corp. v.
Gilbert, 330 U.S. 501, 504 (1947).
Contemporary usage and academic discussion likewise reinforce that Section
1782 authorizes judicial assistance only for governmental and intergovernmental
authorities. Servotronics Rolls-Royce Br. 29-31 (collecting sources). For instance, in
1939 a group of American officials and scholars, in a Draft Convention on Judicial
Assistance (the Harvard Draft Convention), defined a “tribunal” to include “all courts
and a limited number of administrative agencies.” 33 Am. J. Int’l L. Sup. 11, 36
(1939). And those authorities expressly specified that the “judicial authority must be
an authority created by the State” and that a “tribunal of arbitration set up by private
parties . . . is not included, unless the law of the State declares it to be a judicial
authority of the State.” Id. Similarly, a 1962 article by one professor who drafted
legislative recommendations for Section 1782 defined an “international tribunal” as
one that “owes both its existence and its powers to an international agreement.” Hans
Smit, Assistance Rendered by the United States in Proceedings Before International

22

Tribunals, 62 Colum. L. Rev. 1264, 1267 (1962). Indeed, any definition of “foreign or
international tribunal” that did sweep in private arbitrators would be unworkably
vague and indeterminate, leaving parties with no way to know which private bodies
might or might not be eligible to trigger Section 1782.
Legislative history, too, is in accord. Before Congress revised Section 1782 to
include the language at issue here, the statute referred only to foreign “court[s],” Act
of Mar. 3, 1863, ch. 95, § 1, 12 Stat. 769, 769, and to “judicial proceeding[s] pending
in any court in a foreign country with which the United States is at peace,” 28 U.S.C.
§ 1782 (1958). The Rules Commission that proposed the revisions to Section 1782
had been tasked by Congress with improving “the procedures of our State and Federal
tribunals for the rendering of assistance to foreign courts and quasi-judicial
agencies.” Act of Sept. 2, 1958, Pub. L. No. 85-906, § 2, 72 Stat. 1743, 1743. Private
arbitrators, of course, are neither foreign courts nor quasi-judicial agencies. And
when it presented its revisions to Section 1782, the Rules Commission explained that
its new language was designed to provide district courts with “discretion to grant
assistance when proceedings are pending before investigating magistrates in foreign
countries,” and emphasized that the “necessity for obtaining evidence in the United
States may be as impelling in proceedings before a foreign administrative tribunal or
quasi-judicial agency as in proceedings before a conventional foreign court.” Fourth
Annual Report of the Commission on International Rules of Judicial Procedure, H.R.
Doc. No. 88, 88th Cong., 1st Sess. at 45 (1963) (emphasis added).

23

Those statements clearly reflect the drafters’ intention that Section 1782 be
broadened to permit United States courts to assist the many varieties of quasijudicial bodies operating in foreign countries. But they contain no hint at all that
Congress intended to allow the conscription of United States courts to aid purely
private foreign arbitrators.
The structure and surrounding text of Section 1782 likewise show that the
statutory phrase “foreign and international tribunals” is limited to sovereign
adjudicative bodies. For instance, Section 1782 permits district courts to apply “the
practice and procedure of the foreign country or the international tribunal,” 28 U.S.C.
§ 1782(a) (emphasis added), as an alternative to the Federal Rules of Civil
Procedure—an allowance that links such “tribunals” to sovereignty. See Servotronics,
975 F.3d at 695. And Section 1782’s specification that U.S. courts may facilitate
evidence-gathering “for use in a proceeding in a foreign or international tribunal,
including criminal investigations conducted before formal accusations,” 28 U.S.C.
§ 1782(a) (emphasis added), similarly underscores Congress’s focus on proceedings
before sovereign bodies.

Private arbitrators, of course, do not conduct criminal

investigations.
Finally, a contrary reading of Section 1782 would create unnecessary conflicts
with the Federal Arbitration Act (FAA) and unduly burden U.S. courts.

See

Servotronics Rolls-Royce Br. 40-50. Indeed, as the Seventh Circuit and the United
States have both recognized, “extending judicial assistance under Section 1782 to
[foreign private] arbitration would create tension with the FAA . . . by allowing more

24

expansive discovery in foreign disputes than what is permitted domestically.”
Servotronics United States Amicus Br. 26 (citation omitted); see Servotronics, 975
F.3d at 695 (“The discovery assistance authorized by § 1782(a) is notably broader
than that authorized by the FAA. . . . If § 1782(a) were construed to permit federal
courts to provide discovery assistance in private foreign arbitrations, then litigants
in foreign arbitrations would have access to much more expansive discovery than
litigants in domestic arbitrations.”).
In sum, text, contemporary usage, structure, history, and policy concerns all
militate in favor of reversal of the district court’s decision in this case, and the binding
Sixth Circuit interpretation of Section 1782 that the district court applied. That is
more than enough to sustain the “fair prospect” that this Court will side with
Applicants and reverse the discovery order at issue.
B.

Without A Stay, Applicants Will Suffer Irreparable Harm

If a stay is denied, Applicants will suffer certain and irreparable harm. As
explained above, denying a stay would require Applicants to hand over the discovery
at issue—which in turn would risk the possibility that this case would be rendered
moot by, inter alia, the quick progression of the foreign arbitration—and would
eliminate this Court’s ability to consider Applicants’ petition for certiorari in the
normal course. That is a classic form of irreparable harm that the Court has often
identified when granting stay applications. For the same reasons, because the foreign
arbitration proceedings in which Luxshare intends to use its discovery may well have
concluded before this Court issues a decision, and in any event Luxshare will likely

25

begin to use the discovery obtained immediately in those proceedings, there is
unlikely to be a satisfactory remedy for the harm that Applicants will suffer.
1.

As explained above, this case risks becoming moot if Applicants’ stay

request is denied. Supra at 17-18. This Court has repeatedly explained that the
possibility of mootness qualifies as irreparable harm, and the Court has granted stays
on that basis. See, e.g., John Doe Agency v. John Doe Corp., 488 U.S. 1306, 1309
(1989) (Marshall, J., in chambers) (granting stay and holding that “[t]he fact that
disclosure would moot that part of the Court of Appeals’ decision requiring disclosure
of the Vaughn index would also create an irreparable injury”). The irreparable harm,
moreover, is not only to Applicants but also to the Court. Failure to grant a stay risks
“foreclos[ing] . . . certiorari review by this Court,” which itself constitutes “irreparable
harm.” Garrison, 468 U.S. at 1302; see also Kleppe, 429 U.S. at 1310; Chafin v.
Chafin, 568 U.S. 165, 178 (2013) (suggesting that the threat of mootness warrants
“stays as a matter of course”).
2.

The central problem for Applicants is that disclosure of the discovery

ordered by the district court cannot be undone—and is therefore the essence of
irreparable harm. As discussed above, given that the foreign arbitration must begin
this year and is governed by the DIS Rules for Expedited Proceedings, absent a stay
Luxshare will likely obtain and use the discovery before this Court can determine
whether Luxshare is even entitled to pursue discovery under the statute. Moreover,
once Luxshare presents its discovery to the DIS panel, United States courts are
powerless to order the DIS panel to ignore it—which leaves Applicants’ fate entirely

26

in the hands of the foreign arbitrators regarding whether they will choose to exclude
the discovery if this Court later determines that Luxshare had no right to the
discovery in the first place. And even this precarious remedy may be foreclosed if the
expedited arbitration proceedings conclude, and a final award is issued, before this
Court is able to render a decision on the merits.
These concerns explain why courts routinely stay Section 1782 orders pending
appeal. See, e.g., Pallares v. Kohn (In re Chevron Corp.), 650 F.3d 276, 286 (3d Cir.
2011) (temporary stay followed by stay-pending-appeal); Bouvier v. Adelson (In re
Accent Delight Int’l Ltd.), 869 F.3d 121, 127 (2d Cir. 2017) (stay-pending-appeal);
Lancaster Factoring Co. v. Mangone (In re Lancaster Factoring Co.), 90 F.3d 38, 41
(2d Cir. 1996) (same); In re Gorsoan Ltd., No. 18-MC-431, 2020 WL 4194822, at *7
(S.D.N.Y. July 21, 2020) (stay-pending-appeal in part because “any information that
is produced to the petitioner pending appeal cannot be undone”); Order, Khrapunov
v. Prosyankin, No. 18-16254 (9th Cir. Aug. 2, 2018), ECF No. 7.
Applicants will suffer additional forms of irreparable harm as well—including
being subjected to intrusive discovery based on a statute that has no relevance to
Luxshare’s private arbitration, and the time and expense of complying with
burdensome discovery requests. See, e.g., Philip Morris USA Inc. v. Scott, 561 U.S.
1301, 1304 (2010) (Scalia, J., in Chambers) (“If expenditures cannot be recouped, the
resulting loss may be irreparable.”).
To be clear, Applicants are not arguing that the mere cost of producing
documents and sitting for a deposition alone justifies a stay. Rather, it is Luxshare’s

27

avowed intention to quickly use the information Applicants produce in the as-yet
uninitiated foreign private arbitration, where United States courts lack authority to
intervene, that will cause harm that potentially cannot be remedied. And in that
crucial respect, this case is nothing like an ordinary civil discovery dispute. In
ordinary civil litigation, there would be little risk of irreparable harm to Applicants
from compelled production because Applicants would have subsequent opportunities
to oppose Luxshare’s use of the discovery. For example, Applicants could move to
exclude certain documents or, in extreme circumstances, vacate a judgment
substantially tainted by misbegotten evidence.
But here, no such remedies are certain to exist: This Court cannot force the
foreign arbitrators to exclude the sought-after evidence once Luxshare uses it, which
Luxshare has stated it will do in short order.4 In that respect, this case bears far
more resemblance to the voluminous precedent establishing that the disclosure of
confidential or privileged materials constitutes irreparable harm: In that context,
like this one, no subsequent remedy is likely to fully repair the harm wrought by
improper production. See, e.g., In re Professionals Direct Ins. Co., 578 F.3d 432, 438
(6th Cir. 2009) (“[A]n erroneous forced disclosure of confidential information could
not be adequately remedied on direct appeal because a court cannot restore
confidentiality to documents after they are disclosed.”); von Bulow ex rel. Auersperg

An eventual decision by this Court might be persuasive to the arbitrators in
that regard. But even this possibility could ultimately be foreclosed if the expedited
arbitration proceedings conclude and an arbitration decision issues before a decision
by this Court.
4

28

v. von Bulow (In re von Bulow), 828 F.2d 94, 98 (2d Cir. 1987) (“[A]n order that
information be produced that brushes aside a litigant’s claim of a privilege not to
disclose[] leaves only an appeal after judgment as a remedy. Such a remedy is
inadequate at best.”); Barclaysamerican Corp. v. Kane, 746 F.2d 653, 655 (10th Cir.
1984) (“In most cases disclosure makes meaningful review impossible because after
disclosure whatever privilege attaches would be ‘worthless.’” (citation omitted));
United States v. Amlani, 169 F.3d 1189, 1194 (9th Cir. 1999) (“[D]isclosure of the
privileged communications will subject [defendant] to damage not correctable on
appeal.”).
Additionally, there is ample proof that this harm will actually manifest:
Luxshare’s own statements leave no doubt about how it will use this discovery. As
the magistrate judge observed, Luxshare has decided “to file its Section 1782
application before commencing arbitration, elucidating that, with expedited
arbitration—and given the Section 1782 process and the possible objections and
appeals which may flow therefrom—there may not be enough time to obtain this
discovery once the arbitration has commenced, or the arbitration may be stalled by
this process.” Magistrate Order re Mot. to Quash 17 (Exhibit B). And as Luxshare’s
counsel acknowledged, “[t]he better strategy here is to make sure that we have all of
our evidence and all of our evidence lined up, submitted right when we commence the

29

arbitration.” 2/24/2021 Hrg. Tr., 31:21-23 (Dkt. No. 25); see also ZF Automotive Br.
in Opp. to Cert. 17-19. Harm from an unwarranted disclosure is thus inevitable.5
C.

The Balance Of Equities Favors A Stay

1. The balance of equities also strongly favors a stay. As in previous cases
where stays have been granted, “[r]efusing a stay may visit an irreversible harm on
applicants,” but granting it will “do no permanent injury to respondents.” Philip
Morris, 561 U.S. at 1305. Applicants’ rights face a ticking clock: Applicants are
required to produce the requested discovery by October 27, 14 days after the Sixth
Circuit’s order denying the stay. See Order re Mot. to Compel 13-14 (Exhibit D).
Moreover, as explained above, denying a stay here would likely deprive this
Court of an effective vehicle for resolving the Section 1782 issue in the wake of the
Servotronics dismissal. See supra at 26-29. That would harm the public interest,
which would be well served by the consistency and clarity that only this Court can
provide. Absent this Court’s intervention, similarly situated litigants—many of them
foreign—will be subject to entirely different regimes depending upon the circuit in
which their Section 1782 petition is filed. A party seeking discovery for use in a
private arbitration may enlist the United States courts in that effort if it sues in
Cleveland, but not if it sues in Chicago. And that same party will be unsure whether
or not it can make use of the federal courts if it sues in Los Angeles. The public

A stay by this Court of the district court’s order granting discovery would also
by necessity obviate the district court’s grant of Luxshare’s motion to compel, which
requires Applicants to produce discovery by October 27. See Order re Mot. to Compel
13-14 (Exhibit D).
5

30

interest strongly favors eliminating that disuniformity. That is presumably why this
Court granted review in Servotronics in the first place.
2. Luxshare, by contrast, faces no meaningful—let alone irreparable—harm if
the district court’s order is stayed. To the contrary, because Luxshare has not yet
initiated the foreign arbitration proceedings, Luxshare will remain in precisely the
same position that it currently occupies.
The only prejudice that Luxshare reasonably could claim is that a stay might
prevent it from obtaining discovery prior to the impending statute of limitations
deadline for filing its arbitration. But that is not a valid concern. In the attached
Declaration of Michael J. Way, Applicants make the binding commitment that if a
stay is granted, they will agree to toll Luxshare’s statute of limitations to bring its
claims in the German arbitration, pending resolution of this appeal. See Exhibit F;
see also Dkt. No. 30 at 17; Dkt. No. 31-3 at 2; CA6 ECF No. 30-8 at 21-22 (making
same commitment). German law is clear that invocation of the statute of limitations
is an affirmative defense that can be waived by a defendant, and Applicants have
committed to refraining from raising that defense for any arbitration filed within four
months from the expiration of a stay entered by this Court. Id.6 Luxshare will thus
be in precisely the same position at the expiration of the stay as it is in now.

A party’s commitment not to invoke the statute of limitations for a specific
period of time is fully enforceable. Bundesgerichtshof [BGH] [Federal Court of
Justice], 16 March 2009, II ZR 32/08, marginal number 22; 17 Dec. 2015, IX ZR 61/14,
marginal number 42-43; 10 Nov. 2020, VI ZR 285/19, marginal number 15
(collectively available at https://www.bundesgerichtshof.de/DE/Entscheidungen/
entscheidungen_node.html) (certified English translations of relevant excerpts
attached as Exhibit G).
6

31

Thus, there is simply no prejudice that Luxshare will suffer from a limited stay
pending review: If the district court’s order is upheld, then Luxshare would still
receive all the discovery to which it is entitled in due course. Cf. John Doe Agency,
488 U.S. at 1309 (delay in nonmovant’s receipt of information under Freedom of
Information Act did not justify denial of stay).
II.

THE COURT SHOULD ISSUE AN ADMINISTRATIVE STAY TO
ALLOW IT TO FULLY CONSIDER THE APPLICATION
The Court should grant a brief administrative stay to enable full consideration

of the merits of this stay application. As the discussion above makes clear, this
application (like Applicants’ petition for a writ of certiorari) presents substantial and
important legal issues to the Court.

Applicants have expeditiously filed this

application just two days after the Sixth Circuit’s denial of a stay, and the district
court’s order will require them to produce discovery in just 12 days, on October 27.
In light of the irreparable harm described above, this Court should grant a brief
administrative stay of the district court’s discovery order while it considers this
application.

32

CONCLUSION
This Court should stay the district court’s order holding that Luxshare is
entitled to discovery. Applicants further request an immediate administrative stay
pending resolution of this application.
October 15, 2021

Respectfully submitted,

Sean M. Berkowitz
Latham & Watkins LLP
330 N. Wabash
Suite 2800
Chicago, IL 60611

Roman Martinez
Counsel of Record
Tyce R. Walters
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2200
roman.martinez@lw.com

Zachary L. Rowen
Justin S. Kirschner
Latham & Watkins LLP
1271 Avenue of the Americas
New York, NY 10020

Counsel for Applicants

33

ADDENDUM

Addendum to Application For Stay and
Request For Immediate Administrative Stay
Exhibit

Description

A

Order Granting Ex Parte Application For An Order Pursuant To 28
U.S.C. § 1782 To Conduct Discovery For Use In Foreign Proceedings
(E.D. Mich. Oct. 22, 2020), Dkt. No. 3 (without exhibits)

B

Opinion And Order Granting In Part And Denying In Part
Respondents’ Motion To Quash Improper Subpoenas (E.D. Mich. May
27, 2021), Dkt. No. 26

C

Order Overruling Objections To Magistrate Judge’s Order Granting
In Part And Denying In Part Respondents’ Motion To Quash (E.D.
Mich. July 1, 2021), Dkt. No. 29

D

Opinion And Order Denying Motion To Stay And Granting Motion To
Compel (E.D. Mich. Aug. 17, 2021), Dkt. No. 38

E

Order Denying Motion To Stay (6th Cir. Oct. 13, 2021), ECF No. 31-2

F

Declaration Of Michael J. Way In Support Of ZF Automotive US
Inc.’s Application For Stay And Request For Immediate Stay (Oct. 13,
2021)

G

Certified English Translations Of Relevant Excerpts From
Bundesgerichtshof [BGH] [Federal Court of Justice], 16 March 2009,
II ZR 32/08, marginal number 22; 17 Dec. 2015, IX ZR 61/14,
marginal number 42-43; 10 Nov. 2020, VI ZR 285/19, marginal
number 15 (collectively available at
https://www.bundesgerichtshof.de/DE/Entscheidungen/
entscheidungen_node.html)

EXHIBIT A

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.165 Filed 10/22/20 Page 1 of 40

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
----------------------------------------------------x
In re Application for an Order Pursuant to :
28 U.S.C. § 1782 to Conduct Discovery for : 2:20-mc-51245-LJM-APP
Use in Foreign Proceedings
:
:
:
:
:
----------------------------------------------------x
ORDER GRANTING EX PARTE APPLICATION FOR AN ORDER PURSUANT
TO 28 U.S.C. § 1782 TO CONDUCT DISCOVERY FOR USE IN FOREIGN
PROCEEDINGS
Upon consideration of Luxshare Ltd.’s (“Applicant”) ex parte Application for an
Order Pursuant to 28 U.S.C. § 1782 to Conduct Discovery for Use in Foreign
Proceedings (the “Application”) and accompanying memorandum of law, declarations
and exhibits appended thereto, it is hereby:
ORDERED that the Application be and hereby is GRANTED; and it is further
ORDERED that the Applicants, Luxshare Ltd., through their counsel, are
permitted to obtain discovery for use in foreign proceedings from ZF Automotive US,
Inc., Gerald Dekker, and Christophe Marnat by way of subpoenas that are (1) served in
accordance with the Federal Rules of Civil Procedure and this Court’s local rules; and (2)
substantially in the form of the proposed subpoenas attached hereto as Exhibits 1-3.
SO ORDERED.
Dated: Detroit, Michigan
October 22, 2020

_s/Laurie J. Michelson_______________
United States District Judge

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.166 Filed 10/22/20 Page 2 of 40

EXHIBIT 1

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.167 Filed 10/22/20 Page 3 of 40
AO 88B (Rev. 02/14) Subpoena to Produce Documents, Information, or Objects or to Permit Inspection of Premises in a Civil Action

UNITED STATES DISTRICT COURT
for the

Eastern District of Michigan

In re Application for an Order Pursuant to 28 U.S.C. § 1782 )
Plaintiff
)
)
v.
)
)
)
Defendant

Civil Action No.

SUBPOENA TO PRODUCE DOCUMENTS, INFORMATION, OR OBJECTS
OR TO PERMIT INSPECTION OF PREMISES IN A CIVIL ACTION
To: ZF Automotive US, Inc.

(Name of person to whom this subpoena is directed)

✔ Production: YOU ARE COMMANDED to produce at the time, date, and place set forth below the following

documents, electronically stored information, or objects, and to permit inspection, copying, testing, or sampling of the
material:
Please produce materials by October 11, 2020 designated in attached Definitions and Instructions.

Place: 2000 Town Center, Suite 2700
Southfield, Michigan 48075-1318

Date and Time:

Inspection of Premises: YOU ARE COMMANDED to permit entry onto the designated premises, land, or
other property possessed or controlled by you at the time, date, and location set forth below, so that the requesting party
may inspect, measure, survey, photograph, test, or sample the property or any designated object or operation on it.
Place: 2000 Town Center, Suite 2700
Southfield, Michigan 48075-1318

Date and Time:

The following provisions of Fed. R. Civ. P. 45 are attached – Rule 45(c), relating to the place of compliance; Rule
45(d), relating to your protection as a person subject to a subpoena; and Rule 45(e) and (g), relating to your duty to
respond to this subpoena and the potential consequences of not doing so.
Date:
DAVID J. WEAVER, CLERK OF COURT
Signature of Clerk or Deputy Clerk

OR
Attorney’s signature

The name, address, e-mail address, and telephone number of the attorney representing (name of party)
, who issues or requests this subpoena, are:
Luxshare Ltd.
William R. Jansen, 2000 Town Center, Suite 2700, Southfield, Michigan 48075-1318, wjansen@wnj.com, Tel. (248)-784-5022

Notice to the person who issues or requests this subpoena
If this subpoena commands the production of documents, electronically stored information, or tangible things or the
inspection of premises before trial, a notice and a copy of the subpoena must be served on each party in this case before
it is served on the person to whom it is directed. Fed. R. Civ. P. 45(a)(4).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.168 Filed 10/22/20 Page 4 of 40
AO 88B (Rev. 02/14) Subpoena to Produce Documents, Information, or Objects or to Permit Inspection of Premises in a Civil Action (Page 2)

Civil Action No.
PROOF OF SERVICE
(This section should not be filed with the court unless required by Fed. R. Civ. P. 45.)
I received this subpoena for (name of individual and title, if any)
on (date)

.
I served the subpoena by delivering a copy to the named person as follows:
on (date)

; or

I returned the subpoena unexecuted because:
.
Unless the subpoena was issued on behalf of the United States, or one of its officers or agents, I have also
tendered to the witness the fees for one day’s attendance, and the mileage allowed by law, in the amount of
$
My fees are $

.
for travel and $

for services, for a total of $

I declare under penalty of perjury that this information is true.
Date:

Server’s signature

Printed name and title

Server’s address

Additional information regarding attempted service, etc.:

.

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.169 Filed 10/22/20 Page 5 of 40
AO 88B (Rev. 02/14) Subpoena to Produce Documents, Information, or Objects or to Permit Inspection of Premises in a Civil Action(Page 3)

Federal Rule of Civil Procedure 45 (c), (d), (e), and (g) (Effective 12/1/13)
(c) Place of Compliance.
(1) For a Trial, Hearing, or Deposition. A subpoena may command a
person to attend a trial, hearing, or deposition only as follows:
(A) within 100 miles of where the person resides, is employed, or
regularly transacts business in person; or
(B) within the state where the person resides, is employed, or regularly
transacts business in person, if the person
(i) is a party or a party’s officer; or
(ii) is commanded to attend a trial and would not incur substantial
expense.
(2) For Other Discovery. A subpoena may command:
(A) production of documents, electronically stored information, or
tangible things at a place within 100 miles of where the person resides, is
employed, or regularly transacts business in person; and
(B) inspection of premises at the premises to be inspected.
(d) Protecting a Person Subject to a Subpoena; Enforcement.
(1) Avoiding Undue Burden or Expense; Sanctions. A party or attorney
responsible for issuing and serving a subpoena must take reasonable steps
to avoid imposing undue burden or expense on a person subject to the
subpoena. The court for the district where compliance is required must
enforce this duty and impose an appropriate sanction—which may include
lost earnings and reasonable attorney’s fees—on a party or attorney who
fails to comply.
(2) Command to Produce Materials or Permit Inspection.
(A) Appearance Not Required. A person commanded to produce
documents, electronically stored information, or tangible things, or to
permit the inspection of premises, need not appear in person at the place of
production or inspection unless also commanded to appear for a deposition,
hearing, or trial.
(B) Objections. A person commanded to produce documents or tangible
things or to permit inspection may serve on the party or attorney designated
in the subpoena a written objection to inspecting, copying, testing, or
sampling any or all of the materials or to inspecting the premises—or to
producing electronically stored information in the form or forms requested.
The objection must be served before the earlier of the time specified for
compliance or 14 days after the subpoena is served. If an objection is made,
the following rules apply:
(i) At any time, on notice to the commanded person, the serving party
may move the court for the district where compliance is required for an
order compelling production or inspection.
(ii) These acts may be required only as directed in the order, and the
order must protect a person who is neither a party nor a party’s officer from
significant expense resulting from compliance.
(3) Quashing or Modifying a Subpoena.
(A) When Required. On timely motion, the court for the district where
compliance is required must quash or modify a subpoena that:
(i) fails to allow a reasonable time to comply;
(ii) requires a person to comply beyond the geographical limits
specified in Rule 45(c);
(iii) requires disclosure of privileged or other protected matter, if no
exception or waiver applies; or
(iv) subjects a person to undue burden.
(B) When Permitted. To protect a person subject to or affected by a
subpoena, the court for the district where compliance is required may, on
motion, quash or modify the subpoena if it requires:
(i) disclosing a trade secret or other confidential research,
development, or commercial information; or

(ii) disclosing an unretained expert’s opinion or information that does
not describe specific occurrences in dispute and results from the expert’s
study that was not requested by a party.
(C) Specifying Conditions as an Alternative. In the circumstances
described in Rule 45(d)(3)(B), the court may, instead of quashing or
modifying a subpoena, order appearance or production under specified
conditions if the serving party:
(i) shows a substantial need for the testimony or material that cannot be
otherwise met without undue hardship; and
(ii) ensures that the subpoenaed person will be reasonably compensated.
(e) Duties in Responding to a Subpoena.
(1) Producing Documents or Electronically Stored Information. These
procedures apply to producing documents or electronically stored
information:
(A) Documents. A person responding to a subpoena to produce documents
must produce them as they are kept in the ordinary course of business or
must organize and label them to correspond to the categories in the demand.
(B) Form for Producing Electronically Stored Information Not Specified.
If a subpoena does not specify a form for producing electronically stored
information, the person responding must produce it in a form or forms in
which it is ordinarily maintained or in a reasonably usable form or forms.
(C) Electronically Stored Information Produced in Only One Form. The
person responding need not produce the same electronically stored
information in more than one form.
(D) Inaccessible Electronically Stored Information. The person
responding need not provide discovery of electronically stored information
from sources that the person identifies as not reasonably accessible because
of undue burden or cost. On motion to compel discovery or for a protective
order, the person responding must show that the information is not
reasonably accessible because of undue burden or cost. If that showing is
made, the court may nonetheless order discovery from such sources if the
requesting party shows good cause, considering the limitations of Rule
26(b)(2)(C). The court may specify conditions for the discovery.
(2) Claiming Privilege or Protection.
(A) Information Withheld. A person withholding subpoenaed information
under a claim that it is privileged or subject to protection as trial-preparation
material must:
(i) expressly make the claim; and
(ii) describe the nature of the withheld documents, communications, or
tangible things in a manner that, without revealing information itself
privileged or protected, will enable the parties to assess the claim.
(B) Information Produced. If information produced in response to a
subpoena is subject to a claim of privilege or of protection as
trial-preparation material, the person making the claim may notify any party
that received the information of the claim and the basis for it. After being
notified, a party must promptly return, sequester, or destroy the specified
information and any copies it has; must not use or disclose the information
until the claim is resolved; must take reasonable steps to retrieve the
information if the party disclosed it before being notified; and may promptly
present the information under seal to the court for the district where
compliance is required for a determination of the claim. The person who
produced the information must preserve the information until the claim is
resolved.
(g) Contempt.
The court for the district where compliance is required—and also, after a
motion is transferred, the issuing court—may hold in contempt a person
who, having been served, fails without adequate excuse to obey the
subpoena or an order related to it.

For access to subpoena materials, see Fed. R. Civ. P. 45(a) Committee Note (2013).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.170 Filed 10/22/20 Page 6 of 40

DEFINITIONS AND INSTRUCTIONS
DEFINITIONS
1.

All terms shall be construed to encompass as broad a range of information as

permitted under the Federal Rules of Civil Procedure and the Local Rules of the United
States District Court for the Eastern District of Michigan.
2.

“BCS Business” means the Global Body Control Systems business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the BCS Business.
3.

“BCS-RFE Businesses” means the BCS Business and RFE Business.

4.

“Closing” means April 27, 2018.

5.

“Communications” means the transmittal of information (in the form of

facts, ideas, inquiries, or otherwise) and includes all oral and written communications of
any nature, type or kind including, but not limited to, any ESI (and any attachments
thereto), Documents, telephone conversations, discussions, meetings, facsimiles, e-mails,
pagers, memoranda, and any other medium through which any information is conveyed
or transmitted.
6.

“Concerning” means and includes relating to, constituting, defining,

evidencing, mentioning, containing, describing, discussing, embodying, reflecting,
edifying, analyzing, starting, referring to, dealing with, or in any way pertaining to the
subject matter.
1

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.171 Filed 10/22/20 Page 7 of 40

7.

“Document” means and includes all written, recorded, transcribed or graphic

matter of every nature, type and kind, however and by whoever produced, reproduced,
disseminated or made. This includes, but is not limited to, Communications, ESI,
“writings” as defined by Rule 1001 of the Federal Rules of Evidence, copies or drafts, and
any tangible or intangible thing or item that contains any in formation. Any Document
that contains any comment, notation, addition, insertion or marking of any type or kind,
which is not part of another Document, it to be considered a separate Document.
8.

“ESI” has the meaning ascribed to it in the Federal Rules of Civil Procedure,

16, 26, and 34(a).
9.

“FCA” means Fiat Chrysler Automobiles N.V. and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
10.

“FCA One Voice Meeting” means the meeting that took place between

representatives of the BCS-RFE Businesses and representatives of FCA in Auburn, New
York on or about June 30, 2017.
11.

““Ford” means Ford Motor Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
12.

“GM” means General Motors Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
2

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.172 Filed 10/22/20 Page 8 of 40

officers, and directors..
13.

“Luxshare” means Luxshare Ltd. and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
14.

“MPA” means the master purchase agreement entered on August 29/30,

2017 and as amended on April 18, 2017 between ZF US and Luxshare.
15.

“Other Bidders” means any person or entity that submitted an offer, non-

binding or binding, to purchase the BCS Business or the RFE Business.
16.

“

17.

“Passive Entry Keyless Go Systems” means and includes passive and

remote keyless entry products enabling hands-free automatic unlocking, push button
engine starting and locking of vehicles.
18.

“Person” means and includes individuals as well as corporations,

partnerships, unincorporated associations, limited liability companies, trusts, trustees,
beneficiaries, firms, representatives, agents, principals, cooperatives, fictitious business
names and government agencies, and their respective agents, representatives, and
employees.
19.

“Relevant Customers” means FCA, Ford, and GM.

20.

“Relevant Sales” means each of the following: (i) all projected and actual

vehicle component sales to FCA, including, but not limited to, sales of vehicle
3

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.173 Filed 10/22/20 Page 9 of 40

components for FCA’s Alfa Romeo Guilia and Stelvio models; (ii) all projected and actual
sales of Tire Pressure Monitoring Systems and Passive Entry Keyless Go Systems to FCA;
(iii) all projected and actual vehicle component sales to Ford, including, but not limited
to, sales of components for Ford’s P552 and P702 platforms; and (iv) all projected and
actual vehicle component sales to GM, including, but not limited to, sales of components
for GM’s 9BXX platform.
21.

“RFE Business” means the Radio Frequency Electronics business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the RFE Business.
22.

“Tire Pressure Monitoring Systems” means the wheel-mounted sensors

transmitting vehicle motion, air pressure and temperature data from each wheel to the tire
pressure monitoring remote frequency (RF) receiver developed and produced in the RFE
Business.
23.

“Transaction” means the sale of the BCS-RFE Businesses by ZF US to

Luxshare pursuant to the terms of the MPA.
24.

“ZF US” means ZF Automotive US, Inc., and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
25.

“ZF US Management” means Gerald Dekker, Chistopher Marnat, John

Harju, Sarah Kirkwood, Thomas Koenig, Dieter Eckhardt and Franz Kleiner.
4

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.174 Filed 10/22/20 Page 10 of 40

INSTRUCTIONS
1.

Except as otherwise stated, this notice calls for the production of

documents that have come into existence or been examined, consulted, utilized, read,
transmitted, copied or placed in or retrieved from any file since and including
December 2016, up to and including the date of the Closing.
2.

All documents are to be produced in their full and unexpurgated form and,

except as otherwise stated, as kept in the regular course of business. In making documents
available, all documents that are physically attached to each other in files shall be made
available in that form. Documents that are segregated or separated from other documents,
whether by inclusion in binders , files, sub-files, or by use of dividers, tabs, or any other
methods, shall be made available in the order in which they are maintained.
3.

If any document is to be withheld on the basis of any claim of privilege, a

privilege log must be provided that satisfies the requirements of Federal Rule of Civil
Procedure 26(b)(5)(A).
4.

If any document to be made available is known to have existed and cannot

now be located, or has been destroyed or discarded, provide the following information
as to each document:
a)

a statement describing the document , including a summary of its
contents;

b)

the last known custodian;

c)

whether the document is missing or lost or was destroyed or
discarded;
5

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.175 Filed 10/22/20 Page 11 of 40

d)

the date of loss, destruction, or discard;

e)

the manner of and reasons for destruction or discard;

f)

the persons authorizing or carrying out such destruction or discard;
and

g)

the efforts made to locate lost or misplaced documents.

5.

If you object to any request set forth below, or any part thereof and refuse

to respond to that request or that part, identify the request or part to which you are
objecting, state with specificity all grounds for your objections, and respond to any
portion of the request to which you are not objecting.
6.

You are required to produce ESI (as defined above) in searchable form

on DVDs, CD-ROMs or other media to be mutually agreed by the parties.
7.

Documents may be produced in paper format or electronically. If

Documents are produced electronically, or if any ESI is produced, the following
formatting should be used:
a)

Use .tiff format for all Documents that were not originally in Excel
format, in which case, use .xis or .xlsx format;

b)

If possible, without creating undue delay, produce Documents in
Summationready DVDs, CD-Roms or other media to be mutually agreed by the
parties with .tiff and text format, and with a Summation load file; and

6

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.176 Filed 10/22/20 Page 12 of 40

c)

Transmit electronic Documents or ESI on DVDs, CD-Roms or other
media to be mutually agreed by the parties or use an ftp site upload.

8.

Each request shall be construed independently and without reference

to any other request herein for purposes of limitation, unless a request so specifies.
9.

This document request is continuing in nature and subject to the

requirement that any production be supplemented in the event new or additional
documents are discovered or obtained.
10.

The use of either the singular or plural shall not be deemed a limitation.

The use of the singular includes the plural, and vice versa.
11.

The words “and” and “or” are interchangeable and shall be construed

either disjunctively or conjunctively or both, as broadly as necessary to bring within
the scope of each Request those responses that might otherwise be construed to be
outside the scope.

7

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.177 Filed 10/22/20 Page 13 of 40

DOCUMENT REQUESTS
Request No. 1
All documents and communications relating to the Relevant Sales.
Request No. 2
All documents and communications relating to ZF US’ quarterly business
operations meetings held in 2016 and 2017, including, but not limited to, minutes and
agendas for such meetings.
Request No. 3
All documents and communications relating to the FCA One Voice Meeting
including, but not limited to, any meeting minutes, notes, agendas, slide decks and
presentation materials pertaining to such meeting.
Request No. 4
All documents and communications between December 2016 and the date of this
Subpoena concerning Exhibit 12.1.1 to the MPA, or the information contained therein,
and any updates, or proposed updates to such exhibit.
Request No. 5
All documents and communications concerning the questions raised by Luxshare
prior to the Closing concerning the BCS-RFE Businesses’ sales, projected sales,
commercial operations and financials.

8

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.178 Filed 10/22/20 Page 14 of 40

Request No. 6
All communications with Other Bidders, Deutsche Bank, Roland Berger or KMPG
concerning the Relevant Customers.
Request No. 7
All documents and communications between December 2016 and the date of this
Subpoena relating to the purchase price of the BCS-RFE Businesses.
Request No. 8
All documents and communications between December 1, 2016 and the date of this
Subpoena relating to the accuracy or completeness of the information provided to
Luxshare concerning the Relevant Customers in connection with the Transaction.
Request No. 9
All documents and communications relating to any decision by ZF US not to
provide information concerning the Relevant Customers to Luxshare prior to the Closing.

9

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.179 Filed 10/22/20 Page 15 of 40

EXHIBIT 2

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.180 Filed 10/22/20 Page 16 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action

UNITED STATES DISTRICT COURT
for the

Eastern District of Michigan

In re Application for an Order Pursuant to 28 U.S.C. § 1782
Plaintiff

v.

Defendant

)
)
)
)
)
)

Civil Action No.

SUBPOENA TO TESTIFY AT A DEPOSITION IN A CIVIL ACTION
To: Gerald Dekker

(Name of person to whom this subpoena is directed)

✔ Testimony: YOU ARE COMMANDED to appear at the time, date, and place set forth below to testify at a
deposition to be taken in this civil action. If you are an organization, you must designate one or more officers, directors,
or managing agents, or designate other persons who consent to testify on your behalf about the following matters, or
those set forth in an attachment:
Place: 2000 Town Center, Suite 2700
Southfield, Michigan 48075-1318

Date and Time:

The deposition will be recorded by this method: stenographer and videographer

✔ Production: You, or your representatives, must also bring with you to the deposition the following documents,
electronically stored information, or objects, and must permit inspection, copying, testing, or sampling of the
material:

Please produce materials by [TBD] designated in the attached Definitions and Instructions.

The following provisions of Fed. R. Civ. P. 45 are attached – Rule 45(c), relating to the place of compliance;
Rule 45(d), relating to your protection as a person subject to a subpoena; and Rule 45(e) and (g), relating to your duty to
respond to this subpoena and the potential consequences of not doing so.
Date:

DAVID J. WEAVER, CLERK OF COURT
Signature of Clerk or Deputy Clerk

OR
Attorney’s signature

The name, address, e-mail address, and telephone number of the attorney representing (name of party)
, who issues or requests this subpoena, are:
Luxshare Ltd.

William R. Jansen, 2000 Town Center, Suite 2700, Southfield, Michigan 48075-1318, wjansen@wnj.com, (248)-784-5022
Notice to the person who issues or requests this subpoena
If this subpoena commands the production of documents, electronically stored information, or tangible things before
trial, a notice and a copy of the subpoena must be served on each party in this case before it is served on the person to
whom it is directed. Fed. R. Civ. P. 45(a)(4).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.181 Filed 10/22/20 Page 17 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action (Page 2)

Civil Action No.
PROOF OF SERVICE
(This section should not be filed with the court unless required by Fed. R. Civ. P. 45.)

on (date)

I received this subpoena for (name of individual and title, if any)
.
I served the subpoena by delivering a copy to the named individual as follows:
on (date)

; or

I returned the subpoena unexecuted because:
.
Unless the subpoena was issued on behalf of the United States, or one of its officers or agents, I have also
tendered to the witness the fees for one day’s attendance, and the mileage allowed by law, in the amount of
$
My fees are $

.
for travel and $

for services, for a total of $

I declare under penalty of perjury that this information is true.
Date:

Server’s signature

Printed name and title

Server’s address

Additional information regarding attempted service, etc.:

.

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.182 Filed 10/22/20 Page 18 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action (Page 3)

Federal Rule of Civil Procedure 45 (c), (d), (e), and (g) (Effective 12/1/13)
(c) Place of Compliance.
(1) For a Trial, Hearing, or Deposition. A subpoena may command a
person to attend a trial, hearing, or deposition only as follows:
(A) within 100 miles of where the person resides, is employed, or
regularly transacts business in person; or
(B) within the state where the person resides, is employed, or regularly
transacts business in person, if the person
(i) is a party or a party’s officer; or
(ii) is commanded to attend a trial and would not incur substantial
expense.
(2) For Other Discovery. A subpoena may command:
(A) production of documents, electronically stored information, or
tangible things at a place within 100 miles of where the person resides, is
employed, or regularly transacts business in person; and
(B) inspection of premises at the premises to be inspected.
(d) Protecting a Person Subject to a Subpoena; Enforcement.
(1) Avoiding Undue Burden or Expense; Sanctions. A party or attorney
responsible for issuing and serving a subpoena must take reasonable steps
to avoid imposing undue burden or expense on a person subject to the
subpoena. The court for the district where compliance is required must
enforce this duty and impose an appropriate sanction—which may include
lost earnings and reasonable attorney’s fees—on a party or attorney who
fails to comply.
(2) Command to Produce Materials or Permit Inspection.
(A) Appearance Not Required. A person commanded to produce
documents, electronically stored information, or tangible things, or to
permit the inspection of premises, need not appear in person at the place of
production or inspection unless also commanded to appear for a deposition,
hearing, or trial.
(B) Objections. A person commanded to produce documents or tangible
things or to permit inspection may serve on the party or attorney designated
in the subpoena a written objection to inspecting, copying, testing, or
sampling any or all of the materials or to inspecting the premises—or to
producing electronically stored information in the form or forms requested.
The objection must be served before the earlier of the time specified for
compliance or 14 days after the subpoena is served. If an objection is made,
the following rules apply:
(i) At any time, on notice to the commanded person, the serving party
may move the court for the district where compliance is required for an
order compelling production or inspection.
(ii) These acts may be required only as directed in the order, and the
order must protect a person who is neither a party nor a party’s officer from
significant expense resulting from compliance.
(3) Quashing or Modifying a Subpoena.
(A) When Required. On timely motion, the court for the district where
compliance is required must quash or modify a subpoena that:
(i) fails to allow a reasonable time to comply;
(ii) requires a person to comply beyond the geographical limits
specified in Rule 45(c);
(iii) requires disclosure of privileged or other protected matter, if no
exception or waiver applies; or
(iv) subjects a person to undue burden.
(B) When Permitted. To protect a person subject to or affected by a
subpoena, the court for the district where compliance is required may, on
motion, quash or modify the subpoena if it requires:

(i) disclosing a trade secret or other confidential research, development,
or commercial information; or
(ii) disclosing an unretained expert’s opinion or information that does
not describe specific occurrences in dispute and results from the expert’s
study that was not requested by a party.
(C) Specifying Conditions as an Alternative. In the circumstances
described in Rule 45(d)(3)(B), the court may, instead of quashing or
modifying a subpoena, order appearance or production under specified
conditions if the serving party:
(i) shows a substantial need for the testimony or material that cannot be
otherwise met without undue hardship; and
(ii) ensures that the subpoenaed person will be reasonably compensated.
(e) Duties in Responding to a Subpoena.
(1) Producing Documents or Electronically Stored Information. These
procedures apply to producing documents or electronically stored
information:
(A) Documents. A person responding to a subpoena to produce documents
must produce them as they are kept in the ordinary course of business or
must organize and label them to correspond to the categories in the demand.
(B) Form for Producing Electronically Stored Information Not Specified.
If a subpoena does not specify a form for producing electronically stored
information, the person responding must produce it in a form or forms in
which it is ordinarily maintained or in a reasonably usable form or forms.
(C) Electronically Stored Information Produced in Only One Form. The
person responding need not produce the same electronically stored
information in more than one form.
(D) Inaccessible Electronically Stored Information. The person
responding need not provide discovery of electronically stored information
from sources that the person identifies as not reasonably accessible because
of undue burden or cost. On motion to compel discovery or for a protective
order, the person responding must show that the information is not
reasonably accessible because of undue burden or cost. If that showing is
made, the court may nonetheless order discovery from such sources if the
requesting party shows good cause, considering the limitations of Rule
26(b)(2)(C). The court may specify conditions for the discovery.
(2) Claiming Privilege or Protection.
(A) Information Withheld. A person withholding subpoenaed information
under a claim that it is privileged or subject to protection as trial-preparation
material must:
(i) expressly make the claim; and
(ii) describe the nature of the withheld documents, communications, or
tangible things in a manner that, without revealing information itself
privileged or protected, will enable the parties to assess the claim.
(B) Information Produced. If information produced in response to a
subpoena is subject to a claim of privilege or of protection as trialpreparation material, the person making the claim may notify any party that
received the information of the claim and the basis for it. After being
notified, a party must promptly return, sequester, or destroy the specified
information and any copies it has; must not use or disclose the information
until the claim is resolved; must take reasonable steps to retrieve the
information if the party disclosed it before being notified; and may promptly
present the information under seal to the court for the district where
compliance is required for a determination of the claim. The person who
produced the information must preserve the information until the claim is
resolved.
(g) Contempt.
The court for the district where compliance is required—and also, after a
motion is transferred, the issuing court—may hold in contempt a person
who, having been served, fails without adequate excuse to obey the
subpoena or an order related to it.

For access to subpoena materials, see Fed. R. Civ. P. 45(a) Committee Note (2013).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.183 Filed 10/22/20 Page 19 of 40

DEFINITIONS AND INSTRUCTIONS
DEFINITIONS
1.

All terms shall be construed to encompass as broad a range of information as

permitted under the Federal Rules of Civil Procedure and the Local Rules of the United
States District Court for the Eastern District of Michigan.
2.

“BCS Business” means the Global Body Control Systems business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the BCS Business.
3.

“BCS-RFE Businesses” means the BCS Business and RFE Business.

4.

“Closing” means April 27, 2018.

5.

“Communications” means the transmittal of information (in the form of

facts, ideas, inquiries, or otherwise) and includes all oral and written communications of
any nature, type or kind including, but not limited to, any ESI (and any attachments
thereto), Documents, telephone conversations, discussions, meetings, facsimiles, e-mails,
pagers, memoranda, and any other medium through which any information is conveyed
or transmitted.
6.

“Concerning” means and includes relating to, constituting, defining,

evidencing, mentioning, containing, describing, discussing, embodying, reflecting,
edifying, analyzing, starting, referring to, dealing with, or in any way pertaining to the
subject matter.
1

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.184 Filed 10/22/20 Page 20 of 40

7.

“Document” means and includes all written, recorded, transcribed or graphic

matter of every nature, type and kind, however and by whoever produced, reproduced,
disseminated or made. This includes, but is not limited to, Communications, ESI,
“writings” as defined by Rule 1001 of the Federal Rules of Evidence, copies or drafts, and
any tangible or intangible thing or item that contains any in formation. Any Document
that contains any comment, notation, addition, insertion or marking of any type or kind,
which is not part of another Document, it to be considered a separate Document.
8.

“ESI” has the meaning ascribed to it in the Federal Rules of Civil Procedure,

16, 26, and 34(a).
9.

“FCA” means Fiat Chrysler Automobiles N.V. and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
10.

“FCA One Voice Meeting” means the meeting that took place between

representatives of the BCS-RFE Businesses and representatives of FCA in Auburn, New
York on or about June 30, 2017.
11.

““Ford” means Ford Motor Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
12.

“GM” means General Motors Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
2

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.185 Filed 10/22/20 Page 21 of 40

officers, and directors..
13.

“Luxshare” means Luxshare Ltd. and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
14.

“MPA” means the master purchase agreement entered on August 29/30,

2017 and as amended on April 18, 2017 between ZF US and Luxshare.
15.

“Other Bidders” means any person or entity that submitted an offer, non-

binding or binding, to purchase the BCS Business or the RFE Business.
16.

“

17.

“Passive Entry Keyless Go Systems” means and includes passive and

remote keyless entry products enabling hands-free automatic unlocking, push button
engine starting and locking of vehicles.
18.

“Person” means and includes individuals as well as corporations,

partnerships, unincorporated associations, limited liability companies, trusts, trustees,
beneficiaries, firms, representatives, agents, principals, cooperatives, fictitious business
names and government agencies, and their respective agents, representatives, and
employees.
19.

“Relevant Customers” means FCA, Ford, and GM.

20.

“Relevant Sales” means each of the following: (i) all projected and actual

vehicle component sales to FCA, including, but not limited to, sales of vehicle
3

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.186 Filed 10/22/20 Page 22 of 40

components for FCA’s Alfa Romeo Guilia and Stelvio models; (ii) all projected and actual
sales of Tire Pressure Monitoring Systems and Passive Entry Keyless Go Systems to FCA;
(iii) all projected and actual vehicle component sales to Ford, including, but not limited
to, sales of components for Ford’s P552 and P702 platforms; and (iv) all projected and
actual vehicle component sales to GM, including, but not limited to, sales of components
for GM’s 9BXX platform.
21.

“RFE Business” means the Radio Frequency Electronics business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the RFE Business.
22.

“Tire Pressure Monitoring Systems” means the wheel-mounted sensors

transmitting vehicle motion, air pressure and temperature data from each wheel to the tire
pressure monitoring remote frequency (RF) receiver developed and produced in the RFE
Business.
23.

“Transaction” means the sale of the BCS-RFE Businesses by ZF US to

Luxshare pursuant to the terms of the MPA.
24.

“ZF US” means ZF Automotive US, Inc., and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
25.

“ZF US Management” means Gerald Dekker, Chistopher Marnat, John

Harju, Sarah Kirkwood, Thomas Koenig, Dieter Eckhardt and Franz Kleiner.
4

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.187 Filed 10/22/20 Page 23 of 40

INSTRUCTIONS
1.

Except as otherwise stated, this notice calls for the production of

documents that have come into existence or been examined, consulted, utilized, read,
transmitted, copied or placed in or retrieved from any file since and including
December 2016, up to and including the date of the Closing.
2.

All documents are to be produced in their full and unexpurgated form and,

except as otherwise stated, as kept in the regular course of business. In making documents
available, all documents that are physically attached to each other in files shall be made
available in that form. Documents that are segregated or separated from other documents,
whether by inclusion in binders , files, sub-files, or by use of dividers, tabs, or any other
methods, shall be made available in the order in which they are maintained.
3.

If any document is to be withheld on the basis of any claim of privilege, a

privilege log must be provided that satisfies the requirements of Federal Rule of Civil
Procedure 26(b)(5)(A).
4.

If any document to be made available is known to have existed and cannot

now be located, or has been destroyed or discarded, provide the following information
as to each document:
a)

a statement describing the document , including a summary of its
contents;

b)

the last known custodian;

c)

whether the document is missing or lost or was destroyed or
discarded;
5

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.188 Filed 10/22/20 Page 24 of 40

d)

the date of loss, destruction, or discard;

e)

the manner of and reasons for destruction or discard;

f)

the persons authorizing or carrying out such destruction or discard;
and

g)

the efforts made to locate lost or misplaced documents.

5.

If you object to any request set forth below, or any part thereof and refuse

to respond to that request or that part, identify the request or part to which you are
objecting, state with specificity all grounds for your objections, and respond to any
portion of the request to which you are not objecting.
6.

You are required to produce ESI (as defined above) in searchable form

on DVDs, CD-ROMs or other media to be mutually agreed by the parties.
7.

Documents may be produced in paper format or electronically. If

Documents are produced electronically, or if any ESI is produced, the following
formatting should be used:
a)

Use .tiff format for all Documents that were not originally in Excel
format, in which case, use .xis or .xlsx format;

b)

If possible, without creating undue delay, produce Documents in
Summationready DVDs, CD-Roms or other media to be mutually agreed by the
parties with .tiff and text format, and with a Summation load file; and

6

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.189 Filed 10/22/20 Page 25 of 40

c)

Transmit electronic Documents or ESI on DVDs, CD-Roms or other
media to be mutually agreed by the parties or use an ftp site upload.

8.

Each request shall be construed independently and without reference

to any other request herein for purposes of limitation, unless a request so specifies.
9.

This document request is continuing in nature and subject to the

requirement that any production be supplemented in the event new or additional
documents are discovered or obtained.
10.

The use of either the singular or plural shall not be deemed a limitation.

The use of the singular includes the plural, and vice versa.
11.

The words “and” and “or” are interchangeable and shall be construed

either disjunctively or conjunctively or both, as broadly as necessary to bring within
the scope of each Request those responses that might otherwise be construed to be
outside the scope.

7

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.190 Filed 10/22/20 Page 26 of 40

DOCUMENT REQUESTS
Request No. 1
All documents and communications relating to the Relevant Sales.
Request No. 2
All documents and communications relating to ZF US’ quarterly business
operations meetings held in 2016 and 2017, including, but not limited to, minutes and
agendas for such meetings.
Request No. 3
All documents and communications relating to the FCA One Voice Meeting
including, but not limited to, any meeting minutes, notes, agendas, slide decks and
presentation materials pertaining to such meeting.
Request No. 4
All documents and communications between December 2016 and the date of this
Subpoena concerning Exhibit 12.1.1 to the MPA, or the information contained therein,
and any updates, or proposed updates to such exhibit.
Request No. 5
All documents and communications concerning the questions raised by Luxshare
prior to the Closing concerning the BCS-RFE Businesses’ sales, projected sales,
commercial operations and financials.

8

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.191 Filed 10/22/20 Page 27 of 40

Request No. 6
All communications with Other Bidders, Deutsche Bank, Roland Berger or KMPG
concerning the Relevant Customers.
Request No. 7
All documents and communications between December 2016 and the date of this
Subpoena relating to the purchase price of the BCS-RFE Businesses.
Request No. 8
All documents and communications between December 1, 2016 and the date of this
Subpoena relating to the accuracy or completeness of the information provided to
Luxshare concerning the Relevant Customers in connection with the Transaction.
Request No. 9
All documents and communications relating to any decision by ZF US not to
provide information concerning the Relevant Customers to Luxshare prior to the Closing.

9

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.192 Filed 10/22/20 Page 28 of 40

EXHIBIT 3

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.193 Filed 10/22/20 Page 29 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action

UNITED STATES DISTRICT COURT
for the

Eastern District of Michigan

In re Application for an Order Pursuant to 28 U.S.C. § 1782
Plaintiff

v.

Defendant

)
)
)
)
)
)

Civil Action No.

SUBPOENA TO TESTIFY AT A DEPOSITION IN A CIVIL ACTION
To: Christophe Marnat

(Name of person to whom this subpoena is directed)

✔ Testimony: YOU ARE COMMANDED to appear at the time, date, and place set forth below to testify at a
deposition to be taken in this civil action. If you are an organization, you must designate one or more officers, directors,
or managing agents, or designate other persons who consent to testify on your behalf about the following matters, or
those set forth in an attachment:
Place: 2000 Town Center, Suite 2700
Southfield, Michigan 48075-1318

Date and Time:

The deposition will be recorded by this method: stenograher and videographer

✔ Production: You, or your representatives, must also bring with you to the deposition the following documents,
electronically stored information, or objects, and must permit inspection, copying, testing, or sampling of the
material:

Please produce materials by [TBD] designated in the attached Definitions and Instructions.

The following provisions of Fed. R. Civ. P. 45 are attached – Rule 45(c), relating to the place of compliance;
Rule 45(d), relating to your protection as a person subject to a subpoena; and Rule 45(e) and (g), relating to your duty to
respond to this subpoena and the potential consequences of not doing so.
Date:

DAVID J. WEAVER, CLERK OF COURT
Signature of Clerk or Deputy Clerk

OR
Attorney’s signature

The name, address, e-mail address, and telephone number of the attorney representing (name of party)
, who issues or requests this subpoena, are:
Luxshare Ltd.

William R. Jansen, 2000 Town Center, Suite 2700, Southfield, Michigan 48075-1318, wjansen@wnj.com, (248)-784-5022
Notice to the person who issues or requests this subpoena
If this subpoena commands the production of documents, electronically stored information, or tangible things before
trial, a notice and a copy of the subpoena must be served on each party in this case before it is served on the person to
whom it is directed. Fed. R. Civ. P. 45(a)(4).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.194 Filed 10/22/20 Page 30 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action (Page 2)

Civil Action No.
PROOF OF SERVICE
(This section should not be filed with the court unless required by Fed. R. Civ. P. 45.)

on (date)

I received this subpoena for (name of individual and title, if any)
.
I served the subpoena by delivering a copy to the named individual as follows:
on (date)

; or

I returned the subpoena unexecuted because:
.
Unless the subpoena was issued on behalf of the United States, or one of its officers or agents, I have also
tendered to the witness the fees for one day’s attendance, and the mileage allowed by law, in the amount of
$
My fees are $

.
for travel and $

for services, for a total of $

I declare under penalty of perjury that this information is true.
Date:

Server’s signature

Printed name and title

Server’s address

Additional information regarding attempted service, etc.:

.

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.195 Filed 10/22/20 Page 31 of 40
AO 88A (Rev. 02/14) Subpoena to Testify at a Deposition in a Civil Action (Page 3)

Federal Rule of Civil Procedure 45 (c), (d), (e), and (g) (Effective 12/1/13)
(c) Place of Compliance.
(1) For a Trial, Hearing, or Deposition. A subpoena may command a
person to attend a trial, hearing, or deposition only as follows:
(A) within 100 miles of where the person resides, is employed, or
regularly transacts business in person; or
(B) within the state where the person resides, is employed, or regularly
transacts business in person, if the person
(i) is a party or a party’s officer; or
(ii) is commanded to attend a trial and would not incur substantial
expense.
(2) For Other Discovery. A subpoena may command:
(A) production of documents, electronically stored information, or
tangible things at a place within 100 miles of where the person resides, is
employed, or regularly transacts business in person; and
(B) inspection of premises at the premises to be inspected.
(d) Protecting a Person Subject to a Subpoena; Enforcement.
(1) Avoiding Undue Burden or Expense; Sanctions. A party or attorney
responsible for issuing and serving a subpoena must take reasonable steps
to avoid imposing undue burden or expense on a person subject to the
subpoena. The court for the district where compliance is required must
enforce this duty and impose an appropriate sanction—which may include
lost earnings and reasonable attorney’s fees—on a party or attorney who
fails to comply.
(2) Command to Produce Materials or Permit Inspection.
(A) Appearance Not Required. A person commanded to produce
documents, electronically stored information, or tangible things, or to
permit the inspection of premises, need not appear in person at the place of
production or inspection unless also commanded to appear for a deposition,
hearing, or trial.
(B) Objections. A person commanded to produce documents or tangible
things or to permit inspection may serve on the party or attorney designated
in the subpoena a written objection to inspecting, copying, testing, or
sampling any or all of the materials or to inspecting the premises—or to
producing electronically stored information in the form or forms requested.
The objection must be served before the earlier of the time specified for
compliance or 14 days after the subpoena is served. If an objection is made,
the following rules apply:
(i) At any time, on notice to the commanded person, the serving party
may move the court for the district where compliance is required for an
order compelling production or inspection.
(ii) These acts may be required only as directed in the order, and the
order must protect a person who is neither a party nor a party’s officer from
significant expense resulting from compliance.
(3) Quashing or Modifying a Subpoena.
(A) When Required. On timely motion, the court for the district where
compliance is required must quash or modify a subpoena that:
(i) fails to allow a reasonable time to comply;
(ii) requires a person to comply beyond the geographical limits
specified in Rule 45(c);
(iii) requires disclosure of privileged or other protected matter, if no
exception or waiver applies; or
(iv) subjects a person to undue burden.
(B) When Permitted. To protect a person subject to or affected by a
subpoena, the court for the district where compliance is required may, on
motion, quash or modify the subpoena if it requires:

(i) disclosing a trade secret or other confidential research, development,
or commercial information; or
(ii) disclosing an unretained expert’s opinion or information that does
not describe specific occurrences in dispute and results from the expert’s
study that was not requested by a party.
(C) Specifying Conditions as an Alternative. In the circumstances
described in Rule 45(d)(3)(B), the court may, instead of quashing or
modifying a subpoena, order appearance or production under specified
conditions if the serving party:
(i) shows a substantial need for the testimony or material that cannot be
otherwise met without undue hardship; and
(ii) ensures that the subpoenaed person will be reasonably compensated.
(e) Duties in Responding to a Subpoena.
(1) Producing Documents or Electronically Stored Information. These
procedures apply to producing documents or electronically stored
information:
(A) Documents. A person responding to a subpoena to produce documents
must produce them as they are kept in the ordinary course of business or
must organize and label them to correspond to the categories in the demand.
(B) Form for Producing Electronically Stored Information Not Specified.
If a subpoena does not specify a form for producing electronically stored
information, the person responding must produce it in a form or forms in
which it is ordinarily maintained or in a reasonably usable form or forms.
(C) Electronically Stored Information Produced in Only One Form. The
person responding need not produce the same electronically stored
information in more than one form.
(D) Inaccessible Electronically Stored Information. The person
responding need not provide discovery of electronically stored information
from sources that the person identifies as not reasonably accessible because
of undue burden or cost. On motion to compel discovery or for a protective
order, the person responding must show that the information is not
reasonably accessible because of undue burden or cost. If that showing is
made, the court may nonetheless order discovery from such sources if the
requesting party shows good cause, considering the limitations of Rule
26(b)(2)(C). The court may specify conditions for the discovery.
(2) Claiming Privilege or Protection.
(A) Information Withheld. A person withholding subpoenaed information
under a claim that it is privileged or subject to protection as trial-preparation
material must:
(i) expressly make the claim; and
(ii) describe the nature of the withheld documents, communications, or
tangible things in a manner that, without revealing information itself
privileged or protected, will enable the parties to assess the claim.
(B) Information Produced. If information produced in response to a
subpoena is subject to a claim of privilege or of protection as trialpreparation material, the person making the claim may notify any party that
received the information of the claim and the basis for it. After being
notified, a party must promptly return, sequester, or destroy the specified
information and any copies it has; must not use or disclose the information
until the claim is resolved; must take reasonable steps to retrieve the
information if the party disclosed it before being notified; and may promptly
present the information under seal to the court for the district where
compliance is required for a determination of the claim. The person who
produced the information must preserve the information until the claim is
resolved.
(g) Contempt.
The court for the district where compliance is required—and also, after a
motion is transferred, the issuing court—may hold in contempt a person
who, having been served, fails without adequate excuse to obey the
subpoena or an order related to it.

For access to subpoena materials, see Fed. R. Civ. P. 45(a) Committee Note (2013).

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.196 Filed 10/22/20 Page 32 of 40

DEFINITIONS AND INSTRUCTIONS
DEFINITIONS
1.

All terms shall be construed to encompass as broad a range of information as

permitted under the Federal Rules of Civil Procedure and the Local Rules of the United
States District Court for the Eastern District of Michigan.
2.

“BCS Business” means the Global Body Control Systems business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the BCS Business.
3.

“BCS-RFE Businesses” means the BCS Business and RFE Business.

4.

“Closing” means April 27, 2018.

5.

“Communications” means the transmittal of information (in the form of

facts, ideas, inquiries, or otherwise) and includes all oral and written communications of
any nature, type or kind including, but not limited to, any ESI (and any attachments
thereto), Documents, telephone conversations, discussions, meetings, facsimiles, e-mails,
pagers, memoranda, and any other medium through which any information is conveyed
or transmitted.
6.

“Concerning” means and includes relating to, constituting, defining,

evidencing, mentioning, containing, describing, discussing, embodying, reflecting,
edifying, analyzing, starting, referring to, dealing with, or in any way pertaining to the
subject matter.
1

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.197 Filed 10/22/20 Page 33 of 40

7.

“Document” means and includes all written, recorded, transcribed or graphic

matter of every nature, type and kind, however and by whoever produced, reproduced,
disseminated or made. This includes, but is not limited to, Communications, ESI,
“writings” as defined by Rule 1001 of the Federal Rules of Evidence, copies or drafts, and
any tangible or intangible thing or item that contains any in formation. Any Document
that contains any comment, notation, addition, insertion or marking of any type or kind,
which is not part of another Document, it to be considered a separate Document.
8.

“ESI” has the meaning ascribed to it in the Federal Rules of Civil Procedure,

16, 26, and 34(a).
9.

“FCA” means Fiat Chrysler Automobiles N.V. and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
10.

“FCA One Voice Meeting” means the meeting that took place between

representatives of the BCS-RFE Businesses and representatives of FCA in Auburn, New
York on or about June 30, 2017.
11.

““Ford” means Ford Motor Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
12.

“GM” means General Motors Company and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
2

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.198 Filed 10/22/20 Page 34 of 40

officers, and directors..
13.

“Luxshare” means Luxshare Ltd. and any of its affiliates, subsidiaries,

predecessors, successors, employees, representatives, agents, consultants, advisors,
officers, and directors.
14.

“MPA” means the master purchase agreement entered on August 29/30,

2017 and as amended on April 18, 2017 between ZF US and Luxshare.
15.

“Other Bidders” means any person or entity that submitted an offer, non-

binding or binding, to purchase the BCS Business or the RFE Business.
16.

“

17.

“Passive Entry Keyless Go Systems” means and includes passive and

remote keyless entry products enabling hands-free automatic unlocking, push button
engine starting and locking of vehicles.
18.

“Person” means and includes individuals as well as corporations,

partnerships, unincorporated associations, limited liability companies, trusts, trustees,
beneficiaries, firms, representatives, agents, principals, cooperatives, fictitious business
names and government agencies, and their respective agents, representatives, and
employees.
19.

“Relevant Customers” means FCA, Ford, and GM.

20.

“Relevant Sales” means each of the following: (i) all projected and actual

vehicle component sales to FCA, including, but not limited to, sales of vehicle
3

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.199 Filed 10/22/20 Page 35 of 40

components for FCA’s Alfa Romeo Guilia and Stelvio models; (ii) all projected and actual
sales of Tire Pressure Monitoring Systems and Passive Entry Keyless Go Systems to FCA;
(iii) all projected and actual vehicle component sales to Ford, including, but not limited
to, sales of components for Ford’s P552 and P702 platforms; and (iv) all projected and
actual vehicle component sales to GM, including, but not limited to, sales of components
for GM’s 9BXX platform.
21.

“RFE Business” means the Radio Frequency Electronics business unit that

ZF US sold to Luxshare Ltd. pursuant to the terms of the MPA, as well as all employees,
representatives, agents, consultants, advisors, officers, and directors of the RFE Business.
22.

“Tire Pressure Monitoring Systems” means the wheel-mounted sensors

transmitting vehicle motion, air pressure and temperature data from each wheel to the tire
pressure monitoring remote frequency (RF) receiver developed and produced in the RFE
Business.
23.

“Transaction” means the sale of the BCS-RFE Businesses by ZF US to

Luxshare pursuant to the terms of the MPA.
24.

“ZF US” means ZF Automotive US, Inc., and any of its affiliates,

subsidiaries, predecessors, successors, employees, representatives, agents, consultants,
advisors, officers, and directors.
25.

“ZF US Management” means Gerald Dekker, Chistopher Marnat, John

Harju, Sarah Kirkwood, Thomas Koenig, Dieter Eckhardt and Franz Kleiner.
4

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.200 Filed 10/22/20 Page 36 of 40

INSTRUCTIONS
1.

Except as otherwise stated, this notice calls for the production of

documents that have come into existence or been examined, consulted, utilized, read,
transmitted, copied or placed in or retrieved from any file since and including
December 2016, up to and including the date of the Closing.
2.

All documents are to be produced in their full and unexpurgated form and,

except as otherwise stated, as kept in the regular course of business. In making documents
available, all documents that are physically attached to each other in files shall be made
available in that form. Documents that are segregated or separated from other documents,
whether by inclusion in binders , files, sub-files, or by use of dividers, tabs, or any other
methods, shall be made available in the order in which they are maintained.
3.

If any document is to be withheld on the basis of any claim of privilege, a

privilege log must be provided that satisfies the requirements of Federal Rule of Civil
Procedure 26(b)(5)(A).
4.

If any document to be made available is known to have existed and cannot

now be located, or has been destroyed or discarded, provide the following information
as to each document:
a)

a statement describing the document , including a summary of its
contents;

b)

the last known custodian;

c)

whether the document is missing or lost or was destroyed or
discarded;
5

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.201 Filed 10/22/20 Page 37 of 40

d)

the date of loss, destruction, or discard;

e)

the manner of and reasons for destruction or discard;

f)

the persons authorizing or carrying out such destruction or discard;
and

g)

the efforts made to locate lost or misplaced documents.

5.

If you object to any request set forth below, or any part thereof and refuse

to respond to that request or that part, identify the request or part to which you are
objecting, state with specificity all grounds for your objections, and respond to any
portion of the request to which you are not objecting.
6.

You are required to produce ESI (as defined above) in searchable form

on DVDs, CD-ROMs or other media to be mutually agreed by the parties.
7.

Documents may be produced in paper format or electronically. If

Documents are produced electronically, or if any ESI is produced, the following
formatting should be used:
a)

Use .tiff format for all Documents that were not originally in Excel
format, in which case, use .xis or .xlsx format;

b)

If possible, without creating undue delay, produce Documents in
Summationready DVDs, CD-Roms or other media to be mutually agreed by the
parties with .tiff and text format, and with a Summation load file; and

6

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.202 Filed 10/22/20 Page 38 of 40

c)

Transmit electronic Documents or ESI on DVDs, CD-Roms or other
media to be mutually agreed by the parties or use an ftp site upload.

8.

Each request shall be construed independently and without reference

to any other request herein for purposes of limitation, unless a request so specifies.
9.

This document request is continuing in nature and subject to the

requirement that any production be supplemented in the event new or additional
documents are discovered or obtained.
10.

The use of either the singular or plural shall not be deemed a limitation.

The use of the singular includes the plural, and vice versa.
11.

The words “and” and “or” are interchangeable and shall be construed

either disjunctively or conjunctively or both, as broadly as necessary to bring within
the scope of each Request those responses that might otherwise be construed to be
outside the scope.

7

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.203 Filed 10/22/20 Page 39 of 40

DOCUMENT REQUESTS
Request No. 1
All documents and communications relating to the Relevant Sales.
Request No. 2
All documents and communications relating to ZF US’ quarterly business
operations meetings held in 2016 and 2017, including, but not limited to, minutes and
agendas for such meetings.
Request No. 3
All documents and communications relating to the FCA One Voice Meeting
including, but not limited to, any meeting minutes, notes, agendas, slide decks and
presentation materials pertaining to such meeting.
Request No. 4
All documents and communications between December 2016 and the date of this
Subpoena concerning Exhibit 12.1.1 to the MPA, or the information contained therein,
and any updates, or proposed updates to such exhibit.
Request No. 5
All documents and communications concerning the questions raised by Luxshare
prior to the Closing concerning the BCS-RFE Businesses’ sales, projected sales,
commercial operations and financials.

8

Case 2:20-mc-51245-LJM-APP ECF No. 3, PageID.204 Filed 10/22/20 Page 40 of 40

Request No. 6
All communications with Other Bidders, Deutsche Bank, Roland Berger or KMPG
concerning the Relevant Customers.
Request No. 7
All documents and communications between December 2016 and the date of this
Subpoena relating to the purchase price of the BCS-RFE Businesses.
Request No. 8
All documents and communications between December 1, 2016 and the date of this
Subpoena relating to the accuracy or completeness of the information provided to
Luxshare concerning the Relevant Customers in connection with the Transaction.
Request No. 9
All documents and communications relating to any decision by ZF US not to
provide information concerning the Relevant Customers to Luxshare prior to the Closing.

9

EXHIBIT B

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.604 Filed 05/27/21 Page 1 of 36

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,

Case No. 2:20-mc-51245
District Judge Laurie J. Michelson
Magistrate Judge Anthony P. Patti

Petitioner,

v.

ZF AUTOMOTIVE US, INC.,
GERALD DEKKER, and
CHRISTOPHE MARNAT,
Respondents.
__________________________ /
OPINION AND ORDER GRANTING IN PART and DENYING IN PART
RESPONDENTS’ MOTION TO QUASH IMPROPER SUBPOENAS
(ECF NO. 6)
I.

OPINION
A.

Petitioner’s Ex Parte Application

Petitioner Luxshare, Ltd. has filed an Ex Parte Application For An Order
Pursuant to 28 U.S.C. § 1782 to Conduct Discovery for Use in Foreign
Proceedings. (ECF No. 1.) Section 1782 concerns “[a]ssistance to foreign and
international tribunals and to litigants before such tribunals.” 28 U.S.C. § 1782.
Of importance to the matter currently before the Court are Luxshare’s subpoenas to
ZF Automotive US, Inc. (“ZF US”), Gerald Dekker, and Christophe Marnat
(collectively “Respondents”). (ECF Nos. 1-2, 1-3, 1-4.)

1

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.605 Filed 05/27/21 Page 2 of 36

On October 22, 2020, Judge Michelson entered an order granting Luxshare’s
ex parte application. (ECF No. 3.) In so doing, the Court permitted Luxshare “to
obtain discovery for use in foreign proceedings from ZF Automotive US, Inc.,
Gerald Dekker, and Christophe Marnat (“Respondents”) by way of subpoenas that
are (1) served in accordance with the Federal Rules of Civil Procedure and this
Court’s local rules; and (2) substantially in the form of the proposed subpoenas
attached hereto as Exhibits 1-3.” (Id., PageID.165.)
B.

Respondents’ Motion to Quash

Currently before the Court is Respondents’ December 4, 2020 motion to
quash improper subpoenas. (ECF No. 6.) Luxshare has filed a response (ECF No.
13), Respondents have filed a reply (ECF No. 14), and the parties have filed a joint
statement of unresolved issues (ECF No. 15).
Judge Michelson referred this case to me for pretrial matters, and,
ultimately, a hearing was held on February 24, 2021, at which counsel for
Luxshare (Bradley Pensyl, Kendall Robert Pauley, Michael G. Brady, and Anna
Masser) and Respondents (Herbert C. Donovan, Sean Berkowitz, Alena McCorkle,
and Christoph Baus) appeared. (ECF Nos. 8, 10.) The Court entertained oral
argument on the motion, ordered additional briefing, and took the matter under
advisement. (ECF No. 25 [Revised Transcript].)
C.

Discussion
2

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.606 Filed 05/27/21 Page 3 of 36

1.

Legal Framework: A Two Step Inquiry
a.

Statutory Factors/Requirements

The present ex parte application is governed by 28 U.S.C. 1782(a), which
reads as follows:
The district court of the district in which a person resides or is found
may order him to give his testimony or statement or to produce a
document or other thing for use in a proceeding in a foreign or
international tribunal, including criminal investigations conducted
before formal accusation. The order may be made pursuant to a letter
rogatory issued, or request made, by a foreign or international tribunal
or upon the application of any interested person and may direct that
the testimony or statement be given, or the document or other thing be
produced, before a person appointed by the court. By virtue of his
appointment, the person appointed has power to administer any
necessary oath and take the testimony or statement. The order may
prescribe the practice and procedure, which may be in whole or part
the practice and procedure of the foreign country or the international
tribunal, for taking the testimony or statement or producing the
document or other thing. To the extent that the order does not
prescribe otherwise, the testimony or statement shall be taken, and the
document or other thing produced, in accordance with the Federal
Rules of Civil Procedure.
A person may not be compelled to give his testimony or statement or
to produce a document or other thing in violation of any legally
applicable privilege.
As one court has summarized these threshold requirements for exercising authority
under the statute:
A district court has the authority to grant an application for judicial
assistance if the following statutory requirements in § 1782(a) are
met: (1) the request must be made “by a foreign or international
tribunal,” or by “any interested person”; (2) the request must seek
evidence, whether it be the “testimony or statement” of a person or the
3

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.607 Filed 05/27/21 Page 4 of 36

production of “a document or other thing”; (3) the evidence must be
“for use in a proceeding in a foreign or international tribunal”; and (4)
the person from whom discovery is sought must reside or be found in
the district of the district court ruling on the application for assistance.
In re Clerici, 481 F.3d 1324, 1331–32 (11th Cir. 2007); see also Bey v. Resurgent
Mort. Serv’g, No. 14-51040, 2014 WL 5512663, at *2 (E.D. Mich. Oct. 31, 2014)
(Drain, J.).
If all the statutory requirements are met, § 1782 then “authorizes, but does
not require, a federal district court to provide assistance.” Intel Corp. v. Advanced
Micro Devices, Inc., 542 U.S. 241, 255 (2004). In ruling on such an application, “a
district court must first consider the statutory requirements and then use its
discretion in balancing a number of factors.” Brandi-Dohrn v. IKB Deutche
Industriebank, 673 F.3d 76, 80 (2d Cir. 2012). Put another way, a § 1782
application “presents two inquiries, first, whether the district court is authorized to
grant the request; and second, if so, whether the district court should exercise its
discretion to do so.” Buchwalter, Annotation, Construction and Application of 28
U.S.C.A. § 1782, Permitting Federal District Court to Order Discovery for Use in
Proceeding in Foreign or International Tribunal, 56 A.L.R. Fed.2d 307, § 2
(2011). If the court concludes that any of the statutory requirements are not met,
thus depriving it of the authority to grant relief under the statute, the inquiry ends
there; however, if the statutory requirements are met, the court goes on to consider
the discretionary factors. Importantly, “the district court is not required to grant a
4

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.608 Filed 05/27/21 Page 5 of 36

§ 1782(a) discovery application simply because it has the authority to do so.” Intel
Corp., 542 U.S. at 264 (citing United Kingdom v. United States, 238 F.3d 1312,
1319 (11th Cir. 2001)). “Once the statutory requirements are met, a district court
is free to grant discovery in its discretion.” Schmitz v. Bernstein, Liebhard &
Lifshitz, LLP, 376 F.3d 79, 83 (2d Cir. 2004) (internal citations omitted). In
exercising this discretion, the court takes “into consideration the ‘twin aims’ of the
statute, namely, ‘providing efficient means of assistance to participants in
international litigation in our federal courts and encouraging foreign countries by
example to provide similar means of assistance to our courts.’” Certain Funds,
Accounts and/or Investment Vehicles v. KPMG, L.L.P. et. al., 798 F.3d 113, 117
(2d Cir. 2015) (quoting In re Metallgesellschaft, 121 F.3d 77, 79 (2d Cir. 1997)).
b.

Discretionary Factors

The leading and controlling authority is supplied by the Supreme Court’s
decision in Intel, where Justice Ginsburg, writing for the majority, identified
“factors that bear consideration in ruling on a § 1782(a) request.” Intel Corp., 542
U.S. at 264. These factors are consistently introduced by discretionary language,
such as “may take into consideration[,]” “could consider[,]” and “may be rejected
or trimmed.” Id. at 264-265. As applied to the present application for discovery,
the factors that “bear consideration” are: (1) Whether ZF Automotive US, Inc.,
Gerald Dekker, and Christophe Marnat are participants in the foreign
5

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.609 Filed 05/27/21 Page 6 of 36

proceeding(s); (2) the nature of the foreign tribunal(s), including (a) the character
of the proceedings underway abroad and (b) the receptivity of the foreign
government or tribunal to judicial assistance from United States federal courts; (3)
whether the § 1782(a) request conceals an attempt to circumvent foreign proofgathering restrictions or other policies of a foreign country or of the United States;
and, (4) whether the requests are unduly intrusive, and, if so, whether they ought to
be “rejected or trimmed.” Id. at 265.
2.

Whether Petitioner’s requested discovery meets Section
1782’s statutory requirements?

Luxshare seeks § 1782 discovery in connection with a prospective
arbitration to be filed against ZF US in Germany. (ECF No. 1, PageID.9; ECF No.
1-6, PageID.87, ¶ 1.) Respondents contend that “[t]he requested Section 1782
discovery is not ‘for use’ in the prospective German arbitration[.]” (ECF No. 6,
PageID.232-234.) At the hearing, with Certain Funds and In re Sargeant, 278 F.
Supp. 3d 814, 824 (S.D.N.Y. 2017) in mind, Respondents argued that “1782
should not be used as a means of discovering whether you have a case.” (ECF No.
25, PageID.573.) True; however, the Supreme Court has directed that “Section
1782(a) does not limit the provision of judicial assistance to ‘pending’ adjudicative
proceedings[,]” and that “§ 1782(a) requires only that a dispositive ruling by the
Commission, reviewable by the European courts, be within reasonable
contemplation.” Intel Corp., 542 U.S. at 258-259 (emphasis added). Compare
6

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.610 Filed 05/27/21 Page 7 of 36

Certain Funds, 798 F.3d at 124 (affirming district court’s denial of Section 1782
application where, “at the time the evidence was sought in this case, the Funds had
done little to make an objective showing that the planned proceedings were within
reasonable contemplation.”); In re Sargeant, 278 F. Supp. 3d at 823-824 (denying
application where “the Section 1782 Application [wa]s bereft of even the broadest
contours of what the possible proceeding(s) in the United Kingdom or the Isle of
Man may entail—they [we]re entirely embryonic.”).
Having reviewed the parties’ arguments and submissions on this issue (ECF
No. 13, PageID.331-337; ECF No. 14, PageID.378-380), the Court concludes that
Petitioner has met the statutory requirements of § 1782. Preliminarily, Luxshare
addressed the “for use” requirement in its application, ultimately asserting that the
Application “has set forth a sufficient basis that meets and exceeds the reasonable
contemplation standard.” (See ECF No. 1, PageID.25-27; see also ECF No. 3.)
Moreover:


while the Supreme Court has recently granted a petition for
certiorari in Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794,
2021 WL 1072280 (Mar. 22, 2021) on the issue of “[w]hether
the discretion granted to district courts in 28 U.S.C. § 1782(a)
to render assistance in gathering evidence for use in ‘a foreign
or international tribunal’ encompasses private commercial
arbitral tribunals[,]” 2020 WL 7343172, this Court is currently
bound by In re Application to Obtain Discovery for Use in
Foreign Proc. (Abdul Latif Jameel Transportation Company
Limited, Movant-Appellant, v. FedEx Corporation, RespondentAppellee.), 939 F.3d 710, 730 (6th Cir. 2019), which found that
it does (See also ECF No. 25, PageID.557-558);
7

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.611 Filed 05/27/21 Page 8 of 36



“the word ‘tribunal’ in § 1782(a) encompasses private,
contracted-for commercial arbitrations of the type at issue
here[,]” Abdul, 939 F.3d at 730;



Respondents agree that Luxshare has until the end of 2021 to
file the arbitration (See ECF No. 25, PageID.558; see also id.,
PageID.583-584, 590);



when confronted about waiting to see what the DIS Arbitration
tribunal (“DIS”) – i.e., the German Arbitration Institute
(https://www.disarb.org/en) – actually wants, Luxshare
explained, inter alia, that the Court need not wait to see what
DIS is going to do, because “the Panel has the authority to
admit evidence as it sees fit[,]” and it is “in the best position to
make those evidentiary determinations[,]” (ECF No. 25,
PageID.580-581, 588-589);



Luxshare provided David Huang’s declaration, which reflects
that Luxshare retained counsel – Allen & Overy LLP, a law
firm with offices around the world
(https://www.allenovery.com/en-gb/global/global_coverage) –
in July 2020 “to represent [it] in this matter and prepare the
Request for Arbitration,” which Luxshare “plans to file with the
German Institution of Arbitration ev. (DIS) in Munich,
Germany[,]” (ECF No. 1-5, PageID.84 ¶ 21).1

The only statutory factor that Respondents question in their motion is the
requirement that the requested evidence or testimony be for use in foreign
Compare financialright GmbH v. Robert Bosch LLC, 294 F. Supp. 3d 721, 725,
729-732 (E.D. Mich. 2018) (Patti, M.J.) (“the German court had dismissed the test
case after finding that there was no viable claim,” and the statutory factors /
requirements had not been met, in part because “the documents in question will not
be ‘usable’ and, therefore, not ‘for use’ in these foreign proceedings.”). In fact, the
Court mentioned some of the differences between this case and financialright
GmbH during the February 24, 2021 hearing. (ECF No. 25, PageID.560-561, 564,
566, 575.)
1

8

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.612 Filed 05/27/21 Page 9 of 36

proceedings, because the arbitration has yet to be filed. (ECF No. 6, PageID.232234.) In other words, they attack the notion that the DIS arbitration is “within
reasonable contemplation.” The Court is well satisfied, on this record, that it is.
3.

Whether the first three discretionary Intel factors favor
granting Respondents’ motion to quash?

Respondents and Luxshare are also at odds as to whether the discretionary
Intel factors weigh in favor of granting the motion to quash in its entirety, denying
it outright, or circumscribing the requested discovery. (Compare, ECF No. 6,
PageID.235-248, and ECF No. 14, PageID.375-378, with ECF No. 13,
PageID.338-350.) For the reasons that follow, the Court concludes that the
requested discovery should be permitted, but circumscribed.
a.

Participant

“[W]hen the person from whom discovery is sought is a participant in the
foreign proceeding . . . , the need for § 1782(a) aid generally is not as apparent as it
ordinarily is when evidence is sought from a nonparticipant in the matter arising
abroad.” Intel Corp., 542 U.S. at 264. “A foreign tribunal has jurisdiction over
those appearing before it, and can itself order them to produce evidence.” Id. “In
contrast, nonparticipants in the foreign proceeding may be outside the foreign
tribunal's jurisdictional reach; hence, their evidence, available in the United States,
may be unobtainable absent § 1782(a) aid.” Id.

9

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.613 Filed 05/27/21 Page 10 of 36

As noted above, Luxshare has issued subpoenas to ZF US, Gerald Dekker,
and Christophe Marnat. (ECF Nos. 1-2, 1-3, 1-4.) While Respondents contend
that ZF US would “would be a party in any potential DIS arbitration[,]” Luxshare
notes that “respondents Dekker and Marnat are [or, more accurately, would be]
non-parties[,]” much of which was also confirmed at oral argument. (ECF No. 6,
PageID.235-238; ECF No. 13, PageID.340-341; ECF No. 14, PageID.377-378;
ECF No. 25, PageID.591-592.) Luxshare also has no reason to challenge
Respondents’ claim that Dekker and Marnat have none of the documents for which
they were subpoenaed, as these are maintained by ZF US, making at least that
issue a moot point. (ECF No. 25, PageID.592-593.) In light of all this, the Court
views the question of who will be a participant in the DIS arbitration as a mixed
factor, which warrants permitting some discovery as to the non-participants
(Respondents Dekker and Marnat) but curtailing discovery as to the intended
participant (Respondent ZF US). Moreover, the DIS Arbitration tribunal can
always say that more should be required or produced by the participants, as the
2018 DIS Arbitration Rules related to “Establishing the Facts,” namely Articles
28.1 and 28.2, do not restrict evidence gathering; in fact, Article 28.2 provides that
the tribunal “may, inter alia, on its own initiative, appoint experts, examine fact
witnesses other than those called by the parties, and order any party to produce or
make available any documents or electronically stored data.” (See ECF No. 6-2,
10

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.614 Filed 05/27/21 Page 11 of 36

PageID.280-281 (emphasis added); see also ECF No. 25, PageID.568-569, 588589.) Additionally, even the expedited proceedings rules which would apply to
this arbitration provide that, “[i]f the final award cannot be made within the time
limit set in Article 1 of this Annex, the arbitral tribunal shall inform the parties and
the DIS in writing of the reasons therefor[e].” (ECF No. 6-2, PageID.291, Art. 4.)
As pointed out by Respondents at oral argument, “[T]hat contemplates…a situation
where the arbitral tribunal believe[s] that there are some important facts that they
want or need.” (ECF No. 25, PageID.568.)
b.

Receptivity

“[A] court presented with a § 1782(a) request may take into account the
nature of the foreign tribunal, the character of the proceedings underway abroad,
and the receptivity of the foreign government or the court or agency abroad to U.S.
federal-court judicial assistance.” Intel Corp., 542 U.S. at 264. When the Court
ordered supplemental briefing, it asked the parties to discuss “how a foreign
arbitration tribunal is treated under the receptivity prong . . . .” (ECF No. 25,
PageID.600.)
The nature of the foreign tribunal and the character of the proceedings
underway abroad are a yet to be filed arbitration before DIS, which, as alluded to
above, is a private arbitration tribunal to which the parties agreed to submit any
disputes under the Master Purchase Agreement (MPA). (ECF No. 6-2, PageID.266
11

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.615 Filed 05/27/21 Page 12 of 36

[20.10.2 Arbitration.].) As for DIS’s receptivity to U.S. federal-court judicial
assistance, Respondents and Luxshare are at odds. (See ECF No. 6, PageID.238243; ECF No. 13, PageID.341-345; ECF No. 14, PageID.376-377.)
The 2018 DIS Arbitration Rules are important, not only for what they say
but also for what they do not say. (ECF No. 6-2, PageID.267-298.) Importantly,
as noted above, the 2018 DIS Arbitration Rules related to “Establishing the Facts,”
namely Articles 28.1 and 28.2, do not restrict evidence gathering. (See ECF No. 62, PageID.280-281; see also ECF No. 25, PageID.568-569, 588-589.)
Respondents contend that “[c]ourts will quash subpoenas where an arbitral
panel appears unreceptive to § 1782 discovery[.]” (ECF No. 18, PageID.453-456.)
See, e.g., In re Dubey, 949 F. Supp. 2d 990, 997 (C.D. Cal. 2013) (“there is
currently no evidence about the arbitral panel's receptivity to the requested
materials.”). However, Luxshare notes that “[d]istrict courts consistently grant §
1782 assistance to applicants for use in foreign arbitrations where, like here, the
respondents provide no authoritative proof that the tribunal would reject the
evidence[,]” and points to, inter alia, Respondents’ admission at the hearing that
“the DIS rules do not contain an explicit restriction on the collection of
evidence[.]” (ECF No. 25, PageID.572 at 22:8–12; ECF No. 19, PageID.479.)
See, e.g., Gov't of Ghana v. ProEnergy Servs. LLC, No. 11-9002-MC-SOW, 2011
WL 2652755, at *4 (W.D. Mo. June 6, 2011) (“The intervening party, Balkan, has
12

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.616 Filed 05/27/21 Page 13 of 36

not provided the Court with reliable evidence of non-receptivity in this case. Even
if Balkan could produce reliable evidence that the arbitration tribunal would reject
the evidence, Balkan has not provided the Court with reliable evidence that the
High Court of Ghana would reject the evidence.”). Without authoritative proof
that the DIS would reject Section 1782 discovery, and given Masser’s declaration
that “German Courts Admit Evidence Obtained By Way Of U.S. Discovery
Applications[,]” (ECF No. 13-2, PageID.359-362 ¶¶ 17-23) and the above-cited
DIS Rules, the Undersigned assumes that the DIS would receive it if it were
obtained and presented. (See also ECF No. 13, PageID.342, 344.)
In sum, while DIS does not provide a generous ration of discovery, it
appears receptive to whatever evidence a party wants to put in front of it, and it
does not impede proof-gathering.
In addition to the DIS Arbitration Rules not prohibiting Section 1782
discovery, Section 1782 is an independent statute; it is not beholden to the DIS
Arbitration Rules (ECF No. 6-2, PageID.267-298). “Section 1782 is a provision
for assistance to tribunals abroad. It does not direct United States courts to engage
in comparative analysis to determine whether analogous proceedings exist here.”
Intel Corp., 542 U.S. at 263; see also Abdul, 939 F.3d at 729 (when comparing the
breadth of Section 1782(a) discovery to Federal Arbitration Act discovery, the
court “decline[d] to conclude that simply because similar discovery devices may
13

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.617 Filed 05/27/21 Page 14 of 36

not be available in domestic private arbitration, § 1782(a) categorically does not
apply to foreign or international private arbitration.”).
c.

Circumvention

“[A] district court could consider whether the § 1782(a) request conceals an
attempt to circumvent foreign proof-gathering restrictions or other policies of a
foreign country or the United States.” Intel Corp., 542 U.S. at 265. Respondents
argue that Luxshare’s application is an “end-run” around the DIS’s “more
restrictive discovery rules . . . [,]” while Luxshare contends that it “is not
circumventing proof-gathering prohibitions[.]” (ECF No. 6, PageID.243-245; ECF
No. 13, PageID.345-349; ECF No. 14, PageID.375-376.)
The Court views circumvention as a mixed factor here. Respondents offer
the declaration of Christoph A. Baus to support the assertion that “U.S.-style
document discovery, with expansive categorial document requests, is . . . foreign to
German civil procedure.” (ECF No. 6-2, PageID.256-258.) This Court has
previously made the same observation. See financialright, 294 F. Supp. 3d at 736737. But most foreign legal systems do not embrace the broad form, style, and
scope of American civil discovery. See Marcus, Ricard L., Retooling American
Discovery for the Twenty-First Century: Toward a New World Order?, 7 Tul. J.
Int'l & Comp. L. 153, 154 (1999) (“Whatever the ulterior motives elsewhere, it is
clear that America's ‘unique’ discovery has raised hackles abroad.”) Indeed, “[t]he
14

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.618 Filed 05/27/21 Page 15 of 36

Restatement (and in turn, the Supreme Court) also assumed a basic comparative
point: that American discovery laws are far broader than, and in constant tension
with, the vast majority of other nations’ discovery systems.” Simowitz, Aaron D.,
Transnational Enforcement Discovery, 83 Fordham L. Rev. 3293, 3322 (2015).
Indeed, Luxshare’s own counsel acknowledged that he does not “know of any
other court that has U.S.-style depositions.” (ECF No. 25, PageID.591.) The
inquiry can hardly end on that basis alone. Even if there is limited proof-gathering
under the foreign arbitration rules (i.e., even if the foreign arbitration does not
adopt U.S.-style litigation), Luxshare has offered the declaration of Masser, who
touches upon receptivity in Germany in particular and asserts that “German courts
are nevertheless receptive to admitting evidence obtained by pre-trial discovery in
other jurisdictions, including the U.S.” (ECF No. 13-2, PageID.359 ¶ 17.)
Presumably offered under Fed. R. Civ. P. 44.1 as a witness to prove foreign law,
Masser (a member of the international law firm hired to represent Luxshare in
connection with contemplated arbitration proceedings and who is qualified to
practice in Germany (ECF No. 1-6, PageID.87, ¶ 1)) painstakingly explains:2
18. As a general principle of German law, German courts should
exclude evidence only in exceptional circumstances. ****For
instance, German courts must not per se dismiss evidence that was
obtained in violation of provisions of the CCP but must assess its
admissibility on a case by case basis, balancing the interests at stake.
Quoted in substantive part only, for ease on the reader, with supporting citations
to German law omitted, as indicated by asterisks.
2

15

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.619 Filed 05/27/21 Page 16 of 36

****With regard to evidence obtained in the course of a foreign
procedure, a court should refrain from admitting the evidence only if
admitting the evidence were to violate German public policy. ****
19. The fact that evidence obtained in the course of a foreign
proceeding could not have been obtained through the means of
German civil procedure does not render the evidence inadmissible.
****Rather, a violation of German public policy requires extreme
circumstances, e.g., that the evidence was obtained by torture or that
admitting the evidence amounted to a violation of a fundamental right.
****
20. In contrast to those examples, German scholars agree that
admitting evidence obtained by way of a 1782 application does not
generally violate German public policy. ****The prevailing view is
that Courts should admit evidence obtained by way of U.S. discovery
generously since excluding any evidence obtained by way of U.S.
discovery per se would violate the right to effective legal protection
and the right to be heard, which are both granted by the German
constitution and incorporated in the CCP. ****Therefore,
Eschenfelder concludes that the exclusion of evidence obtained in a
1782 application is “hard to imagine” and will be “only rare”. ****
21. German state courts indeed admit evidence obtained by way of
discovery applications in the U.S. For example, in a judgment, the
Higher Regional Court of Frankfurt am Main admitted evidence
obtained by way of Section 1782 discovery proceedings under U.S.
law. The court in that case held that it had “no concerns” about the
introduction of such evidence and that use of such evidence in no way
contravenes “fundamental principles of German law”. ****
22. In two further decisions by Higher Regional Courts in Germany
the issue was whether the costs of the discovery applications were to
be reimbursed in the German proceedings. **** While both of the
courts held that the costs were nonrefundable in the specific
circumstances, neither of the two took an issue with the fact that the
evidence obtained by way of the discovery apparently had been
admitted into the proceedings in the first place.

16

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.620 Filed 05/27/21 Page 17 of 36

23. If German state courts may admit evidence obtained by way of
1782 applications in state court proceedings, and they actually do
admit it, there is even less reason for an arbitral tribunal seated in
Germany to refrain from admitting evidence obtained by way of 1782
applications given that arbitral tribunals have broader discretion to
establish the facts of a case than state courts.
(Id., PageID. 359-362 ¶¶ 18-23 (emphases in original, except for underscoring in ¶
23).) As put forth at the hearing, even Respondents seem to agree that Section
1782 discovery is not prohibited under German law or by DIS Rules. (ECF No.
25, PageID.571.)
However, the discussion of “strategy” within the motion papers and at the
hearing is not helpful to Luxshare’s cause. In their motion, Respondents argue:
“More than raising a ‘specter’ or ‘perception’ that it is trying to circumvent the
DIS Rules, here, Luxshare leaves the court with no doubt: it is enlisting the Court
to bail it out from the arbitration rules for which it bargained. The Section 1782
framework does not permit such a tactic.” (ECF No. 6, PageID.245; see also ECF
No. 25, PageID.571, 587.) In its response and at oral argument, Luxshare explains
its decision to file its Section 1782 application before commencing arbitration,
elucidating that, with expedited arbitration – and given the Section 1782 process
and the possible objections and appeals which may flow therefrom – there may not
be enough time to obtain this discovery once the arbitration has commenced, or the
arbitration may be stalled by this process. (ECF No. 13, PageID.335-336; see also
ECF No. 13-2, ¶¶ 27.) Then, during the hearing, counsel for Luxshare and the
17

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.621 Filed 05/27/21 Page 18 of 36

Court debated the “strategic” nature of Luxshare’s application (ECF No. 25,
PageID.581, 584-585), prompting the Court to ask Luxshare’s counsel, “[w]hy
don’t we . . . have you start the arbitration [and] wait to see what DIS wants[?][,]”
(id., PageID.580). Petitioner’s counsel instead urged that “[t]he better strategy
here is to make sure that we have all of our evidence and all of our evidence lined
up, submitted right when we commence the arbitration.” (ECF No. 25,
PageID.581; see also id., PageID.584-585, 588-589.) Tellingly, Luxshare’s
counsel admitted that, “It's unlikely we'd be able to get this level of discovery in
the DIS, which is exactly why we're seeking it here[,]” but argued that case law
suggests that this is “the exact situation [Section 1782] was designed to help.”
(ECF No. 25, PageID.586.) The “strategic” use of Section 1782 perhaps tilts
against Luxshare on the circumvention factor, arguably supporting an inference of
circumvention; then again, lawyers make strategic / tactical decisions all the time
within the bounds of the law. (Compare ECF No. 25, PageID.589, with id.,
PageID.595-596.) As Luxshare’s attorney further points out, “That doesn't
suggest, in any way, that we are somehow subverting the Panel by seeking
discovery here in the U.S. first.” (ECF No. 25, PageID.589.) It may, or it may not.
More troubling, however, is the further admission by Luxshare’s counsel that he
“would absolutely agree that if [Luxshare] were to seek this discovery, the DIS . . .
would not permit it.” (ECF No. 25, PageID.580.)
18

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.622 Filed 05/27/21 Page 19 of 36

Nevertheless, even if this factor might thus weigh in Respondents’ favor,
circumvention is only one of the discretionary factors under Intel. The Supreme
Court has not instructed that evidence of circumventing the foreign tribunal’s
discovery rules forecloses any and all relief under 1782. This factor alone is not the
“end-all, be-all.” And while the Court maintains a healthy caution about giving
discovery here that may not be readily or at all available under the DIS Arbitration
Rules, the Court also notes that they neither foreclose nor prohibit such discovery.
In other words, the Court wants to be cautious by not giving Petitioner full-blown
Section 1782 discovery for use in a tribunal – DIS Arbitration – that does not
expressly permit it, but the Court also certainly need not completely bar the request
where the rules do not expressly prohibit it.
Before moving on to address the fourth and final discretionary Intel factor, it
is important to consider certain other issues which are specific to this case and/or
on which the Court received further briefing.
4.

Whether discovery and depositions were part of the MPA?

Respondents offer the declaration of Christoph A. Baus in support of their
claim that “discovery and depositions were not part of the agreement[.]” (ECF No.
6-2, PageID.252-254.) Accordingly, the Court asked the parties to brief “case law
on whether the contract arbitration clause is prohibitive or should be considered in
a Section 1782 analysis.” Respondents contend that “the parties’ arbitration
19

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.623 Filed 05/27/21 Page 20 of 36

provision reflects their intent to prohibit access to § 1782 discovery[.]” (ECF No.
18, PageID.448-450.) Luxshare contends that “[t]he case law demonstrates that
this arbitration clause in no way prohibits or limits Section 1782 discovery[;]”
instead, “the absence of any restrictions in the clause itself or in the DIS Rules on
the admissibility or collection of evidence weighs in favor of this avenue of
discovery.” (ECF No. 19, PageID.472-475.) In fact, at the hearing, Luxshare’s
counsel posited that “[e]vidence collected in connection with a 1782 application is
admissible.” (ECF No. 25, PageID.598.)
The Court agrees that “the arbitration clause does not prohibit Section 1782
discovery.” (ECF No. 19, PageID.472.) First, the clause’s plain language does not
bar such discovery. (See ECF No. 6-2, PageID.266.) If the parties had desired to
stay away from court on Section 1782 discovery, they could have included
appropriate language to that effect; they did not. (See ECF No. 20, PageID.483484 ¶ 6 [Masser Decl.].) Or, alternatively, they could have included an express
limitation on the ancillary purposes for which a party could seek a court’s
assistance by including words of limitation, such as “solely to compel arbitration or
enforce an arbitration award.” Second, and as mentioned above, the 2018 DIS
Arbitration Rules related to “Establishing the Facts,” namely Articles 28.1 and
28.2, do not restrict evidence gathering. (See ECF No. 6-2, PageID.280-281; see

20

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.624 Filed 05/27/21 Page 21 of 36

also ECF No. 25, PageID.568-569, 588-589.) Finally, the Sixth Circuit permits §
1782 discovery for use in private commercial arbitration. Abdul, 939 F.3d at 714.
5.

Whether the MPA’s arbitration clause phrase “without
recourse to the ordinary courts of law” bars Luxshare from
seeking this Court’s assistance with Section 1782 discovery?

Section 20.10 of the MPA provides that the agreement “shall be governed by
German law,” and further provides as to arbitration:
All disputes arising under or in connection with this Agreement
(including any disputes in connection with its validity) shall be
exclusively and finally settled by three (3) arbitrators in accordance
with the Arbitration Rules of the German Institution of Arbitration
e.V. (DIS), including the Supplementary Rules for Expedited
Proceedings, as applicable from time to time without recourse to the
ordinary courts of law. The place of the arbitration shall be Munich,
Germany. The language of the arbitral proceedings shall be English.
Documents in the German language shall be translated into the
English language.
(ECF No. 6-2, PageID.266 (emphasis added); see also ECF No. 6-2, PageID.271
[DIS Model Clauses].)
At the conclusion of the hearing, the Court sought supplemental briefing on
the meaning of the contract language “[w]ithout recourse to the ordinary courts of
law[.]” (ECF No. 25, PageID.599.) Respondents argue that “the MPA prohibits
‘recourse’ to a § 1782 petition[.]” (ECF Nos. 18, PageID.450-452; ECF No. 25,
PageID.561, 567.) Luxshare contends that the phrase “without recourse to the
ordinary courts of law” does not “prohibit or limit Luxshare’s right to obtain
ancillary court relief such as Section 1782 discovery[,]” (ECF No. 19, PageID.47521

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.625 Filed 05/27/21 Page 22 of 36

478; ECF No. 25, PageID.578). The Court agrees that a 1782 motion seeks
ancillary relief, as it is “supplementary” or “subordinate” to the main action.
Ancillary, Black's Law Dictionary (11th ed. 2019).3
On balance, the Court is persuaded by Luxshare’s argument. First, as for
Respondents’ reference to “Luxshare’s unexplained delay in commencing an
arbitration,” (ECF No. 6, PageID.234), Petitioner convincingly argues that
“[u]nder German law, Luxshare is well within the statute of limitations for
bringing its claim and has until the end of 2021 to file for arbitration[,]” and that “a
purported ‘delay’ in bringing claims does not supply a basis to deny a Section 1782
application[,]” (ECF No. 13, PageID.335). (See also ECF No. 13-2, PageID.367
¶¶ 29-33 [Masser Jan. 8, 2021 Decl.].)
Second, notwithstanding the DIS Arbitration Rules on “Expedited
Proceedings” (ECF No. 6-2, PageID.291), or Respondents’ “expedited arbitration”
argument (see, e.g., ECF No. 6, PageID.243-245; ECF No. 14, PageID.380; ECF
No. 25, PageID.561, 567), it is not mutually exclusive to undergo expedited
arbitration and engage in Section 1782 discovery. As Attorney Masser declares,
Section 20.10.2 of the MPA “does not preclude [Luxshare] from seeking interim

See also Suit, Black's Law Dictionary (11th ed. 2019) (defining “ancillary Suit”
as “[a]n action . . . that grows out of and is auxiliary to another suit and is filed to
aid the primary suit, to enforce a prior judgment, or to impeach a prior decree.”)
(emphasis added).
3

22

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.626 Filed 05/27/21 Page 23 of 36

relief or pursuing discovery applications in the courts.” (ECF No. 13-2,
PageID.358 ¶ 14.) See In re Faiveley Transp. Malmo AB, 522 F. Supp. 2d 639,
641-642 (S.D.N.Y. 2007) (The injunctive relief being sought “to maintain the
status quo during the pendency of [the] arbitration” would not jeopardize the
requirement that “‘[a]ny dispute arising out of or in connection with this agreement
shall be finally settled by arbitration without recourse to the courts[,]” (emphasis in
original), and “it is undisputed that the arbitration tribunal has not yet been
convened, or its members selected, and hence resort to ‘any competent judicial
authority for interim or conservatory measures’ is precisely what is contemplated
by the very Rules that the parties agreed would govern.”) (emphases added,
external footnote omitted)). And, Luxshare’s pursuit of this relief under 1782
before commencing the arbitration is consistent with a desire to keep the
arbitration on an expedited track, once it commences, by obtaining the discovery
beforehand. Unlike the Federal Rules of Civil Procedure, which explicitly prohibit
discovery without leave of the court until the suit is underway and certain
milestones have been passed, the DIS Arbitration Rules do not appear to contain
such a prohibition. See Fed. R. Civ. P. 26(d)(1).
Finally, as the Court noted at the hearing, Black's Law Dictionary lists
alternate definitions of recourse: (1) “[t]he act of seeking help or advice[;]” and,
(2) “[e]nforcement of, or a method for enforcing, a right.” Recourse, Black's Law
23

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.627 Filed 05/27/21 Page 24 of 36

Dictionary (11th ed. 2019). (ECF No. 25, PageID.578-579.) Upon consideration,
the Court concludes – in context and including consideration of what could have
been but was not addressed or excluded by the contract language – that the second
of these definitions of recourse is the one most applicable here. In other words, the
phrase “without recourse to the ordinary courts of law” prevents Luxshare from
coming to this Court for adjudication on the merits, i.e., “a method for enforcing, a
right,” which Luxshare will do through the yet to be filed arbitration. Nonetheless,
in the matter at hand, Luxshare is permitted to come to this Court for ancillary
proceedings, such as assistance to compel arbitration to begin, i.e., an “act of
seeking help[,]” to procure evidence by compelling Section 1782 discovery, or to
enforce an arbitration award. This interpretation is supported by Masser’s
declaration:4
4.
[URL omitted] The suggested wording is in pertinent part: “All
disputes arising out of or in connection with this contract or its
validity shall be finally settled in accordance with the Arbitration
Rules of the German Arbitration Institute (DIS) without recourse to
the ordinary courts of law.” By this standard wording, the parties
agree that the main claim - if any - shall be arbitrated, not litigated.
The parties using this standard language do not, however, generally
exclude the assistance of state courts. German state courts regularly
assume jurisdiction, even if such standard wording “without recourse
to the ordinary courts of law” is included. ****
5.
Furthermore, German state courts do assume jurisdiction in
spite of an arbitration agreement if the application brought concerns
Quoted in substantive part only, for ease on the reader, with supporting citations
to German law omitted, as indicated by asterisks.
4

24

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.628 Filed 05/27/21 Page 25 of 36

ancillary or interim proceedings but not the main claim itself. For
example, the Higher Regional Court of Koblenz decided that it "is
permissible according to the unanimous opinions of legal authorities
and jurisprudence" for a party to commence a legal proceeding in a
German state court to compel the counter-party to preserve evidence
for use in an arbitration. **** This is now expressly set out in German
statutory law, sec. 1033 of the Code of Civil Procedure ("CCP"),
which provides for the jurisdiction of state courts for interim relief
proceedings where the substantive dispute is controlled by an
arbitration agreement and is confirmed by decisions of courts
throughout Germany. **** The admissibility of interim relief in spite
of an arbitration clause is, furthermore, expressed by the German
legislature in the reasoning for the revised provisions in CCP. ****
Finally, according to some prominent authors, sec. 1033 CCP
regarding the right to state court relief for interim, non-substantive
proceedings where the parties have an arbitration agreement is
mandatory and cannot be excluded even by virtue of an express party
agreement to the contrary. ****
6.
Generally, when interpreting an arbitration agreement pursuant
to German statutory law and principles, one has to consider the
parties’ intention at the time of concluding the contract (Sections 133
and 157 German Civil Code). **** Here, the parties chose to include
the DIS standard wording, amended by referring to the expedited
procedure. As can be seen from the jurisprudence cited above, such
standard wording is not to the exclusion of state court support. Had
the parties wanted to exclude any recourse to the ordinary courts for
not only for the main claim for also for everything else, including
evidence preservation and other interim relief applications, they
would have needed to have expressly agreed on this and expressly
stated it. But, as stated above, some authors suggest that parties
cannot make such agreements because it is contrary to public policy.
(ECF No. 20, PageID.482-484 ¶¶ 4-6 [Masser Decl.].)
6.

Whether a decision on Luxshare’s motion should be stayed
pending the Supreme Court’s decision in Servotronics, Inc.?

25

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.629 Filed 05/27/21 Page 26 of 36

After Petitioner and Respondents filed their supplemental briefs, the
Supreme Court granted the petition for a writ of certiorari in Servotronics, Inc.,
2021 WL 1072280, at *1. The question presented is:
Whether the discretion granted to district courts in 28 U.S.C. §1782(a)
to render assistance in gathering evidence for use in “a foreign or
international tribunal” encompasses private commercial arbitral
tribunals, as the Fourth and Sixth Circuits have held, or excludes such
tribunals without expressing an exclusionary intent, as the Second,
Fifth, and, in the case below, the Seventh Circuit, have held.
See https://www.supremecourt.gov/qp/20-00794qp.pdf (emphasis added).5
While Respondents have alerted the Court of this pending matter (ECF No. 22),
Luxshare contends that the Sixth Circuit’s decision in Abdul remains binding and
that “the grant of certiorari in Servotronics should bear no weight on the
Respondents’ pending motion to quash[,]” (ECF No. 23). Upon consideration, the
Court declines to stay today’s decision. It appears that the Supreme Court will
consider Servotronics during the 2021-2022 term. As Luxshare points out, a
decision could be issued as late as June 30, 2022. (ECF No. 23, PageID.497.)
Until then, Abdul is binding on this Court. Given the potential length of time
before the Supreme Court issues its decision in Servotronics, the fact that there is

Interestingly, the question on which certiorari was granted appears to be
consistent with the discussion above concerning the meaning of “recourse” to the
ordinary courts of law, i.e., that 1782 merely provides “assistance” via an ancillary
action to the main action.
5

26

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.630 Filed 05/27/21 Page 27 of 36

binding precedent from the Sixth Circuit, and the need for swifter action and
greater certainty within the timeframe for the filing and pursuit of what will be
expedited arbitration proceedings in Germany, the Court declines to exercise its
discretion to stay the case pending the Supreme Court’s decision in Servotronics.6
Furthermore, the limited scope of the discovery which this Court has decided to
grant takes the uncertainty of how the Supreme Court will rule on this issue into
account – in conjunction with the discretionary Intel factors – permitting some, but
by no means all of the requested discovery, and recognizing that both DIS and the
Supreme Court may give further guidance in the future.
7.

The final Intel factor
a.

Unduly intrusive or burdensome

“[U]nduly intrusive or burdensome requests may be rejected or trimmed.”
Intel Corp., 542 U.S. at 265. “In determining whether such requests are intrusive
or burdensome, the statute itself instructs that, ‘[t]o the extent that the order does
not prescribe otherwise, the testimony or statement shall be taken, and the
document or other thing produced, in accordance with the Federal Rules of Civil
Notably, the expedited arbitration rules call for a decision within six months of
the case management conference, with the case management conference to be held
“in principle within 21 days” after the arbitral tribunal is constituted. (ECF No. 62, PageID.280, § 27.2; id., PageID.291 Annex 4, Art. 1.) Since the statute of
limitations dictates that this arbitration proceeding be commenced by December
2021, it will be well underway and may well be nearing completion by the time the
Supreme Court renders its decision in Servotronics.

6

27

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.631 Filed 05/27/21 Page 28 of 36

Procedure.’” financialright, 294 F. Supp. 3d at 738-39 (quoting 28 U.S.C. §
1782(a)). “Requests are unduly intrusive and burdensome where they are not
narrowly tailored, request confidential information and appear to be a broad
‘fishing expedition’ for irrelevant information.” In re Ex Parte Application of
Qualcomm Incorporated, 162 F.Supp.3d 1029, 1043 (N.D. Cal. 2016) (footnote
omitted); see also Surles ex rel. Johnson v. Greyhound Lines, Inc., 474 F.3d 288,
305 (6th Cir. 2007). Respondents and Luxshare dispute whether Luxshare’s
subpoenas are overly broad, invasive, or unduly burdensome. (ECF No. 6,
PageID.246-248; ECF No. 13, PageID.349-350.)
b.

What is the proper scope of discovery?

“Unless otherwise limited by court order, the scope of discovery is as
follows:
Parties may obtain discovery regarding any nonprivileged matter that
is relevant to any party’s claim or defense and proportional to the
needs of the case, considering the importance of the issues at stake in
the action, the amount in controversy, the parties' relative access to
relevant information, the parties’ resources, the importance of the
discovery in resolving the issues, and whether the burden or expense
of the proposed discovery outweighs its likely benefit. Information
within this scope of discovery need not be admissible in evidence to
be discoverable.
Fed. R. Civ. P. 26(b)(1). See also In re Sargeant, 278 F. Supp. 3d at 824 (“while
this Court does not reach consideration of the Intel factors, Rule 26(b)

28

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.632 Filed 05/27/21 Page 29 of 36

circumscribes the scope of discovery to that which is ‘proportional to the needs of
the case.’”) (quoting Fed. R. Civ. P. 26(b)(1)).
Anticipating the possibility that the Court might permit some discovery, the
Court’s February 24, 2021 text-only order also provided: “although preserving
ZF's objection that it need not produce anything…: (1) the parties shall undertake
another meet and confer conference to discuss what they can jointly agree upon
and what they cannot agree upon if the Court were to order production in response
to the subpoenas (with reference to the fourth Intel factor); and, (2) submit another
joint statement reflecting the parties conditional agreements (subject to ZF's
preserved objections) and proposals.”
On March 19, 2021, the parties reported that they “were unable to reach an
agreement regarding the proper scope of discovery that might be permitted
pursuant to 28 U.S.C. § 1782.” (ECF No. 21, PageID.487 ¶ 3.) They have
provided detail about their attempts to negotiate the proper scope of discovery.
(ECF No. 21, PageID.487-493.) Respondents’ initial, albeit conditional, proposal
is for Petitioner “to make requests for specific documents created between May 1,
2017 and August 30, 2017[,]” as “such a proposal is consistent with the scope of
any discovery that a DIS Panel would even consider in any future arbitration.”
(ECF No. 21, PageID.487.) Among other things, Luxshare points out that “the
scope of Section 1782 discovery is governed by the Federal Rules of Civil
29

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.633 Filed 05/27/21 Page 30 of 36

Procedure and not the DIS Rules.” (ECF No. 21, PageID.490.) The Court is well
aware of this and has considered, in addition to the question of relevance discussed
throughout this opinion, each of the proportionality factors listed in Fed. R. Civ. P.
26(b)(1). The rulings which follow attempt to resolve this discovery dispute in a
manner that is “proportional to the needs of the case,” noting “the importance of
the issues at stake in the action,” the indisputably large amount in controversy –
“nearly a billion dollars pursuant to the terms of” the MPA (ECF No. 1, PageID.9),
Luxshare’s relative lack of access to much of the relevant information, the
seemingly large resources of both sides, and “the importance of the discovery in
resolving the issues[.]” Fed. R. Civ. P. 26(b)(1).
Further, upon consideration of the Intel factors, taking cognizance of the
potential for the Supreme Court to foreclose § 1782 discovery in foreign
arbitrations without staying this application in its entirety, and with due deference
to the “circumvention” and “unduly intrusive or burdensome” factors, the Court
concludes that discovery is warranted, but in a more limited scope than Luxshare
requests in its subpoenas.
i.

The temporal scope

First, as for the temporally appropriate period, instead of Respondents’
suggestion that it should be cut off upon the signing of the MPA, the Court finds it
appropriate to “shorten the temporal scope of all of the document requests to the
30

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.634 Filed 05/27/21 Page 31 of 36

16-month period of December 2016 to the April [27, ]2018 closing[,]” as offered
by Luxshare. (ECF No. 21, PageID.488-489, 491-492.)7 Luxshare persuasively
argues that “[t]he period between signing and closing is a critical period in any
fraud case arising from an M&A transaction, and internal ZF US communications
in that period may certainly reflect discussion of the fraud[,]” and that “[e]ven
more fundamentally, the MPA was amended shortly before closing, on April 14,
2018.” (Id., PageID.493; see also ECF No. 1-2, PageID.44 ¶ 14.) (See also ECF
No. 25, PageID.561, 590-591, 597.) The Court recognizes from experience that
misrepresentation as to material facts upon which a party to a contract may rely to
its detriment may well occur during post-contract, pre-closing due diligence, as
sometimes occurs in a pre-closing home inspection or the sharing of a business’s
financial ledger.
ii.

Scope of document searches

The beginning of this time frame allows for a brief period before the April 2017
commencement of the “Due Diligence Period” and accounts for the fact that the
2016 actual financials were part of the disclosures. (ECF No. 1-5, PageID.80-81
[Huang Oct. 5, 2020 Decl., ¶¶ 7 & 10].) It is also what Luxshare requested as the
starting point, albeit not the endpoint specified in its subpoenas, which, in several
places and inconsistent with the instructional section, sought information “between
December 1, 2016 and the date of this Subpoena….” (See, e.g., ECF No. 1-2,
PageID.50, No. 8 (emphasis added); ECF No. 25, PageID.590-591.) And, while
Respondents take issue with having the closing date as the endpoint, they do not
take issue with the December 2016 starting point. (ECF No. 21, PageID.489.)
7

31

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.635 Filed 05/27/21 Page 32 of 36

Second, the document searches shall be limited to “(i) the emails of
Respondent … Marnat and [one] other custodian[],” and (ii) “documents contained
in any shared data drive or other reasonably accessible centrally maintained
sources.” (ECF No. 21, PageID.491.) The Court will not require Dekker to serve
as a document custodian, as he provided an unrebutted declaration, which states:


To the extent that while working at ZF US I possessed any
documents related to the Luxshare transaction or otherwise
responsive to the subpoena served on me in this case, I left
these documents in the possession of ZF US when I stopped
working at ZF US.



When I left ZF US, I did not retain any documents related to the
Luxshare transaction or otherwise responsive to the subpoena . .
..



I do not have in my possession any documents related to the
Luxshare transaction or otherwise responsive to the subpoena
served on me in this case.

(ECF No. 6-3, PageID.300, ¶¶ 4-6.) In other words, only one document custodian
besides Marnat will be permitted. Additionally, as both sides suggested (ECF No.
21, PageID.489, 491, 492), the parties shall agree to a list of search terms.
Moreover, while the Court agrees with Respondents that the document
requests are overbroad in several respects, Respondents made no effort to convince
the Court that the requests are “unduly burdensome,” despite alluding to that
contention in a mere topic heading. (ECF No. 6, PageID.246.) The Court requires
significantly more than that to contest discovery on this basis, as it is “well-settled
32

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.636 Filed 05/27/21 Page 33 of 36

law that, ‘[i]f an objection is interposed based on an alleged undue burden, the
objecting party must make ‘a specific showing, usually ... by affidavit, of why the
demand is unreasonably burdensome.’” State Farm Mut. Auto. Ins. Co. v. Elite
Health Centers, Inc., 364 F. Supp. 3d 758, 766 (E.D. Mich. 2018) (citation
omitted). That did not happen here. And, “the fact that it will be either
bothersome or burdensome to respond to a discovery request does not necessarily
mean that it will be unduly so.” State Farm, 364 F.Supp.3d at 767 (emphasis in
original).
Respondents’ contention that the requests are too broad has greater traction,
although the requests are relatively targeted compared to much of the large-scale
commercial litigation seen by this Court on a regular basis. For example,
Respondents protest that they ought not be required to reveal communications with
other bidders or banks concerning the “Big Three” U.S. automakers, i.e., the
“Relevant Customers.” (ECF No. 6, PageID.247.) The Court disagrees. Those
communications could reveal the exchange of information – particularly financial
information – that runs contrary to the information provided to and reasonably
relied upon by Luxshare, perhaps constituting evidence of fraud. Nonetheless,
some of Luxshare’s definitions of the key entities and some of Luxshare’s requests
are unreasonably broad, and the litany style used to define certain common words,
such as the word concerning, go so far afield as to make no sense. With that in
33

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.637 Filed 05/27/21 Page 34 of 36

mind, Luxshare will be required to make the following deletions from its
subpoenas: (a) “edifying” and “starting” from the definition of “concerning” (id.,
¶ 6); (b) “affiliates,” “predecessors,” “successors,” “representatives,” “agents,”
“consultants,” and “advisors” from the definitions of “FCA,” “Ford,” and “GM”
(id., ¶¶ 9, 11, 12); (c) the errant paragraph (id., ¶ 16); (d) “including, but not
limited to” from Request Nos. 2 & 3; and, (e) “or the information contained
therein” from Request No. 4. Further, Request No. 6 will be limited to
communications concerning the “past or future sales or sales volumes” with
respect to the Relevant Customers. In making these adjustments, the Court takes
into consideration both the purported procedure in Germany that does not permit
“categories of discovery,” as Respondents point out (ECF No. 6, PageID.248), and
the notion that “courts are counseled to pare down the requests rather than denying
[them] outright[,]” as Luxshare advocates (ECF No. 13, PageID.349). See
Heraeus Kulzer, GmbH v. Biomet, Inc., 633 F.3d 591, 598 (7th Cir. 2011) (In a §
1782 discovery matter, “[i]f it’s asking for too much, the district court can and
should cut down its request, but not to nothing, as it did. That was unreasonable,
and therefore reversible.”).
iii.

Depositions

Similarly, with respect to depositions, the Court is inclined to give some, but
not all. In considering the question of depositions, the Court bears in mind that:
34

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.638 Filed 05/27/21 Page 35 of 36

(1) the parties to the MPA contracted for arbitration in Germany, not full-blown
U.S. litigation; (2) they agreed to do this on an “expedited,” i.e., streamlined basis;
(3) Luxshare believes it has “evidence to support [its] claims right now[,]” but just
“need[s] that discovery to make sure that [it has] the strongest possible pleading
when [it] commence[s] the arbitration[,]” (ECF No. 25, PageID.581-582 (emphasis
added)); and, (4) there needs to be a balance between the Intel Court’s concern that
nonparties’ testimony may be unattainable absent relief under § 1782 and the duty
of both the subpoenaing party and the Court to “avoid imposing undue burden…on
a person subject to the subpoena[,]” Fed. R. Civ. P. 45(d)(1). This last
consideration is especially noteworthy where witnesses face the prospect of being
dragged into litigation involving their former employer. With all of this in mind,
the Court has determined that one deposition is enough. Accordingly, the Court
will permit Luxshare – at its own choosing – to take the deposition of either
Respondent Gerald Dekker or Respondent Christophe Marnat. It may not take
both.
II.

ORDER
Accordingly, Respondents’ motion to quash improper subpoenas (ECF No.

6) is GRANTED IN PART and DENIED IN PART. Consistent with the
foregoing, ZF US and Marnat SHALL respond to the respective subpoenas (ECF

35

Case 2:20-mc-51245-LJM-APP ECF No. 26, PageID.639 Filed 05/27/21 Page 36 of 36

Nos. 1-2, 1-3, 1-4) consistent with this opinion by a reasonable deadline to be
mutually worked out by counsel.
IT IS SO ORDERED.8
Dated: May 27, 2021

Anthony P. Patti
U.S. MAGISTRATE JUDGE

The attention of the parties is drawn to Fed. R. Civ. P. 72(a), which provides a
period of fourteen (14) days after being served with a copy of this order within
which to file objections for consideration by the district judge under 28 U.S.C. §
636(b)(1).

8

36

EXHIBIT C

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.706 Filed 07/01/21 Page 1 of 19

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,
Petitioner,
v.

Case No. 2:20-mc-51245
Honorable Laurie J. Michelson
Magistrate Judge Anthony P. Patti

ZF AUTOMOTIVE US, INC.,
GERALD DEKKER, and
CHRISTOPHE MARNAT,
Respondents.
ORDER OVERRULING OBJECTIONS TO MAGISTRATE JUDGE’S
ORDER GRANTING IN PART AND DENYING IN PART
RESPONDENTS’ MOTION TO QUASH [26]
As a result of a business dispute involving hundreds of millions of dollars in
potential damages, Luxshare, LTD intends to initiate, by the end of the year, an
arbitration proceeding in Munich, Germany against ZF Automotive US, Inc.
Luxshare seeks discovery for this foreign proceeding from ZF US and two of its senior
officers who all reside in the Eastern District of Michigan. Luxshare has filed an
application pursuant to 28 U.S.C. § 1782 seeking to serve subpoenas for the
production of documents and testimony. In evaluating Luxshare’s request,
Magistrate Judge Anthony P. Patti reviewed the initial briefing, conducted an
extensive hearing, requested supplemental briefing, thoroughly analyzed all of the
relevant factors from the governing case, see generally Intel Corp. v. Advanced Micro
Devices, Inc., 542 U.S. 241 (2004), and issued a 36-page opinion. Magistrate Judge
Patti determined that some discovery was appropriate, but he significantly limited

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.707 Filed 07/01/21 Page 2 of 19

its scope. Now before the Court are Respondents’ objections to Magistrate Judge
Patti’s order. None of them reveal any legal error or abuse of discretion. The
objections are OVERRULED.
I.
In August 2017, Luxshare, LTD purchased two business units from Michiganbased automotive parts supplier and manufacturer ZF Automotive US, Inc. for nearly
a billion dollars. (ECF No. 1, PageID.9.) The two businesses were ZF US’s Global
Body Control Systems business and ZF US’s Radio Frequency Electronics business
(collectively, the “BCS-RFE Businesses”). (Id.) The terms of the deal were set forth
in a Master Purchase Agreement. (Id.) The deal closed in April 2018.
Luxshare claims that it only recently discovered that, during the due diligence
period and prior to the closing on the transaction, ZF US fraudulently concealed
certain material facts and developments concerning the significant decline in
business relationships with, and expected purchases from, several of the most
important customers of the BCS-RFE Businesses (i.e., FCA, Ford, and GM). (Id. at
PageID.9–10.) This alleged fraud, claims Luxshare, inflated the purchase price it paid
for the BCS-RFE Businesses by hundreds of millions of dollars over the amount it
would otherwise have paid for them. (Id. at PageID.10.)
The parties’ Master Purchase Agreement provides that “[a]ll disputes arising
under or in connection with this Agreement . . . shall be exclusively and finally settled
by three (3) arbitrators in accordance with the Arbitration Rules of the German
Institution of Arbitration e.V. (DIS), including the Supplementary Rules for

2

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.708 Filed 07/01/21 Page 3 of 19

Expedited Proceedings . . . .” (ECF No. 6-2, PageID.266.) Also, “[t]he place of the
arbitration shall be Munich, Germany.” (Id.)
Luxshare intends to bring claims with a DIS arbitral tribunal to recover for
the losses it claims to have suffered as a result of ZF US’s alleged wrongful conduct.
(ECF No. 1, PageID.10–11.) Luxshare has until the end of 2021 to file for arbitration.
(ECF No. 13, PageID.335.)
But prior to doing so, and because the arbitration proceedings will be
expedited, Luxshare seeks to obtain discovery from ZF US and two of its senior
officers, Gerald Dekker (retired) and Christopher Marnat, pertaining to the
concealment of information concerning the lost sales volumes. So on October 16, 2020,
Luxshare filed an ex parte Application seeking the Court’s permission to obtain this
discovery pursuant to 28 U.S.C. § 1782. (ECF No. 1.) Attached to the Application are
a subpoena for documents from ZF US and subpoenas duces tecum for the depositions
of Dekker and Marnat. (ECF Nos. 1-2, 1-3, 1-4.) This Court granted Luxhare’s ex
parte application on October 22, 2020. (ECF No. 3.) Luxshare served the § 1782
subpoenas on respondents the next day. (ECF No. 13, PageID.331.)
Respondents then moved to quash (ECF No. 6), which Luxshare opposed (ECF
No. 13). The motion was referred to Magistrate Judge Anthony P. Patti. He conducted
a hearing and then requested supplemental briefing. Judge Patti ultimately entered
an order granting in part and denying in part the motion to quash. (ECF No. 26.)
Judge Patti authorized discovery but limited it as follows: document searches in only
the emails of Marnat and one other custodian, and documents contained in a centrally

3

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.709 Filed 07/01/21 Page 4 of 19

maintained shared drive, between December 2016 and April 2018; modifications to
certain definitions in the subpoenas; and a deposition of either Marnat or Dekker,
but not both. Id. Respondents oppose the production of any discovery and thus, have
filed timely objections. (ECF No. 27.)
II.
The parties dispute whether a magistrate judge’s ruling on an application
brought under 28 U.S.C. § 1782(a) constitutes a nondispositive order requiring plain
error review or a dispositive order requiring de novo review. 28 U.S.C. § 636(b)(1)(A);
Fed. R. Civ. P. 72(a). “Neither the Supreme Court nor any circuit court appears to
have squarely addressed this issue. Most lower courts, however, have found that such
rulings are not dispositive and are therefore subject to review only for clear error.” In
re Hulley Enters., 400 F. Supp. 3d 62, 71 (S.D.N.Y. 2019) (citing cases). As one court
in this Circuit has likewise explained, “[t]he majority of persuasive authority on this
topic concludes that a magistrate judge’s ruling on a motion for discovery under 28
U.S.C. § 1782(a) is nondispositive.” JSC MCC EuroChem v. Chauhan, No. 17-00005,
2018 U.S. Dist. LEXIS 138075, at *2 (M.D. Tenn. Aug. 15, 2018) (citing cases).
The Court sees no reason to deviate from this majority view or to treat this
matter differently from other discovery disputes. “In a § 1782 proceeding, there is
nothing to be done ‘on the merits.’ Section 1782 empowers a district court to order a
person residing within its district to ‘give his testimony or statement or to produce a
document or other thing for use in a proceeding in a foreign or international tribunal.’
The only issue before the district court is discovery; the underlying litigation rests

4

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.710 Filed 07/01/21 Page 5 of 19

before a foreign tribunal.” In re Republic of Ecuador, 735 F.3d 1179, 1182 (10th Cir.
2013). Thus, the Court will uphold Magistrate Judge Patti’s order unless it is “clearly
erroneous or contrary to law.” United States v. Curtis, 237 F.3d 598, 603 (6th Cir.
2001).
A ruling is “‘clearly erroneous’ when, although there is evidence to support it,
the reviewing court . . . is left with the definite and firm conviction that a mistake has
been committed.” Hagaman v. Comm’r of Internal Revenue, 958 F.2d 684, 690 (6th
Cir. 1992) (citation omitted). A legal conclusion is “contrary to law ‘when it fails to
apply misapplies relevant statutes, case law, or rules of procedure.’” Ford Motor Co.
v. United States, No. 08-12960, 2009 U.S. Dist. LEXIS 81720, 2009 WL 2922875, at
*1 (E.D. Mich. Sept. 9, 2009) (citation omitted). Relatedly, in deciding discovery
disputes, a magistrate judge is entitled to the same broad discretion as a district judge
and his order is overruled only upon a finding of an abuse of discretion. State Farm
Mutual Auto. Ins. Co. v. Pointe Physical Therapy, LLC, 255 F. Supp. 3d 700, 703 (E.D.
Mich. 2017) report and recommendation adopted No. 14-11700, 2017 U.S. Dist. LEXIS
113535, 2017 WL 3116261 (July 21, 2017); Bill Call Ford, Inc. v. Ford Motor Co., 48
F.3d 201, 209 (6th Cir. 1995). An abuse of discretion exists when the court applies the
wrong legal standard, misapplies the correct legal standard, or relies on clearly
erroneous findings of fact. First Tech. Safety Sys., Inc. v. Depinet, 11 F.3d 641, 647
(6th Cir. 1993).

5

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.711 Filed 07/01/21 Page 6 of 19

III.
The purpose of an application under 28 U.S.C. § 1782 is to obtain federal-court
assistance in gathering evidence and testimony for use in foreign tribunals. Intel
Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241, 247 (2004). To invoke § 1782, an
applicant must first meet certain threshold criteria: (1) the person from whom
discovery is sought “resides or is found” within the district; (2) the discovery is “for
use in a proceeding before a foreign or international tribunal”; and (3) the application
is made by an “interested person.” 28 U.S.C. § 1782(a).
If these statutory prerequisites are met, the district court is authorized, but
not required, to permit discovery. Intel., 542 U.S. at 264. In other words, § 1782
“leaves the issuance of an appropriate order to the discretion of the court.” Id. at 260–
61.) The following (Intel) factors guide the Court’s exercise of its discretion: (1)
whether the person from whom discovery is sought is a participant in the foreign
proceeding; (2) the nature of the foreign tribunal, the character of the proceedings,
and the receptivity of the agency abroad to federal-court judicial assistance; (3)
whether the application conceals an attempt to circumvent foreign proof-gathering
restrictions or other policies; and (4) whether the discovery sought is unduly intrusive
or burdensome. Id. at 264−65. The decision to grant an application is made in light
of the “twin aims” of § 1782: “providing efficient means of assistance to participants
in international litigation and encouraging foreign countries by example to provide
similar assistance to our courts.” Id. at 252.

6

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.712 Filed 07/01/21 Page 7 of 19

The thrust of Respondents’ objections involve Magistrate Judge Patti’s rulings
on the Intel factors. Respondents believe that “each discretionary factor weighs in
favor of quashing the Section 1782 Subpoenas in their entirety.” (ECF No. 27,
PageID.651.) They also contend that his ruling does not achieve either of the “twin
aims” of § 1782. Respondents do not object to Judge Patti’s substantive rulings on the
statutory prerequisites of § 1782. But they do object to his refusal to stay the
application pending a ruling in Servotronics, Inc. v. Rolls-Royce PLC, 141 S. Ct. 1684
(2021) (cert. granted), because the Supreme Court might determine that § 1782 does
not apply to a foreign, private, commercial arbitration. (Id.) The Court will address
the objections in turn.
A.
The first discretionary factor to be considered is whether “the person from
whom discovery is sought is a participant in the foreign proceeding.” Intel, 542 U.S.
at 264. If so, “the need for § 1782(a) aid generally is not as apparent as it ordinarily
is when evidence is sought from a nonparticipant in the matter arising abroad.” Id.
This is because “[a] foreign tribunal has jurisdiction over those appearing before it,
and can itself order them to produce evidence.” Id. “In contrast, nonparticipants in
the foreign proceeding may be outside the foreign tribunal’s jurisdictional reach;
hence, their evidence, available in the United States, may be unobtainable absent
§ 1782(a) aid.” Id.
Here, the contemplated German arbitration will be against ZF US and not the
individuals Gerald Dekker and Christophe Marnat. And it is ZF US and not Dekker

7

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.713 Filed 07/01/21 Page 8 of 19

and Marnat that have possession of the documents requested in the subpoenas. Thus,
Magistrate Judge Patti found the participation factor “was mixed” and warranted
“permitting some discovery as to the non-participants (Respondents Dekker and
Marnat) but curtailing discovery as to the intended participant.” (ECF No. 26,
PageID.613.) Respondents claim this is error. (ECF No. 27, PageID.652.) “If neither
Mr. Dekker nor Mr. Marnat have any responsive documents in their individual
possession, and those documents are instead held by ZF US,” say Respondents, “then
this is not a ‘mixed factor’ at all: the discovery can only come from an entity that is a
party to the foreign arbitration.” (Id. at PageID.654.)
But this is not dispositive. Some courts are “not persuaded that Intel precludes
§ 1782 discovery of parties participating in the underlying international proceeding.
Section 1782 aid is not foreclosed just because the need for such aid may not be as
readily apparent.” In re Application of Auto-Guadeloupe Investissement S.A., for an
Ord. to Take Discovery Pursuant to 28 U.S.C. Section 1782, No. 12 MC 221 RPP, 2012
WL 4841945, at *5 (S.D.N.Y. Oct. 10, 2012).
“Although the identity of the party is instructive, the analysis turns on whether
the evidence is ‘unobtainable absent § 1782(a) aid.’” Republic of Kaz. v. Lawler, No.
CV-20-00090, 2020 U.S. Dist. LEXIS 12694, at *10 (D. Az. Jan. 27, 2020) (citing Intel,
542 U.S. at 264); see also In re Judicial Assistance Pursuant to 28 U.S.C. 1782 by
Macquarie Bank Ltd., No. 14-cv-00797, 2015 WL 3439103, at *6 (D. Nev. May 28,
2015) (“Although the case law at times refers to whether the ‘person’ is within the
foreign tribunal’s jurisdictional reach, the key issue is whether the material is

8

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.714 Filed 07/01/21 Page 9 of 19

obtainable through the foreign proceeding.”); In re Ex Parte Application of Qualcomm
Inc., 162 F. Supp. 3d 1029, 1039 (N.D. Cal. 2016) (“[W]hether an entity is a
participant . . . is not dispositive; Intel puts it in the context of whether the foreign
tribunal has the authority to order an entity to produce the disputed evidence.”).
Luxshare provided affidavits from Anna Masser, its German counsel who will
be handling the DIS arbitration. (ECF No. 1-6; ECF No. 13-2.) She supports
Luxshare’s position that the DIS Rules have no mechanism to compel discovery in
the United States. (See, e.g., ECF No. 1-6, PageID.95.) Masser explains that the
subpoenaed documents and witnesses are all located in the United States, and thus,
for both parties and non-parties alike, the DIS tribunal will have no authority to
compel the production of documents and deposition testimony sought. (ECF No. 132, PageID.364–365.) This supports Magistrate Judge Patti’s finding that this factor
is “mixed.” See In re Application for Discovery Pursuant to 28 U.S.C. § 1782, 19-MC0102, 2019 WL 4110442, at *2 (N.D. Ohio Aug. 29, 2019) (weighing the first Intel
factor in favor of granting the application even when the respondents were parties to
an Italian proceeding because, as residents of Ohio, the respondents fell outside the
authority of the Italian courts to compel compliance with domestic discovery).
Moreover, there is no dispute that the individual Respondents will not be
participants in the foreign proceeding and thus, the first Intel factor weighs in favor
of permitting one of their depositions.
There is simply no legal error or abuse of discretion in Magistrate Judge Patti’s
weighing of the first Intel factor.

9

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.715 Filed 07/01/21 Page 10 of 19

B.
Under the second discretionary Intel factor, the Court considers “the nature of
the foreign tribunal, the character of the proceedings underway abroad, and the
receptivity of the foreign government or the court or agency abroad to U.S. federalcourt judicial assistance.” Intel, 542 U.S. at 264. Prior to evaluating this factor,
Magistrate Judge Patti asked the parties for supplemental briefing on the issue of
DIS’s receptivity to § 1782 discovery. (ECF No. 25, PageID.600.) He found the parties
to be “at odds.” (ECF No. 26, PageID.615.)
So Judge Patti reviewed the DIS rules, the parties’ competing declarations,
and the relevant case law. He found that the 2018 DIS Arbitration Rules related to
“Establishing the Facts,” namely Articles 28.1 and 28.2, “do not restrict evidence
gathering.” (ECF No. 26, PageID.613.) More specifically, Article 28.2 provides that
the tribunal “may, inter alia, on its own initiative, appoint experts, examine fact
witnesses other than those called by the parties, and order any party to produce or
make available any documents or electronically stored data.” (Id.) An entire section
of the declaration of Luxshare’s German counsel is devoted to explaining that
“German Courts Admit Evidence Obtained By Way Of U.S. Discovery Applications[].”
(ECF No. 13-2, PageID.359–362). Considering this evidence, and “without
authoritative proof that the DIS would reject Section 1782 discovery,” Magistrate
Judge Patti “assume[d] that the DIS would receive it if it were obtained and
presented.” (ECF No. 26, PageID.616.) He ultimately found that “while DIS does not

10

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.716 Filed 07/01/21 Page 11 of 19

provide a generous ration of discovery, it appears receptive to whatever evidence a
party wants to put in front of it, and it does not impede proof-gathering.” (Id.)
Respondents disagree. They first point to case law that has “cast aside” the
notion that the receptivity factor requires a respondent to provide “authoritative
proof” of non-receptivity.
But other courts have taken the opposite view. See In re Application for
Discovery for Use in Foreign Proceeding Pursuant to 28 U.S.C. § 1782, No. 17-4269,
2019 U.S. Dist. LEXIS 5632, at *20–21 (D.N.J. Jan. 10, 2019) (“In evaluating a foreign
tribunal’s receptivity, the court considers ‘authoritative proof that a foreign tribunal
would reject evidence obtained with the aid of section 1782.’” (quotation omitted); In
re O’Keeffe, 646 F. App’x 263, 265–66 (3d Cir. 2016) (finding that the district court did
not abuse its discretion in requiring “authoritative proof that the foreign court would
reject the evidence obtained with the aid of Section 1782” on a motion to quash a
subpoena). Indeed, another court in this District recently stated that “[t]he majority
of opinions from other circuits indicate that the second Intel factor weighs against a
section 1782 application only if there is ‘authoritative proof that [the] foreign tribunal
would reject evidence obtained with the aid of section 1782.’” In re Ex Parte
Caterpillar Inc., 2020 U.S. Dist. LEXIS 70913, at *31–33 (M.D. Tenn. Apr. 21, 2020)
(citing Euromepa S.A. v. R. Esmerian, Inc., 51 F.3d 1095, 1100 (2d Cir. 1995)); see
also Ecuadorian Plaintiffs v. Chevron Corp., 619 F.3d 373, 378 (5th Cir. 2010) (noting
that the party opposing discovery “ha[s] not pointed to any judicial, executive or
legislative declaration that clearly demonstrates that allowing discovery in this case

11

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.717 Filed 07/01/21 Page 12 of 19

would offend Ecuadorian judicial norms” (internal citation and quotations omitted)).
Also, “District courts have . . .been ‘instructed to tread lightly and heed only clear
statements by foreign tribunals that they would not welcome § 1782 assistance.’”
Caterpillar, 2020 U.S. Dist. LEXIS 70913, at *32 (quoting In re Porsche Automobile
Holding SE, No. 19-MC-91129, 2019 WL 5806913, at *7 (D. Mass. Nov. 6, 2019)).
After evaluating the record, Judge Patti found no definitive proof that the DIS
panel would be unreceptive to evidence derived from Luxshare’s section 1782
application. There is no legal error in his ruling. He reasonably relied on the DIS
rules and Masser’s declarations. So there is no abuse of discretion either.
Respondents next contend that the magistrate judge should have found the
receptivity factored weighed against discovery because Luxshare has yet to
commence the arbitration in Germany and thus, cannot demonstrate that the DIS
panel would find the discovery useful. Respondents cite case law in support.
But again, there is case law supporting the opposite view. See, e.g., In re Mesa
Power Group, LLC, 878 F. Supp. 2d 1296, 1303 (S.D. Fla. 2012) (“Section 1782 may
authorize and encourage judicial assistance even if the foreign proceeding has not
commenced or advanced because ‘§ 1782 is not limited to proceedings that are
pending.’” (citation omitted)).
And Intel rejected the view that a pending proceeding before a foreign tribunal
was necessary for § 1782 discovery—it required only that the proceeding be “within
reasonable contemplation.” 542 U.S. at 259. So it must be that that the district courts
can do precisely what Judge Patti did here—review the rules of the foreign arbitration

12

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.718 Filed 07/01/21 Page 13 of 19

panel and declarations from German lawyers to try to discern the panel’s receptivity
to the requested discovery.
The Court cannot say that the magistrate judge’s weighing of the discretionary
receptivity factor in Luxshare’s favor is contrary to law or clearly erroneous.
C.
Respondents next focus on Luxshare’s admissions that they are seeking § 1782
discovery because “[i]t is unlikely we’d be able to get this level of discovery in the DIS,
which is exactly why we’re seeking it here” and that “if [Luxshare] were to seek this
discovery, the DIS . . . would not permit it.” (ECF No. 27, PageID.658.) These
admissions, say Respondents, are the “essence of circumvention” of foreign proofgathering restrictions and thus, this Intel should weigh in their favor. (Id. at
PageID.659.)
Judge Patti, too, expressed concerns about these admissions. And after
considering them, the declarations from both parties’ German law experts concerning
the scope of DIS discovery, and some relevant case law, found this factor to be
“mixed.” (ECF No. 26, PageID.621.) He recognized that most foreign legal systems do
not embrace the breadth and scope of American civil discovery. (Id. at PageID.617.)
But he was also persuaded that § 1782 discovery is not prohibited under German law
or by DIS Rules. (Id. at 620.) As Judge Patti thoughtfully explained: “while the Court
maintains a healthy caution about giving discovery here that may not be readily or
at all available under the DIS Arbitration Rules, the Court also notes that they
neither foreclose nor prohibit such discovery. In other words, the Court wants to be

13

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.719 Filed 07/01/21 Page 14 of 19

cautious by not giving Petitioner full-blown Section 1782 discovery for use in a
tribunal—DIS Arbitration—that does not expressly permit it, but the Court also
certainly need not completely bar the request where the rules do not expressly
prohibit it.” (ECF No. 26, PageID.622 (emphasis in original).)
Respondents say this is error. They rely on a number of district court opinions
that they believe “confirm[] that courts closely guard against attempts to use § 1782
to evade foreign proof-gathering rules.” (ECF No. 27, PageID.659.)
But again, there is competing case law. And this Court finds persuasive the
reasoning from another court in this Circuit that “a section 1782 applicant does not
circumvent a foreign court’s purview merely by seeking discovery that would not be
available in that jurisdiction.” In re Ex Parte Caterpillar Inc., 2020 U.S. Dist. LEXIS
70913, at *34–35 (M.D. Tenn. Apr. 21, 2020); see also Mees v. Buiter, 793 F.3d 291,
303 (2d Cir. 2015) (holding that because section 1782 contains no foreigndiscoverability requirement, “the availability of the discovery in the foreign
proceeding should not be afforded undue weight”). “It is in fact well within a district
court’s authority to grant ‘broader discovery under § 1782 than what might be
permitted in the foreign tribunal.’” Id. (quoting In re Gorsoan Ltd., — F. Supp. 3d. —
, 2020 WL 409729, at *8 (S.D.N.Y. Jan. 24, 2020)). And this policy “makes logical
sense” given that the DIS tribunal will ultimately “serve as gatekeeper as to any
evidence derived from [Luxhare’s] subpoenas.” Id. at *35 (citing In re Biomet
Orthopaedics Switzerland GmBh, 742 F. App’x 690, 698 (3d Cir. 2018); see also In re
Biomet, 742 F. App.’x at 698 (noting that despite granting a section 1782 application,

14

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.720 Filed 07/01/21 Page 15 of 19

“the German court retains the authority to disregard irrelevant or cumulative
evidence, or even to conclude that it will not admit any of the submissions”)).
Absent a more compelling showing by Respondents that the discovery sought
by Luxshare would be prohibited by the German arbitral tribunal, the Court cannot
say that the magistrate judge’s weighing of this discretionary Intel factor is contrary
to law or clearly erroneous.
D.
The fourth Intel factor concerns the scope of the discovery requests.
Respondents even take issue with Magistrate Judge Patti’s efforts to scale back the
scope of the subpoenas.
First, say respondents, “there is no permissible scope for a subpoena that fails
the first three discretionary factors.” (ECF No. 27, PageID.662.) But, for the wellsupported reasons provided by the magistrate judge and, as set forth above,
Luxshare’s requests do not fail the first three discretionary factors.
Next, respondents contend that the magistrate judge’s decision fails to satisfy
the “twin aims” of § 1782, which are “providing efficient assistance to participants in
international litigation and encouraging foreign countries by example to provide
similar assistance to our courts.” Intel, 542 U.S. at 252. Respondents are most upset
with Magistrate Judge Patti’s finding that he “need not wait to see what DIS is going
to do, because ‘the Panel has the authority to admit evidence as it sees fit,’ and it is
‘in the best position to make those evidentiary determinations.’” (ECF No. 27,
PageID.662.)

15

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.721 Filed 07/01/21 Page 16 of 19

But the Court fails to see how allowing limited discovery now of information
located in this District, that will help keep the arbitration on an expedited track once
it commences, and then permitting DIS, with its superior knowledge of foreign law
and procedure, to serve as the ultimate evidentiary gate-keeper, is inefficient for the
participants. And, as pointed out by Luxshare, “the grant of Section 1782 [discovery]
serves as a ‘generous example’ to encourage foreign countries to provide similar
means of assistance to U.S. litigants.” (ECF No. 28, PageID.698–699 (citing Heraeus
Kulzer, GmbH v. Biomet, Inc., 633 F.3d 591, 594 (7th Cir. 2011)).) Thus, the “twin
aims” of section 1782 do not appear to be in any peril from the magistrate judge’s
ruling.
Respondents also suggest that Magistrate Judge Patti’s ruling somehow
contravenes the parties’ intent in contracting for the German arbitration. But Judge
Patti was cognizant of this concern. He requested and then carefully considered the
parties’ supplemental briefing on this issue. He aptly noted that the parties’
arbitration provision “could have included appropriate language prohibiting Section
1782 discovery,” but did not, and he reiterated that “the 2018 DIS Arbitration
Rules . . . do not restrict evidence gathering.” (ECF No. 26, PageID.623.) Moreover,
the discovery being sought bears on key issues at stake in the impending arbitration,
that being Respondents’ knowledge that Ford, GM, and FCA were reducing or
eliminating their business with the ZF US business units being purchased by
Luxshare and Respondents’ decision to not disclose this information to Luxshare.
Also, as Judge Patti found, Luxshare’s pursuit of this Section 1782 discovery now “is

16

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.722 Filed 07/01/21 Page 17 of 19

consistent with a desire to keep the arbitration on an expedited track, once it
commences, by obtaining the discovery beforehand.” (ECF No. 26, PageID.626.) So
again, the Court fails to see how Judge Patti’s allowance of limited, relevant discovery
upsets the efficiency Respondents believe they bargained for by expressly electing for
dispute resolution by the DIS.
In sum, there is nothing about the “twin aims” of § 1782 that warrants a
reversal of Magistrate Judge Patti’s ruling.
E.
Respondents’ final objection concerns Magistrate Judge Patti’s denial of their
request to stay these proceedings.
The Supreme Court is presently considering whether the discretion granted to
district courts in 28 U.S.C. § 1782(a) to render assistance in gathering evidence for
use in “a foreign or international tribunal” encompasses or excludes private,
commercial arbitral tribunals. See Servotronics, Inc. v. Rolls-Royce PLC, 141 S. Ct.
1684 (2021). This will resolve a circuit split. The Sixth Circuit has held that Section
1782 discovery is available for private, foreign arbitrations. Abdul Latif Jameel
Trans. Co. Ltd. v. FedEx Corp., 939 F.3d 710, 730 (6th Cir. 2019). Of course, this
Court remains bound by Abdul until the Supreme Court says otherwise. If, however,
the Supreme Court determines that foreign private arbitrations are not subject to
§ 1782, then Luxshare’s application will not satisfy the statutory prerequisites. Thus,
say Respondents, it was error for Magistrate Judge Patti to refuse to stay this case
pending a ruling in Servtronics.

17

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.723 Filed 07/01/21 Page 18 of 19

While this is easy to say, it is much harder to prove. A district court has “broad
discretion . . . as an incident to [its] power to control its own docket” to stay some or
all of pending proceedings. Clinton v. Jones, 520 U.S. 681, 706 (1997). Indeed, “[t]he
power to stay proceedings is incidental to the power inherent in every court to control
the disposition of the causes on its docket with economy of time and effort for itself,
for counsel, and for litigants. How this can best be done calls for the exercise of
judgment, which must weigh competing interests and maintain an even balance.”
Landis v. North American Co., 299 U.S. 248, 254 (1936). The court “must tread
carefully in granting a stay of proceedings, since a party has a right to a
determination of its rights and liabilities without undue delay.” Ohio Envtl. Council
v. U.S. Dist. Court, S. Dist. of Ohio, E. Div., 565 F.2d 393, 396 (6th Cir. 1977).
As he did in weighing the Intel factors, Magistrate Judge Patti gave thoughtful
consideration to the stay issue:
Given the potential length of time before the Supreme Court issues its
decision in Servotronics, the fact that there is binding precedent from
the Sixth Circuit, and the need for swifter action and greater certainty
within the timeframe for the filing and pursuit of what will be expedited
arbitration proceedings in Germany, the Court declines to exercise its
discretion to stay the case pending the Supreme Court’s decision in
Servotronics.
Furthermore, the limited scope of the discovery which this Court has
decided to grant takes the uncertainty of how the Supreme Court will
rule on this issue into account—in conjunction with the discretionary
Intel factors—permitting some, but by no means all of the requested
discovery, and recognizing that both DIS and the Supreme Court may
give further guidance in the future.
(ECF No. 26, PageID.629–630.)

18

Case 2:20-mc-51245-LJM-APP ECF No. 29, PageID.724 Filed 07/01/21 Page 19 of 19

There is simply no merit in any contention that this ruling is an abuse of
discretion or in any other way erroneous.
IV.
For all of these reasons, Respondents’ objections to Magistrate Judge Patti’s
order on their motion to quash are OVERRULED.
SO ORDERED.
Dated: July 1, 2021
s/Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES DISTRICT JUDGE

19

EXHIBIT D

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.857 Filed 08/17/21 Page 1 of 14

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUXSHARE, LTD.,
Petitioner,
v.

Case No. 20-mc-51245
Honorable Laurie J. Michelson
Magistrate Judge Anthony P. Patti

ZF AUTOMOTIVE US, INC., et al.,
Respondents.
OPINION AND ORDER DENYING MOTION TO STAY [30] AND
GRANTING MOTION TO COMPEL [31]
As a result of a business dispute involving hundreds of millions of dollars in
potential damages, Luxshare, LTD intends to initiate, by the end of the year, an
arbitration proceeding in Munich, Germany against ZF Automotive US, Inc.
Luxshare came to this federal court in the Eastern District of Michigan pursuant to
28 U.S.C. § 1782 seeking discovery for the arbitration from ZF US and two of its
senior officers who reside in the District.
Some procedural history tees up the motion now before the Court. This Court
referred Luxshare’s petition to Magistrate Judge Anthony P. Patti. He reviewed the
briefing, conducted an extensive hearing, and requested supplemental briefing,
before ultimately granting discovery in limited scope. Judge Patti permitted
Luxshare to obtain limited email production and to take one deposition. (ECF No.
26.) ZF US filed objections to Judge Patti’s opinion and order, which this Court
reviewed under an abuse of discretion standard. The Court found no legal error or

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.858 Filed 08/17/21 Page 2 of 14

abuse of discretion in Judge Patti’s order and overruled ZF US’s objections. (ECF No.
29.) Even so, ZF US has not produced any discovery materials; instead it filed a
motion to stay. (ECF No. 30.) On the same day, Luxshare filed a motion to compel.
(ECF No. 31.) ZF US has since filed a notice of appeal (ECF No. 32) and a motion to
stay with the Sixth Circuit, Motion, Luxshare, Ltd. v. ZF Automotive US, Inc., No. 212736 (6th Cir. July 23, 2021). A few days later, the Sixth Circuit ordered ZF US to
show cause why the appeal should not be dismissed for lack of jurisdiction. Luxshare,
Ltd. v. ZF Automotive US, Inc., No. 21-2736 (6th Cir. July 27, 2021) (show cause
order). ZF US has filed a response, but the Sixth Circuit has not yet ruled. See
Response, Luxshare, Ltd. v. ZF Automotive US, Inc., No. 21-2736 (6th Cir. July 30,
2021).
In the meantime, ZF US’s motion to stay and Luxshare’s motion to compel are
before this Court. For the reasons that follow, the Court denies ZF US’s motion to
stay. The Court grants Luxshare’s motion to compel and orders ZF US to produce the
discovery within 14 days of a ruling from the Sixth Circuit denying the motion to stay
or dismissing the appeal.
The Motion to Stay
The Court begins with ZF US’s motion to stay the case pending appeal. This
Court has discretion to stay its ruling and ZF US “bears the burden of showing that
the circumstances justify an exercise of [] discretion.” Nken v. Holder, 556 U.S. 418,
433−34 (2009). The Court considers four factors to determine whether a stay should
be issued pending appeal: (1) whether the stay applicant has made a strong showing

2

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.859 Filed 08/17/21 Page 3 of 14

that it is likely to succeed on the merits on appeal; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether issuance of the stay will substantially
injure the other parties interested in the proceeding; and (4) whether the public
interest is served. Hilton v. Braunskill, 481 U.S. 770, 776 (1987); JSC MCC
EuroChem v. Chauhan, No. 18-5890, 2018 WL 9650037, at *1 (6th Cir. Sept. 14,
2018).

For a stay pending appeal, the first factor, likelihood of success on the merits,
essentially asks whether there is “a likelihood of reversal.” Michigan Coal. of
Radioactive Material Users, Inc. v. Griepentrog, 945 F.2d 150, 153 (6th Cir. 1991). To
justify a stay the movant “need not always establish a high probability of success on
the merits.” Michigan Coal., 945 F.2d at 153 (internal citations omitted). But the
“probability of success that must be demonstrated is inversely proportional to the
amount of irreparable injury plaintiffs will suffer absent the stay” and the movant is
“always required to demonstrate more than the mere possibility of success on the
merits.” Id. (internal citations and quotation marks omitted). As will be discussed
below, ZF US has not demonstrated any irreparable harm, so it needs to show a high
likelihood of success on this factor.
ZF US argues that it has a likelihood of success on the merits of its appeal
because (1) the Supreme Court has granted review of a case involving the same key
issue presented in this case, and (2) ZF US’s appeal to the Sixth Circuit involves
issues of first impression.

3

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.860 Filed 08/17/21 Page 4 of 14

In March 2021, the Supreme Court granted certiorari in Servotronics, Inc. v.
Rolls-Royce PLC to address a circuit split over whether § 1782 encompasses private
commercial arbitral tribunals. Servotronics, Inc. v. Rolls-Royce PLC, 141 S. Ct. 1684
(2021). If § 1782 does not encompass private commercial arbitral tribunals, Luxshare
would not be entitled to the discovery granted in this case.
But the current law in the Sixth Circuit is that § 1782 discovery may be used
for private commercial arbitrations. See Abdul Latif Jameel Trans. Co. Ltd. v. FedEx
Corp., 939 F.3d 710, 723 (6th Cir. 2019). The Supreme Court’s grant of certiorari in
Servotronics does not change this binding precedent. See In re Bradford, 830 F.3d
1273, 1275 (11th Cir. 2016) (“[G]rants of certiorari do not themselves change the law,
and must not be used by courts as a basis to grant relief that would otherwise be
denied.” (internal citation and quotation marks omitted)). So if the Sixth Circuit rules
on ZF US’s appeal based on the current binding precedent, ZF US has very little
likelihood of success on the merits.
Another possibility is that the Sixth Circuit will not decide ZF US’s appeal
until after the Supreme Court’s ruling in Servotronics. But even considering the
possibility that the Sixth Circuit law could change as a result of the Supreme Court’s
ruling, many unknowns remain. At this point, it is not even clear that the case will
be heard by the Supreme Court as scheduled in October 2021. The respondents in
Servotronics recently filed a brief arguing that the case has become moot and asking
the Supreme Court to dismiss the case. (ECF No. 35, PageID.824 (citing Brief for
Respondent at 12-14, Servotronics, Inc. v. Rolls-Royce PLC, No. 20-794 (June 21,

4

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.861 Filed 08/17/21 Page 5 of 14

2021).) Even if the case is heard in October, the decision could come as late as June
2022, six months after Luxshare’s deadline to initiate arbitration that will be
expedited. And of course, the Supreme Court may interpret § 1782 as the Sixth
Circuit has. Luxshare raises an additional relevant piece of information: In the
parallel Servotronics case decided by the Fourth Circuit, the Supreme Court recently
declined to stay the Fourth Circuit’s order allowing discovery under § 1782. See RollsRoyce PLC v. Servotronics, Inc., No. 20A160, 2021 WL 1618133 (U.S. Apr. 27, 2021).
In sum, Sixth Circuit law controls unless the Supreme Court says otherwise.
Under current Sixth Circuit law, ZF US has little likelihood of success. And the
Supreme Court may not say otherwise until after the arbitration takes place or the
Sixth Circuit rules on ZF US’s appeal. Moreover, it may not say otherwise at all, and
instead adopt the view of the Sixth Circuit. So the grant of certiorari only shows that
ZF US has, at best, a possibility, not a likelihood, of succeeding on appeal.
ZF US’s second likelihood-of-success argument fares no better. ZF US argues
that it can satisfy the likelihood-of-success factor simply by showing that there are
substantial legal questions or matters of first impression at issue. (ECF No. 30,
PageID.734.) But this is not a position endorsed by the Sixth Circuit. Even on
questions of first impression, ZF US must demonstrate a likelihood of reversal to a
degree inversely proportional to the irreparable harm it would suffer absent a stay.
See Michigan Coal., 945 F.2d at 153. Again, as discussed below, ZF US has not
demonstrated any irreparable harm, so it would need to show a high likelihood of
success on this factor.

5

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.862 Filed 08/17/21 Page 6 of 14

To determine ZF US’s likelihood of success, it is important to consider the
standard of review. A district court’s authorization of discovery under § 1782 is
reviewed for an abuse of discretion. JSC, 2018 WL 9650037, at *1. “An abuse of
discretion occurs only ‘when the district court relies on clearly erroneous findings of
fact, . . . improperly applies the law, . . . or . . . employs an erroneous legal standard.”
Id. (quoting Barner v. Pilkington N. Am., Inc., 399 F.3d 745, 748 (6th Cir. 2005)).
Considering ZF US’s three supposed questions of first impression under the
abuse of discretion standard, ZF US has not shown a likelihood of success on any of
them. For the first two issues, ZF US does not allege that the Court made a clearly
erroneous finding of fact or an incorrect legal ruling, so it has not shown any
likelihood that the Sixth Circuit would overrule the Court’s order on either of these
bases.
For the third issue, ZF US does argue that the Court employed the wrong legal
standard by reviewing the magistrate judge’s decision under the “clearly erroneous
or contrary to law” standard. (ECF No. 30, PageID.739.) ZF US argues that the
magistrate judge’s decision should be considered dispositive and thus must be
reviewed de novo. (Id.) True, the Sixth Circuit has not ruled on this question. But in
its own order, this Court considered this question and noted that although no
appellate court has addressed the issue, most lower courts have found that such
rulings are not dispositive. Luxshare, LTD. v. ZF Auto. US, Inc., No. 2:20-MC-51245,
2021 WL 2705477, at *2 (E.D. Mich. July 1, 2021) (citing In re Hulley Enters., 400 F.

6

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.863 Filed 08/17/21 Page 7 of 14

Supp. 3d 62, 71 (S.D.N.Y. 2019)). ZF US has not presented any evidence to suggest
that the Sixth Circuit will rule differently.
Instead, ZF US argues, without any case law in support, that because a
decision on a motion to quash is final and appealable, it must also be dispositive.
(ECF No. 30, PageID.739.) But, in fact, in the show cause order issued by the Sixth
Circuit in this case, the court of appeals questioned whether this Court’s ruling is
even appealable. Luxshare, Ltd. v. ZF Automotive US, Inc., No. 21-2736 (6th Cir. July
27, 2021) (show cause order). The Sixth Circuit’s denial of a stay in JSC MCC
EuroChem provides an additional clue. In that case, the district court similarly
reviewed the magistrate judge’s order under an abuse of discretion standard and the
Sixth Circuit did not raise this as an issue in its decision denying a stay. 2018 WL
9650037, at *1.
So although the standard of review for a magistrate judge’s order on a motion
to quash a subpoena pursuant to § 1782 is an issue of first impression in the Sixth
Circuit, ZF US has not presented any evidence of “more than the mere possibility of
success on the merits” of this question.
Because § 1782 extends to private arbitration under binding precedent that
currently applies to ZF US’s appeal and it is uncertain when and what the Supreme
Court might rule in Servotronics, and because ZF US has not shown a high likelihood
that this Court otherwise erred in its ruling, the Court finds that the first factor,
likelihood of success on appeal, does not favor a stay.

7

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.864 Filed 08/17/21 Page 8 of 14

The Court next considers whether ZF US would be irreparably harmed in the
absence of a stay and balances the degree of potential harm with the likelihood of
success on appeal discussed above. “In evaluating irreparable harm, we consider: the
‘substantiality of the injury alleged’; whether the injury will likely occur; and whether
the movant provided adequate proof of the alleged injury.” JSC MCC EuroChem,
2018 WL 9650037, at *2 (quoting Mich. Coalition, 945 F.2d at 154).
For a multi-billion-dollar company like ZF US, the time and money required to
produce a limited category of emails and conduct a single deposition is clearly not
irreparable harm. See Sampson v. Murray, 415 U.S. 61, 90 (1974) (“Mere injuries,
however substantial, in terms of money, time and energy necessarily expended in the
absence of a stay, are not enough.” (internal citation omitted)). But ZF US argues that
the source of irreparable harm is that if ZF US produces the discovery materials now,
Luxshare will immediately initiate arbitration and use the materials against ZF US.
And the expedited arbitration proceedings will likely conclude before the Sixth
Circuit rules on ZF US’s appeal and the Supreme Court rules on Servotronics. So, ZF
US argues, there would be no remedy if it is later determined that Luxshare was not
entitled to the discovery.
But even if a discovery order cannot be undone, it does not automatically follow
that this creates irreparable harm. The worst case for ZF US is that it has to produce
limited discovery that it should not have to—but as just stated, that is not a
substantial cost for a company like ZF US. ZF US cites several cases that discuss the

8

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.865 Filed 08/17/21 Page 9 of 14

irreparable harm that can be caused by an “erroneous forced disclosure” of
confidential or privileged information. In re Pros. Direct Ins. Co., 578 F.3d 432, 438
(6th Cir. 2009); see also In re Lott, 139 F. App’x. 658, 662 (6th Cir. 2005); In re Ford
Motor Co., 110 F.3d 954, 962–64 (3d Cir. 1997). In the case of confidential or
privileged information there is an inherent harm in wrongfully disclosing
“information that is claimed to be protected by the Constitution, privilege, or more
general interests in privacy.” In re Pros. Direct Ins. Co., 578 F.3d 432, 438 (6th Cir.
2009) (quoting 16 Wright & Miller, Federal Practice & Procedure § 3935.3). And in
the case of disclosure of privileged information, there is a harm done to the privilege
itself, which cannot be cured. In re Lott, 424 F.3d 446, 452 (6th Cir. 2005).
But in this case, the discovery ordered by the Court does not include any
privileged or confidential materials. Reading between the lines, ZF US seems to be
concerned about the harm that might accrue to ZF US if Luxshare discovers evidence
supportive of its claims and uses it against ZF US in the arbitration. But ZF US
cannot claim that it would be harmed by the disclosure of evidence of its own
wrongdoing that is not privileged or confidential. So because the discovery is not
privileged or confidential, and ZF US offers no other argument for how the production
of this discovery would cause irreparable harm, ZF US has not met its burden on this
factor.
ZF US’s final argument, that it will be harmed by not having reciprocal
discovery, is unavailing. ZF US did not ask for reciprocal discovery.

9

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.866 Filed 08/17/21 Page 10 of 14

In sum, the Court agrees with its sister court in the Southern District of New
York that “a requirement to produce documents, at least absent a claim of privilege
or sensitivity, is not generally the type of injury that is irreparable.” In re Platinum
Partners Value Arbitrage Fund LP, 2018 WL 3207119, at *6 (S.D.N.Y. June 29, 2018).
Considering the low likelihood of success on the merits its appeal along with
the absence of any irreparable harm, the outcome of ZF US’s motion to stay seems
apparent. But in the interest of thoroughness, the Court will briefly address the final
two stay factors.

The third factor is whether a stay will substantially injure the other parties
interested in the proceeding. Both parties agree that Luxshare could be harmed if a
stay were granted without tolling the statute of limitations for initiating arbitration
by the end of 2021. In its motion, ZF US states that if a stay is granted it agrees that
the statute of limitations will be tolled pending the Sixth Circuit appeal. (ECF No.
30, PageID.745.) Luxshare is skeptical of ZF US’s offer because it was only made in
their brief without any sort of binding declaration or agreement. (ECF 35,
PageID.830.) The Court also notes that neither party has made it clear whether the
private arbitration tribunal would accept a tolling agreement.
Regardless, Luxshare argues that it would be harmed even if the statute of
limitations were tolled. First, production of the discovery has already been delayed.
And particularly in the case of the deposition, further delay comes with the risk of
fading memory or witness incapacity. As discussed above, it could be 10 months

10

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.867 Filed 08/17/21 Page 11 of 14

before the Supreme Court issues a decision in Servotronics. And the timeline for ZF
US’s appeal is unknown. Luxshare claims that ZF US is responsible for hundreds of
millions of dollars of damages. So Luxshare could be substantially injured if it is
denied access to discovery it is ultimately entitled to. Given these risks, the possible
harm to Luxshare if a stay is granted is at least as great as the risk to ZF US in the
absence of a stay.

Finally, the Court must consider whether the public interest would be served
by a stay. ZF US argues that third parties should be protected from the burden of
sitting for a deposition, but the two potential deponents here are both parties to this
case. On the other hand, Luxshare argues that a stay of discovery would frustrate the
twin aims of § 1782. These twin aims are “providing efficient assistance to
participants in international litigation and encouraging foreign countries by example
to provide similar assistance to our courts.” In re Application to Obtain Discovery for
Use in Foreign Proc., 939 F.3d 710, 730 (6th Cir. 2019) (internal citation omitted); see
also Nikon Corp. v. GlobalFoundries U.S., Inc., No. 17-MC-80071-BLF, 2017 WL
4865549, at *3 (N.D. Cal. Oct. 26, 2017) (“[The dual] purposes would be frustrated by
a stay order.”). A number of courts have held that the public interest weighs against
a stay of discovery in a § 1782 case because discovery “supports the truth in foreign
actions.” In re Bracha Found., No. 2:15-MC-748, 2015 WL 6828677, at *4 (N.D. Ala.
Nov. 6, 2015); see also In re Application of Procter & Gamble Co., 334 F. Supp. 2d
1112, 1118 (E.D. Wis. 2004) (“[T]he public interest favors allowing the discovery

11

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.868 Filed 08/17/21 Page 12 of 14

because doing so furthers the search for the truth in the foreign actions.”); In re
Sergeeva, No. 1:13-CV-3437, 2015 WL 13774466, at *3 (N.D. Ga. July 20, 2015)
(“[A]llowing the information to be produced will assist in the foreign tribunal’s search
for the truth.”). The Court agrees that the public’s interest in truth and efficiency in
foreign actions and in encouraging mutual assistance between foreign tribunals
weighs against a stay in this case.
***
ZF US’s low, or at best uncertain, likelihood of success on the merits of its
appeal, the absence of irreparable harm to ZF US absent a stay, the harm that
Luxshare could suffer if discovery is stayed, and the public interest weigh against a
stay. ZF US’ motion to stay will be thus be denied.
The Motion to Compel
Also before the Court is Luxshare’s motion to compel the discovery previously
ordered by the Court.
Judge Patti’s decision to allow Luxshare limited discovery became final on July
1, 2021 when the Court overruled ZF US’s objections to the order. (ECF No. 29.) As
detailed above, the Court is denying ZF US’s motion to stay the order. ZF US does
not offer any real reason why the motion to compel should not be granted beyond
reiterating arguments that the Court has already addressed and rejected in this
opinion and previous opinions. Nor can it. Luxshare is entitled to discovery under the
Court’s July 1 order and so the motion to compel that discovery will be granted.

12

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.869 Filed 08/17/21 Page 13 of 14

But the Court appreciates that ZF US has also filed a motion to stay with the
Sixth Circuit. And ZF US represents that it has “engaged in good-faith efforts to
collect responsive documents to be prepared to expeditiously produce these
documents.” (ECF No. 36, PageID.841.) So if the Sixth Circuit denies the motion for
stay or dismisses the appeal, ZF US will have 14 days from either of those events to
produce the discovery.
In its motion to compel, Luxshare also requests the costs and attorney’s fees
for its motion. (ECF No. 31, PageID.759.) Luxshare argues that this request is
justified under Fed. R. Civ. P. 37(b)(2) because ZF US “fail[ed] to obey an order to
provide or permit discovery[.]” Rule 37(b)(2) also states that attorney’s fees and
expenses are justified “unless the failure was substantially justified or other
circumstances make an award of expenses unjust.” Here, an award of fees is not
warranted because ZF US communicated to Luxshare shortly after the Court’s July 1
order that it intended to appeal the decision and seek a stay. And there was some
legal basis for ZF US to appeal and seek a stay given the state of the law in the Sixth
Circuit and the fact that the issue is pending before the Supreme Court. So ZF US
was substantially justified in failing to comply with the order while it prepared and
promptly filed its motion to stay and notice of appeal.

For the reasons stated above, the Court DENIES ZF US’s motion for a stay
(ECF No. 30). The Court GRANTS Luxshare’s motion to compel (ECF No. 31) and
orders ZF US to comply with the subpoenas and produce the discovery materials as

13

Case 2:20-mc-51245-LJM-APP ECF No. 38, PageID.870 Filed 08/17/21 Page 14 of 14

directed in the Court’s previous order (ECF No. 26) within 14 days of an order by the
Sixth Circuit either denying ZF US’s motion to stay or dismissing the appeal.
SO ORDERED.
Dated: August 17, 2021
s/Laurie J. Michelson
LAURIE J. MICHELSON
UNITED STATES DISTRICT JUDGE

14

EXHIBIT E

Case: 21-2736

Document: 31-2

Filed: 10/13/2021

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0241p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LUXSHARE, LTD.,
Petitioner-Appellee,
v.
ZF AUTOMOTIVE US,
CHRISTOPHE MARNAT,

INC.;

GERALD

DEKKER;

Respondents-Appellants.

┐
│
│

>

│
│
│
│
│
│
┘

No. 21-2736

On Jurisdictional Show Cause Order, Motion to Stay Pending Appeal, and Motion to Expedite.
United States District Court for the Eastern District of Michigan at Detroit;
No. 2:20-mc-51245—Laurie J. Michelson, District Judge.
Decided and Filed: October 13, 2021
Before: SUTTON, Chief Judge; ROGERS and GRIFFIN, Circuit Judges.
_________________
COUNSEL
ON RESPONSE TO SHOW CAUSE ORDER AND ON MOTION FOR STAY PENDING
APPEAL: Sean M. Berkowitz, LATHAM & WATKINS LLP, Chicago, Illinois, Roman
Martinez, Tyce R. Walters, LATHAM & WATKINS LLP, Washington, D.C., for Appellants.
ON MOTION TO EXPEDITE DECISION: William R. Jansen, Michael G. Brady, WARNER
NORCROSS + JUDD LLP, Detroit, Michigan, Bradley S. Pensyl, ALLEN & OVERY LLP,
New York, New York, for Appellees.
_________________
ORDER
_________________
This case concerns discovery, but with an international flavor. ZF Automotive US, Inc.,
Gerald Dekker, and Christophe Marnat (collectively, “ZF US”) appeal a district court order
granting limited discovery to Luxshare, Ltd., under 28 U.S.C. § 1782. Luxshare plans to use the

Case: 21-2736
No. 21-2736

Document: 31-2

Filed: 10/13/2021

Page: 2

Luxshare, Ltd. v. ZF Automotive US, Inc., et al.

Page 2

discovery in the parties’ international arbitration. ZF US moves for a stay pending appeal,
highlighting the Supreme Court’s grant of certiorari in Servotronics v. Rolls-Royce PLC, 141 S.
Ct. 1684 (2021), as well as ZF US’s pending motion before the Supreme Court to grant an
immediate appeal on the same issues raised in Servotronics.
As a threshold issue, the clerk ordered ZF US to show cause why its appeal should not be
dismissed for lack of jurisdiction. Courts of appeals, outside of a few exceptions, have authority
to review only “final decisions” of the district courts. 28 U.S.C. § 1291. The rule is designed to
prevent “piecemeal” adjudication. Abney v. United States, 431 U.S. 651, 656 (1977). Litigants
thus cannot immediately appeal discovery orders in most cases. More specifically, we have said
that “a party served with a subpoena typically cannot appeal the denial of a motion to quash the
subpoena until [it] has resisted the subpoena and been held in contempt.” Doe v. United States,
253 F.3d 256, 261 (6th Cir. 2001).
But a § 1782 proceeding is different, as the entire dispute concerns discovery. Section
1782(a) permits a district court to order a person “to give his testimony or statement or to
produce a document or other thing for use in a proceeding in a foreign or international tribunal.”
The district court’s decision whether to order discovery—or, as here, whether to quash a
subpoena ordering discovery—conclusively resolves the subject matter of the underlying
proceeding. In the absence of “an ‘underlying’ [merits] proceeding, many of the concerns that
make us reluctant to review discovery orders on an interlocutory basis disappear.”

In re

Naranjo, 768 F.3d 332, 347 (4th Cir. 2014). We thus join the steady drumbeat of our sister
circuits, which uniformly hold that orders under § 1782, including on motions to quash
subpoenas, are final, appealable orders under 28 U.S.C. § 1291. See, e.g., In re Application of
Gianoli Aldunate, 3 F.3d 54, 57 (2d Cir. 1993); Bayer AG v. Betachem, Inc., 173 F.3d 188, 189
n.1 (3d Cir. 1999); Naranjo, 768 F.3d at 346–47; Heraeus Kulzer, GmbH v. Biomet, Inc., 633
F.3d 591, 593 (7th Cir. 2011); United States v. Sealed 1, Letter of Request for Legal Assistance
from the Deputy Prosecutor Gen. of the Russian Fed’n, 235 F.3d 1200, 1203 (9th Cir. 2000)
(order); Republic of Ecuador v. For the Issuance of a Subpoena Under 28 U.S.C. § 1782(a), 735
F.3d 1179, 1183 (10th Cir. 2013); In re Application of Furstenberg Fin. SAS v. Litai Assets LLC,
877 F.3d 1031, 1033 (11th Cir. 2017).

Case: 21-2736
No. 21-2736

Document: 31-2

Filed: 10/13/2021

Page: 3

Luxshare, Ltd. v. ZF Automotive US, Inc., et al.

Page 3

Assured of our jurisdiction, we turn to the motion to stay. We consider four factors in
determining whether to grant a stay: 1) “whether the stay applicant has made a strong showing
that [it] is likely to succeed on the merits”; 2) the likelihood the “applicant will be irreparably
injured absent a stay”; 3) “whether issuance of the stay will substantially injure” other interested
parties; and 4) “where the public interest lies.” Hilton v. Braunskill, 481 U.S. 770, 776 (1987).
The first two factors “are the most critical.” Nken v. Holder, 556 U.S. 418, 434 (2009). But
while the party seeking a stay “need not always establish a high probability of success on the
merits,” the party “is still required to show, at a minimum, ‘serious questions going to the
merits.’” Mich. Coal. of Radioactive Material Users v. Griepentrog, 945 F.2d 150, 153–54 (6th
Cir. 1991) (quoting In re DeLorean Motor Co., 755 F.2d 1223, 1229 (6th Cir. 1985)).
ZF US primarily argues that it has established a likelihood of success on appeal based on
the Supreme Court’s grant of certiorari in Servotronics, which could reach a different result from
the one our court did in Abdul Latif Jameel Transportation Co. v. FedEx Corp., 939 F.3d 710
(6th Cir. 2019), about whether § 1782 applies to private arbitration. But ZF US must show
“[m]ore than a mere ‘possibility’” of success on the merits to satisfy this factor. Nken, 556 U.S.
at 434 (alteration in original); cf. Trump v. Int’l Refugee Assistance Project, 137 S. Ct. 2080,
2089 (2017) (Thomas, J., concurring in part) (acknowledging that, when a party seeks a stay
pending certiorari, the applicant must show not only “a reasonable probability that certiorari will
be granted” but also “a significant possibility that the judgment below will be reversed” (quoting
Barnes v. E-Sys., Inc. Grp. Hosp. Med. & Surgical Ins. Plan, 501 U.S. 1301, 1302 (1991)
(Scalia, J., in chambers))). The Supreme Court at any rate has since dismissed Servotronics, so
this argument falls to the side either way. ZF US’s other arguments for reversing the district
court likewise fail to meet the requisite burden at this stage.
ZF US also alleges that it will suffer irreparable harm in the absence of a stay because—
should this court find in its favor—the arbitration proceedings will likely be complete, and it will
have no remedy for the harm.

But ZF US has failed to show that the minimal and

nonconfidential discovery here would constitute irreparable harm. In any event, it has not shown
the requisite likelihood of success on the merits of its appeal. See Tiger Lily, LLC v. U.S. Dep’t
of Hous. & Urb. Dev., 992 F.3d 518, 524 (6th Cir. 2021) (order) (“Given that the [movant] is

Case: 21-2736
No. 21-2736

Document: 31-2

Filed: 10/13/2021

Page: 4

Luxshare, Ltd. v. ZF Automotive US, Inc., et al.

Page 4

unlikely to succeed on the merits, we need not consider the remaining stay factors.”). If we
ultimately reverse the district court, we may mitigate any harms from the discovery as the
circumstances allow. See JSC MCC EuroChem v. Chauhan, No. 18-5890, 2018 WL 9650037, at
*2 (6th Cir. Sept. 14, 2018) (order).
Accordingly, the show cause order is withdrawn. The motion to stay pending appeal is
DENIED. The motion to expedite is DENIED AS MOOT.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

EXHIBIT F

DECLARATION OF MICHAEL J. WAY IN SUPPORT OF ZF AUTOMOTIVE US
INC.’S APPLICATION FOR STAY AND REQUEST FOR IMMEDIATE STAY
I, Michael J. Way, declare under penalty of perjury, pursuant to 28 U.S.C. § 1746, as
follows:
1.

My name is Michael J. Way. I am a resident of Bloomfield Hills, Michigan.

2.

I submit this Declaration in support of the response of ZF Automotive US, Inc.

(“ZF US”). I make this Declaration based upon my personal knowledge.
3.

In 2017 and 2018, when ZF US negotiated and completed the sale of its Global

Body Control Systems (“BCS”) business unit to Luxshare Ltd. (“Luxshare”), I was Assistant
Secretary at ZF US.
4.

I currently serve as Assistant Secretary at ZF US. In that capacity, I have authority

to negotiate on behalf of and bind ZF US.
5.

I am familiar with the statements from Luxshare indicating their intent to

commence an arbitration in Germany against ZF US regarding claims arising from ZF US’s sale
of its BCS business unit. I am also familiar with Luxshare’s application to take certain discovery
of ZF US pursuant to 28 U.S.C. § 1782.
6.

I am aware that on July 1, 2021, the district court entered an opinion and order

overruling ZF US’s objections and affirming the magistrate judge’s opinion and order of May 27,
2021. The magistrate judge’s opinion and order granted in part and denied in part ZF US’s motion
to quash Luxshare’s Section 1782 application, thus permitting certain discovery to proceed against
ZF US. ZF US has appealed the district court’s opinion and order to the U.S. Court of Appeal for
the Sixth Circuit, and has also filed a petition for certiorari before judgment with the United States
Supreme Court.

1

7.

I am aware that on August 17, 2021, the district court denied ZF US’s motion to

stay discovery pending ZF US’s appeal of the district court’s order to the Sixth Circuit, but
simultaneously ruled that ZF US would not be compelled to produce the requested discovery until
fourteen days after the Sixth Circuit rules on ZF’s motion for a stay pending appeal. And I am
aware that on October 13, 2021, the Sixth Circuit denied ZF’s motion for a stay.
8.

In an effort to ensure that the parties are able to obtain appellate review of the

important issues in this case, and permit the Supreme Court to use this vehicle to decide the
threshold question of the applicability of Section 1782 on which it had granted review in
Servotronics, Inc. v. Rolls-Royce PLC, Case No. 19-1847—while ensuring that Luxshare is not
prejudiced with respect to the running of any statute of limitations on its claims against ZF US—
ZF US agrees that: If the Supreme Court grants a stay of this case, ZF US will not invoke the
applicable statute of limitations until four months after the Supreme Court has resolved this matter.

October 13 2021
Date: ___________,
Bloomfield Hills, Michigan

______________________________
s/ Michael J. Way

2

EXHIBIT G

